<html>
<title> - IRAQ TRANSITION: CIVIL WAR OR CIVIL SOCIETY? [PART I]</title>
<body><pre>[Senate Hearing 108-578]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-578
 
              IRAQ TRANSITION: CIVIL WAR OR CIVIL SOCIETY?
                                [PART I]

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 20, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2004
95-512 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Berger, Hon. Samuel R. (Sandy), chairman, Stonebridge 
  International, LLC, Washington, DC.............................    17
    Prepared statement...........................................    20
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
    Prepared statement...........................................     9
Boxer, Hon. Barbara, U.S. Senator from California, article 
  submitted for the record entitled, ``The Struggle for Iraq: 
  Uprising,'' by John F. Burns, The New York Times, April 9, 2004    38
Cole, Dr. Juan, professor of Modern Middle Eastern History, 
  University of Michigan, Ann Arbor, MI..........................    45
    Prepared statement...........................................    48
Dodge, Dr. Benjamin T. (Toby), International Institute for 
  Strategic Studies, consulting senior fellow for the Middle 
  East, London, England..........................................    52
    Prepared statement...........................................    56
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Perle, Hon. Richard N., senior fellow, American Enterprise 
  Institute, Washington, DC......................................    40
    Prepared statement...........................................    43
Schlesinger, Hon. James R., senior advisor, Lehman Brothers, 
  Washington, DC.................................................    11
    Prepared statement...........................................    15

                                 (iii)

  


         IRAQ TRANSITION: CIVIL WAR OR CIVIL SOCIETY? [Part I]

                              ----------                              


                        TUESDAY, APRIL 20, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Brownback, 
Alexander, Biden, Feingold, Boxer, and Corzine.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    I will give an opening statement, and then I'll recognize 
the distinguished ranking member of the committee, Senator 
Biden, for his opening statement. We look forward to hearing 
from our witnesses.
    At his nationally televised press conference last 
Wednesday, President Bush unequivocally asserted that the 
United States was committed to advancing freedom in Iraq. He 
stated, and I quote, ``Now is the time, and Iraq is the place, 
in which the enemies of the civilized world are testing the 
will of the civilized world. We must not waver.'' This 
expression of his personal determination was welcome and 
necessary.
    The President was right when he underscored that ``the 
consequences of failure are unthinkable.'' American credibility 
in the world, progress in the war on terrorism, our 
relationships with our allies, the future of the Middle East, 
and the fate of the Iraqis themselves depend upon the resolve 
of the U.S. Government and the American people in achieving a 
positive outcome in Iraq. In short, moving the Iraqi people 
toward a secure, independent state is a vital United States 
national-security priority that requires the highest level of 
national commitment.
    The President and other leaders, including Members of 
Congress, must continue to communicate with the American public 
on this point, because the work that must be done in Iraq will 
test our national fortitude. American lives will continue to be 
at risk in Iraq, and substantial American resources will 
continue to be spent there for the foreseeable future. During 
this endeavor, we will debate every aspect of United States 
strategy in Iraq. This is necessary in our democracy, and such 
debate can strengthen our national purpose, but this debate 
must be constructive. What happens in Iraq during the next 18 
months almost certainly will determine whether we can begin to 
redirect the Middle East toward a more productive and peaceful 
future beyond the grip of terrorist influences. Congress does 
not have to agree with the President's policies, but our 
differences of opinion must be focused on improving our chances 
for success.
    For its part, the Bush administration must recognize that 
its domestic credibility on Iraq will have a great impact on 
its efforts to succeed. On some occasions during the past year 
and a half, the administration has failed to communicate its 
Iraq plans and cost estimates to Congress and to the American 
people. During the weeks leading up to the war, in early 2003, 
the Foreign Relations Committee held multiple hearings in 
pursuit of answers to basic questions about plans for Iraq 
reconstruction. Administration officials often were unable or 
unwilling to provide adequate answers.
    In one notable case, in March 2003, General Jay Garner, 
Director of the Office of Reconstruction and Humanitarian 
Assistance at the time, chose not to testify or to send his 
deputy, even though he briefed the press at the same time our 
hearing was occurring.
    This week, the administration may again have missed an 
opportunity by declining to send the highest Defense Department 
official possible to testify at the Senate Foreign Relations 
Committee's hearings. We are appreciative of the officials who 
will be here, and we look forward to their testimony on 
Thursday.
    Our experiences with inadequate planning and communication 
related to Iraq contribute to the determination of this 
committee to impose a very high standard on the information 
provided about Iraq. We understand that some information is 
classified and cannot be dealt with in open session. We also 
understand that not every official we would like to testify 
will be available for every hearing. But within the substantial 
bounds of our oversight capacity, we will attempt to illuminate 
the United States plans, actions, and options with respect to 
Iraq, both for the benefit of the American people and to inform 
our own policymaking role. The administration must present a 
detailed plan to prove to Americans, Iraqis, and our allies 
that we have a strategy and that we are committed to making it 
work.
    This will be the first of three Foreign Relations Committee 
hearings this week on Iraq. We intend to explore whether 
Americans and Iraqi authorities are ready for the transition to 
Iraqi sovereignty on July 1, and what steps are required to 
fill out a comprehensive transition plan.
    In our current series of three hearings, the committee, 
first of all, will attempt to discover the details of 
Ambassador Lakhdar Brahimi's plan for an interim Iraqi 
Government to which a transfer of sovereignty is planned on 
June 30, 2004. Specifically, what executive and legislative 
positions will be established in the interim government, and 
how will these positions be filled? Who will choose the people? 
Are we confident that Iraqis will support the United Nations 
formula for a new government? What will the United States do if 
Iraqis reject the Brahimi plan?
    Second, what status-of-forces agreement will make clear 
that the United States and Coalition Armed Forces will continue 
to provide internal and external security for the new Iraqi 
Government? Will that agreement make clear the chain of command 
and the relationship of Iraqi police, reserves, and army 
personnel with United States and Coalition forces?
    Third, will United Nations Security Council resolutions 
undergird the international legitimacy of the new Iraqi 
Government and all of the security arrangements that it will 
require? Continuing and expanded support of the new Iraqi 
Government by other nations may require additional Security 
Council resolutions.
    Fourth, will elections for the Transitional and Permanent 
Iraqi Government's--scheduled for no later than January 2005, 
and December 2005, respectively--be held under the auspices of 
the United Nations or some other authority? How will that 
authority provide security for the elections and assemble a 
registration list or otherwise determine who is eligible to 
vote? How will we deal with elections that are postponed or 
deemed to be fraudulent? Will the National Assembly, which is 
to be elected in January 2005, have full authority to write a 
constitution and construct the framework of a permanent 
government?
    Fifth, we were pleased to learn yesterday that President 
Bush has designated Ambassador John Negroponte as his nominee 
to be the United States Ambassador to the new Iraqi Government. 
What will be the composition and the time of arrival of all of 
the U.S. personnel associated with the new embassy?
    And, sixth, will the costs associated with the new 
diplomatic presence be covered by a transfer of funds under the 
umbrella of the $87 billion appropriation enacted by Congress 
last year? If not, what is the plan for providing the necessary 
funding?
    Clear answers to all of these questions would constitute a 
coherent transition plan for Iraq. Americans should have the 
opportunity to view this plan and carefully monitor its 
progress. To help spell out such a plan is an important 
responsibility for a congressional committee, as part of a 
well-functioning constitutional system of checks and balances.
    We will also want to discuss how Iraqis are preparing to 
take over the police and security functions of a sovereign 
state. Equipment and training for these forces are needed 
urgently. Contracting problems have delayed delivery. Reports 
that some Iraqi units refused to be deployed, and others 
actually supported insurgent factions, are part of a sober 
assessment of the Iraqi role in a security plan.
    The Iraqis need to know that there is a difference between 
an occupied Iraq and a sovereign Iraq. Our public-information 
efforts must become a lot better in demonstrating to Iraqis the 
advantages of new freedoms. We must find more effective ways of 
spurring the public dialog in Iraq and supporting the 
aspirations of the majority of Iraqis who want peace and 
democracy, but who have been intimidated by purveyors of 
violence who cloak their actions in false nationalism. Bands of 
insurgents, terrorists, and murderers have made the process 
more difficult, but must not be allowed to determine the 
outcome in Iraq.
    To begin our examination of these questions, the committee 
is pleased to be joined by two impressive panels of witnesses 
today. On the first panel, we welcome Dr. James Schlesinger, 
former Secretary of Defense, former Secretary of Energy, and 
now senior advisor at Lehman Brothers. Dr. Schlesinger recently 
served as co-chair of a Council on Foreign Relations Task Force 
that published a comprehensive report entitled ``Iraq: One Year 
After.'' We also welcome Mr. Sandy Berger, the former National 
Security Advisory for President Clinton, and currently chairman 
of Stonebridge International.
    On our second panel, we will welcome Dr. Richard Perle, of 
the American Enterprise Institute, Dr. Toby Dodge, of the 
International Institute for Strategic Studies, and Dr. Juan 
Cole, of the University of Michigan.
    We look forward to the assessments and recommendations of 
our witnesses. We appreciate their presence this morning.
    I turn now to the distinguished ranking member of our 
committee, Senator Biden.


           opening statement of senator joseph r. biden, jr.,
                             ranking member


    Senator Biden. Mr. Chairman, thank you very much. As they 
say in this business, I'd like to associate myself with your 
opening statement, and I'll try not to repeat some of the 
specific questions that you acknowledge at the front end, that 
we need answered to determine whether or not there is a policy.
    But it's difficult. Over the last 31 years, we've both 
experienced being in the majority and the minority. We've 
experienced being in the majority when we've had a President of 
our own party. We've been in the minority with a President of 
our own party. And I just want to compliment you on not just 
holding these hearings, but the way in which you have been 
steadfast and frank and straightforward in sharing your 
considerable--considerable--knowledge and experience with the 
Senate and the American people.
    And you are, to state the obvious, more diplomatic than I 
am. I think it's outrageous the administration has not provided 
every witness we've asked for. I do not find it acceptable that 
there is a single witness that is unavailable to us that we've 
asked. Not a single one. This administration has taken this 
committee and this Congress for granted.
    Someone should have them read the Constitution of the 
United States of America and understand that, Article II, there 
is a legislative body. We do not work for the President. I 
serve with the President. I served before him, and I'll serve 
after him. And it is outrageous that they're making the same 
arrogant mistake they made when we held hearings the first 
time, and that is not providing every witness we ask for.
    You know, there was a famous member of this committee years 
ago who said, ``If the President wants us in on the landing, 
he'd better have us in on the takeoff.'' Well, this 
administration, and every administration, including the 
previous one, makes mistakes. It is virtually impossible not to 
make mistakes, and, in some cases, make serious mistakes. I've 
been here for seven Presidents.
    The fact of the matter is that if they had had witnesses 
show up at our first hearings, they might have actually had to 
answer questions that would have caused them to think about the 
premises upon which they were responding and which they based 
their policy.
    This committee, when I was Chair, and then, when you took 
over as Chair, immediately thereafter, has been consistent. 
People say to me, Mr. Chairman, ``I wish Washington weren't so 
partisan.'' Take a look at this committee. I don't see any 
partisanship in this committee. There hasn't been any 
partisanship on this committee. You and I both voted for giving 
the President the authority to go to war. We've tried to be 
constructive. The fact of the matter is, they're making it very 
difficult. And here we go again, at this critical juncture.
    And, you know, we've been in this business a long time, and 
there's a tendency--and the press probably tunes it out, and I 
don't blame them--to say, this is the most important moment. 
The truth of the matter is, this may be the last best chance to 
get this right for a generation. For a generation.
    This June 30 date is going to be one, I say to the 
witnesses, that historians are going to look to like they did 
9/11, and 3/11 in Madrid. And they're going to look at June 30 
to figure out whether we got it right. And this warrants not a 
partisan disagreement, but an honest engagement with the 
outfits that have to come up with the money, the outfit that 
has to sign the American people onto this, the U.S. Senate and 
the House of Representative and the administration. And the 
fact that they're not prepared to send a witness either means 
they are totally incompetent and they don't have anything to 
tell us, which would constitute incompetence, or they're 
refusing to allow us to fulfill our constitutional 
responsibility. And there's always a price to pay for that. Not 
a price to pay that's vindictiveness; a price to pay. When you 
shut out a bipartisan group of United States Senators from 
asking hopefully intelligent questions and probing a policy, 
you're doing yourself and the Nation a significant disservice.
    Mr. Chairman, after that statement, you may not like my 
next statement. I am proud to serve under you, as chairman of 
this committee. I am proud that you are the chairman, and I'm 
proud to be a part of it.
    Many of the challenges identified in the hearings that you 
and I held as the transfer of congressional power took place, 
many of those things we identified have turned out to be 
absolutely accurate, on the button, not because we did it, but 
because we had witnesses like the men before us, and the women 
who will come before us. The best minds in the country sat 
here, and they said that every basic premise upon which we were 
told--and Mr. Perle will testify next--he's not part of the 
administration--was going to happen was not likely to happen. 
We'd be greeted with open arms, there would be enough oil 
revenues to pay for everything, there would be an Iraqi army to 
stand up immediately, there would be an Iraqi police force to 
be able to maintain peace and security, and there would be a 
civil service that would be stood up immediately to be able to 
keep every function of government operating very quickly. The 
result is that we may soon be confronted with an untenable 
situation--American forces caught between an increasingly 
hostile Iraqi population, notwithstanding the Secretary of 
Defense's reference in private and public meetings--with me, 
anyway--to quote, ``flare-ups''--flare-ups--implying that this 
is something that's going to pass very quickly, like a brush 
fire--that these forces are caught between hostile Iraqi 
populations that they were sent to liberate, and an 
increasingly skeptical American public, whose support we badly, 
badly, badly need.
    I'll editorialize by saying, I think there's virtually 
little comparison to Vietnam here, in terms of what's at stake. 
When I ran for office in 1972, I disagreed with that war, and I 
said, ``Even if I win, if it turns out the Russian fleets end 
up in Cam Ranh Bay, I'll resign,'' because I was so certain 
that was not what it was about.
    But I am certain the President's right about how important 
it is to succeed. This is a seminal event in the Middle East. 
This is a seminal event. This is of incredible consequence. 
Walking away from this is not an option, in terms of our 
security.
    And I'm convinced, though, we can still succeed if we level 
with the American people about the costs and the risks. I know 
this is, sort of, getting it backward, I say to my colleagues 
that are about to testify, but I think we've got to make sure 
we've got American support first. First. We've got to go shore 
it up. No foreign policy can be sustained in this country 
without the informed consent of the American people, and it has 
not been an informed consent yet, because we have not leveled 
with them that it's going to cost several hundred-billion more 
before this is over; it's going to take tens of thousands, if 
not a hundred-thousand or more, troops for an extended period 
of time, even if we get help from other folks; that we're going 
to be there even if things go very well, which they're not 
going now, for the next 3 to 5 years, and maybe longer.
    And the second thing we have to do is, we have to bring 
along the Iraqi people. I know Jim Schlesinger knows better 
than anybody--he's been around a long time, and he's a 
brilliant guy academically, he was brilliant in terms of his 
service to the country, and continues to be--I know he 
understands the simple proposition--even though sometimes he 
and I have disagreed in the past, in the last 15 years, on some 
specific items relating to our national security--that if we 
can't find an Iraqi middle, if we can't find a bulk of the 
Iraqi people who are willing to fight and die for their own 
democracy, then this doesn't matter. This doesn't matter. We 
cannot do it.
    So, Mr. Chairman, we need to create an environment where 
the American people think this is doable and worthwhile, and 
the Iraqi people think--if the polling data is correct, and I 
believe it is--that fewer than 15 percent of the Iraqi people 
want a religious theocracy, like exists in Iran, which means 85 
percent of the people want something else. We've got to 
convince them that there's a possibility of that happening, 
that we've got a plan, that there's a plan. Because absent 
that, they're not going to stick their heads up, and we're 
going to lose--without them investing in their own future.
    It's the President's responsibility to do both those 
things--level with the American people and provide a plan. He 
needs to explain the hard road ahead and the commitment we have 
to make, in terms of times, troops, and treasure; and he must 
convince the American people, the Iraqi people, and the 
international community that he has a strategy for success.
    I've used this joke so long to make a serious point; now I 
find other people using it. I had a baseball coach who used to 
tell that story about the kid who played centerfield--I was a 
center-fielder--and I remember the coach saying one day--after 
an error, saying--you know, the story about George, who played 
centerfield in the first three innings? He had five errors. The 
coach calls timeout, pulls him out, and says, ``Dick, you're 
in.'' First pitch, routine fly ball to Dick, hits Dick's glove, 
he drops it. Coach goes ballistic, calls Dick out. Dick comes 
running across the third-base line and says, ``Coach?'' And he 
says, ``What's the matter with you, Dick?'' And Dick looks at 
the coach and says, ``Coach, George screwed up centerfield so 
badly, no one can play it.''
    Well, I'm joking, but I tell you, that's what they think in 
France, Germany, England, Portugal and Spain. And we've got to 
change that. We've got to change the notion that this thing is 
so badly broken it can't be fixed, because, as the witnesses 
will tell you, Europe needs us to succeed even more than we do.
    About 10 percent of France's population is Arabic-speaking. 
The Germans are deathly afraid of population flows that would 
come from a Kurdish-Turkish war. And the list goes on. They 
have a keen interest in seeing success. And, in my judgment, 
the most important ingredient for success is the emergence of 
that silent majority of Iraqis who can provide an alternative 
to the extremes and who can create a participatory republic 
when we leave.
    Equally important is getting the help that we need from 
outside Iraq, in term of troop, money, manpower, to see this 
mission to completion.
    There are three things, in my humble opinion, the President 
should do immediately.
    First, he needs to send more troops, which is now 
happening, to gain control of security, to give other countries 
confidence that they will not be walking into a centerfield 
that is screwed up so badly no one can play it.
    Second, he should bring together the major powers with the 
most at stake in Iraq to form an international board of 
directors, in some form or another, responsible for overseeing 
the political transition so everyone's invested--everyone's 
invested and has a stake in the outcome. It could be the U.N. 
Security Council, but it doesn't have to be. It could be an ad 
hoc group like the kind we formed to deal with Bosnia, or a 
contact group like we tried to deal with Middle East peace. It 
should include our European allies, probably Russia, and our 
friends in the Middle East. A senior representative of that 
board would replace Ambassador Bremer in the CPA as Iraq's 
primary partner, and speak with the authority of the 
international community, not just the United States, when they 
speak.
    Brahimi has begun to play that role, informally. I've found 
it fascinating. The President and his administration have 
downgraded the value of the United Nations, and yet in a press 
conference, when asked who we're going to turn power over to, 
the President of the United States says, ``Well, we're waiting 
for Brahimi to tell us.'' That's real leadership.
    Let's make it formal, with a clear, authoritative mandate 
from the major powers, starting now, carrying through till Iraq 
ratifies a constitution and subsequently elects a government. 
This would maximize a Brahimi, or whoever would follow him, 
leverage and our prospects for success.
    Third, the President should ask the U.N. to bless the 
agreement--not be in charge, but bless the agreement with a new 
resolution. None of us has any illusions about the United 
Nations. But its central involvement would, to quote George 
Will, of all people, ``usefully blur the clarity of U.S. 
primacy.''
    The President and everybody says we've got to get an 
American face off of this. We're not asking, like some of my 
right-wing friends in my home state, say, ``Well, Biden wants 
to give power to the United Nations, one world government.'' 
This is about allowing other nations to do what is difficult to 
do. They opposed the war. Ninety percent of their populations 
don't want any part of providing for the peace, and they need 
some excuse to be able to give them some cover to do what they 
know they have to do in their own interest. Foreign leaders 
need this political cover.
    The Iraqis are more likely to listen to a partner who 
speaks for the world than to heed an American ambassador 
hunkered down in a new super embassy. And I have great respect 
for Mr. Negroponte. I really do. But as one of my staff sitting 
behind me said, ``Going from Paul Bremer, with a CPA, that at 
least has international involvement in it, to a super 
Ambassador, is like going from Clark Kent to being Superman.'' 
Talk about taking an American face off it, we're saying, here 
we are. All us, all alone.
    If the President does these three things, I believe several 
major benefits will follow. First, other countries will be much 
more likely to contribute resources to reconstruction. Second, 
NATO is more likely to get engaged, spreading the security risk 
and freeing up as many as 20,000 American troops to focus on 
the hot spots. We're not going to get 20,000 NATO forces 
immediately. But in my travels, which are now 3 months old, 
throughout the capitals of Europe, every major power said they 
would vote to allow this to be a NATO operation. Probably 
wouldn't get more than 5,000 to 7,000 thousand troops to begin 
with, but speaking with General Jones, the Supreme Allied 
Commander, that would free up the ability of the Americans to 
not do border patrol, and allow NATO troops to support the 
Poles in the south and/or the Kurds in the north, thereby 
freeing up significant American forces and building on this 
NATO operation, and, by the way, convincing the American people 
we're not in this alone. If NATO's in the deal, they know 
everybody else has a stake in it, as well.
    The President should immediately convene, in my view, a 
summit of our traditional allies in Europe, and our friends in 
the Arab world and Asia, to talk about what they think is 
needed.
    You know, I've found it fascinating, Mr. Secretary and 
National Security Advisory Berger--I've found it fascinating--I 
was making the case several months ago to President Chirac 
that, look, the President of the United States has made serious 
concessions here. He's moved up the date to June 30, he says 
we'll transfer power then, and he's backed off the insistence--
that I initially agreed with, by the way; I think I was wrong--
of saying that there had to be a constitution before there were 
elections, and there had to be--and so on and so forth. And he 
sat there politely and listened--and he is no box of 
chocolates, in terms of the problems he's caused us and how 
he's taken advantage of us--but he looked, and he said, 
``Senator, it would have been nice had the administration told 
us they were going to do this. We read it in the paper.'' 
That's a good way to win friends and influence people.
    And throughout Europe, to the best of my knowledge, from 
Javier Solano on, no one, based on what I was told, was told, 
before they read it, that we had made this change in policy.
    It's time we start talking to people. We should tell them 
that we need their help. We should acknowledge that success in 
Iraq requires centrist Iraqis to step up, the world to step in, 
and the Middle East countries to take a chance on a 
representative government in Iraq, or they're likely to be 
gone. Then the President should ask each of them what they need 
in order to participate. He should work with them to forge a 
common plan in Iraq that they can support.
    And, Mr. Chairman, let me conclude with something I talked 
about in a speech I made last week on this subject, which is 
the most critical speech I've openly made of this 
administration thus far. I come from Delaware. I have been to 
Dover Air Force Base many times. The men and women there, who 
receive our soldiers and their families in that last long 
flight home from the battlefield know what this is all about.
    When those planes fly over Dover in the middle of the 
night, press not allowed to be there when they land, they 
remind us that this is not about politics. This is not about 
whether with every fiber in our being, we think we're right, or 
that someone else is dangerously wrong. It's not about that. 
This is about something bigger. It's not about assigning blame, 
it's not about partisanship. It's about that last long journey 
to the Dover Air Force Base. It's about those brave Americans 
who are doing everything in their power to get it right. 
They're doing everything in their power to get it right over 
there. And we owe them no less than to do everything in our 
power to get it right here, to acknowledge--not publicly, just 
privately, by policy--what's not working, acknowledge that we 
went with too little power and too little legitimacy. And the 
only way to get this right, for their sake, is to give them 
enough power and enough legitimacy. Because if we don't do 
that, those flights home to the only mortuary on the East Coast 
are going to be places where there are going to be a lot of not 
just sullen people, but sullen, angry people, that we were 
unwilling to try to get it right, knowing what's not working.
    I apologize for the length of the statement, Mr. Chairman, 
but I have not attended a hearing in my 31 years that I think 
is more consequential than what we're attempting to get right 
here.
    Thank you.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I commend your leadership in calling these hearings. 
They come at a critical time in Iraq and for our interests in the 
region.
    I am proud of the partnership we've forged on Iraq, starting with 
the hearings we held in the summer of 2002.
    Many of the challenges identified in those hearings have been borne 
out. Now, I am deeply concerned that time is rapidly running out on our 
ability to get it right in Iraq.
    The result is that we may soon confront an untenable situation: 
American forces caught between an increasingly hostile Iraqi population 
that they were sent to liberate and an increasingly skeptical American 
public, whose support they need and deserve.
    I'm convinced we can still succeed if we level with the American 
people about the costs and the risks. If we develop a coherent plan for 
success and if we bring the Iraqi people and the rest of the world with 
us.
    It is the President's responsibility to level with the American 
people about what will be required to prevail.
    He needs to explain the hard road ahead and the commitment we must 
make in terms of time, troops and treasure.
    And he must convince the American people, the Iraqi people, and the 
international community that he has a strategy for success.
    I hope that our witnesses this week will help to fill in that 
strategy.
    In my judgment, the most important ingredient for success is the 
emergence of that silent majority of Iraqis who can provide an 
alternative to the extremes and can create a participatory republic 
when we leave.
    Equally important is getting the help we need from outside Iraq--in 
terms of troops, money and manpower--to see this mission to completion.
    There are three things the President should do immediately:
    First, he needs to send in more troops now to gain control of 
security and to give other countries confidence that they will not be 
walking into a quagmire.
    Second, he should bring together the major powers with the most at 
stake in Iraq to form an international board of directors responsible 
for overseeing the political transition in Iraq.
    It could be the U.N. Security Council. It could be an ad hoc group, 
like the kind we formed to deal with Bosnia. It would include our 
European allies, Russia and our friends in the Middle East.
    A senior representative of that board would replace Ambassador 
Bremer and the CPA as Iraq's primary partner, and speak with the 
authority of the international community, not just the United States.
    Lakhdar Brahimi has begun to play that role informally. Let's make 
it formal, with a clear, authoritative mandate from the major powers 
starting now and carrying through till Iraq ratifies a Constitution and 
subsequently elects a government. That would maximize Brahimi's 
leverage and our prospects for success.
    Third, the President should ask the U.N. to bless this arrangement 
with a new resolution. None of us have any illusions about the U.N. But 
it's central involvement would, to quote George Will, ``usefully blur 
the clarity of U.S. primacy.''
    Foreign leaders need political cover to convince their people who 
opposed the war to help build the peace. The Iraqis are more likely to 
listen to a partner who speaks for the world than to heed an American 
ambassador hunkered down in a super embassy.
    If the President does these three things, I believe several major 
benefits would follow.
    First, other countries would be much more likely contribute 
resources to Iraq's reconstruction.
    Second, NATO is more likely to get engaged, spreading the security 
risk and freeing up as many as 20,000 American troops to focus on the 
hot spots.
    At this late hour, it will take some powerful persuasion to get all 
these players in the game. But one man has the power to do just that--
to change the dynamic--to finally make Iraq the world's problem, not 
just our own. That man is the President of the United States. Now is 
the time for him to lead.
    The President should immediately convene a summit with our 
traditional allies in Europe, our friends in the Arab world and Asia, 
the U.N. and NATO, and Iraqi political leaders.
    He should tell them that we need their help. He should acknowledge 
that success in Iraq requires centrist Iraqis to step up, world powers 
to chip in, and Middle East countries to take a chance on 
representative government in Iraq.
    Then the President should ask each of them what they need from us 
in order to participate. And he should work with them to forge a common 
plan for Iraq that they can support.
    Mr. Chairman, let me conclude with something I talked about in a 
speech last week. I come from Delaware. I have been to Dover many 
times. The men and women there who receive our soldiers and their 
families on that last long journey home know what this is about.
    When those planes fly over Delaware and land in the middle of the 
night, we are reminded that this is not about politics, about whether 
we believe with every fiber of our being that we are fundamentally 
right or that someone else is dangerously wrong.
    This is not about assigning blame or about partisanship. This is 
about that last journey home to Dover Air Force Base. It's about those 
brave Americans who are doing everything in their power to get it 
right. We owe them no less than to get it right ourselves.

    The Chairman. Thank you very much, Senator Biden.
    We call now upon our witnesses. I will ask you to testify 
in the order in which I first introduced you. This would mean, 
first of all, Secretary Schlesinger. Welcome to the committee.

STATEMENT OF HON. JAMES R. SCHLESINGER, SENIOR ADVISOR, LEHMAN 
                            BROTHERS

    Dr. Schlesinger. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, I thank the 
committee for its invitation to discuss the continuously 
unfolding situation in Iraq and the actions required to achieve 
a successful transition. I shall touch on some of the themes, 
Mr. Chairman, Senator Biden, that you have touched upon.
    Since I am dealing with the successful transition and what 
is required, I shall pass over the many notable achievements, 
including acceptance of the Transitional Administrative Law, 
the restoration of power production, the rehabilitation of 
schools, the renovation of hospitals, and the like, in order to 
focus on such additional requirements.
    Before I proceed further, I need to underscore why it is 
that the United States is so deeply engaged in the Middle East 
and what is at stake in Iraq, for I fear there is some public 
uncertainty regarding these issues.
    Mr. Chairman, you mentioned the need to communicate with 
the American people. For that purpose, I recommend a re-reading 
of Osama bin Laden's declaration of war against the Americans 
issued in 1998. In that declaration, bin Laden states, ``The 
Defense Secretary of the crusading Americans has said that the 
explosions at Riyadh and al Khobar had taught him one lesson, 
that is not to withdraw when attacked by cowardly terrorists.'' 
Need I point out that in 1998, the Defense Secretary in 
question was not Donald Rumsfeld, but, rather, your old 
colleague, Bill Cohen.
    Bin Laden continues, ``We say to the Defense Secretary that 
his talk could induce a grieving mother to laughter, and it 
shows the fears that have enveloped you all. Where was this 
courage of yours when the explosion in Beirut took place in 
1983? You were transformed into scattered bits and pieces. Two-
hundred-and-forty-one soldiers were killed, most of them 
marines. When tens of your soldiers were killed in minor 
battles and one American pilot was dragged in the streets of 
Mogadishu, you left the area in disappointment, humiliation, 
and defeat, carrying your dead with you. Clinton appeared in 
front of the whole world, threatening and promising revenge, 
but these threats were merely a preparation for withdrawal. You 
had been disgraced by Allah, and you withdrew. The extent of 
your impotence and weakness became very clear.''
    As bin Laden had earlier explained in the declaration, 
``Efforts should be concentrated on destroying, fighting, and 
killing the American enemy until, by the grace of Allah, it is 
completely defeated.'' The task is stated quite simply. Killing 
Americans and other infidels.
    In June 2002, bin Laden's spokesman, Suleiman Abu Gheith, 
placed this statement on the al-Qaeda Web site, ``We have the 
right to kill four million Americans--two million of them 
children--and to exile twice as many, and wound and cripple 
hundreds of thousands.''
    They may be fanatics, but they are deadly serious and 
thoroughly persistent. We must anticipate, therefore, a 
conflict that will continue for many years. Osama himself has 
opined that, ``When the people see a strong horse and a weak 
horse, they naturally gravitate toward the strong horse.'' 
Consequently, this nation must conclusively demonstrate that we 
are not the weak horse. Withdrawal from--before we have 
successfully stabilized Iraq is, therefore, not an option. It 
would be dramatically more visible throughout the Middle East 
and elsewhere than were those earlier retreats cited by Osama.
    I recognize that inevitably debate will continue regarding 
at least the timing of our move into Iraq. Nonetheless, we must 
not allow the political contentions of an election year to 
create any impression that we are anything but united in our 
determination to persevere and to prevail in Iraq. Success is 
the only acceptable course of action.
    How, then, are we to be successful in sustaining order and 
stability in Iraq? Only by embracing certain fundamental 
realities. First and foremost, establishing reasonable security 
is the prerequisite for achieving the goals of political 
stability. In principle, we have come to accept that reality; 
but, in practice, we have been too slow, effectively, to act 
upon it. Second, neither the American nor the Coalition forces 
can, by themselves, impose security on Iraq. Iraqis themselves 
must provide indispensable support. Only Iraqis can gather the 
intelligence to identify the regime remnants and the foreign 
terrorists who must be largely neutralized before adequate 
security can be ensured. Moreover, it will be essential for 
Iraq's security forces to be the principal element in rooting 
out terrorists and destroying their cells, with the Coalition 
military increasingly in a supporting role. ``We will stay the 
course'' may be a necessary guideline or an exhortation, but it 
is not a strategy. We will stay the course until we have an 
Iraqi force capable of providing reasonable security for the 
people of Iraq is a strategy. But that implies a viable plan to 
create such a force. It also implies that we should not expect 
the level of security in, say, Denmark or Japan.
    Regrettably, we have allowed almost a year to pass without 
creating an effective Iraqi security force. While we have 
recruited several hundred-thousand Iraqis into the security 
force, those forces have tended to melt away in times of 
difficulty. It may be that this behavior reflects a problem of 
morale, though that was not the judgment of those who had 
observed at least the CDC as it was being organized. Possibly, 
it reflects a deep unwillingness to use force on recalcitrant 
fellow Iraqis. But the most obvious answer is our own failure 
properly to train and properly to equip these security forces.
    On the equipping issue, all too many months have gone by 
without appropriately vetted forces being appropriately 
equipped with weapons, protective gear, and communications. 
That is a reflection, in part, of our own cumbersome budgetary 
and procurement procedures, which have imposed a high long-run 
cost on our operations.
    On the question of training, we have not allowed sufficient 
time for the training of individuals and the organizing of 
units with a high degree of cohesion; nor, by the way, have we 
had, to this point, an Iraqi chain of command, because Iraqis 
like to be ordered into battle by Iraqis rather than Americans. 
The task of training Iraqi security forces should be a 
principal obligation of American and Coalition forces in 
country. Other nations, such as India, even if they have not 
contributed military forces, may be prepared to participate in 
training these security forces.
    Second, we must focus more effectively on economic 
problems. There is a correlation between the high prevailing 
unemployment in Iraq and the restlessness and low morale 
spreading among the populace. Admittedly, initial expectations 
regarding an immediate magical boost in living conditions were 
unrealistic. Yet months have gone by without the improvement in 
living conditions that might realistically have been expected. 
The $18.4 billion that the Congress appropriated for 
reconstruction should have already begun to alleviate the 
problem--improving living conditions and expanding employment. 
It is a shame that so little of that $18.4 billion has been 
obligated to this point, and even significantly less has been 
spent. We must get that money flowing. Delay makes the problem 
worse.
    Yet, once again, it is our procurement procedures that have 
imposed these costs upon us. We cannot afford normal peacetime 
procurement procedures, with 60 days to submit responses to 
requests for proposals, and another 60 days to assess them, et 
cetera. Congress can act quickly. It should assess whether 
existing requirements result in a penny-wise/pound-foolish 
outcome, and help ease self-defeating restraints.
    Now let me turn to the political transition, while bearing 
in mind that effectively dealing with the security and economic 
conditions will necessarily remain the foundation for a 
successful political transition.
    As this committee well knows, since November of last year 
we have committed to transferring of sovereignty to the Iraqis 
after 30 June. The President has firmly reiterated that he 
intends to stick to that date. The administration has indicated 
that it is inclined to accept Ambassador Brahimi's proposals 
for the new Iraqi regime. Both Chairman Lugar and Senator Biden 
have noted that we would pay a high cost if we fail to abide by 
that date. That does not mean, by the way, that we cannot wait 
an extra 10 days or 2 weeks, but we cannot wait an extra 10 
weeks or 2 months.
    While nothing is ever set in concrete, especially if the 
conditions within the country were to deteriorate 
substantially, I would expect that the date for transferring 
sovereignty to the Iraqis will be met. At that point, the 
Iraqis themselves will be making decisions regarding the civil 
order.
    Yet, once again, time's a-wastin'. There are only some 10 
weeks left before the transfer is to be made. The new American 
ambassador was announced just yesterday, John Negroponte. I 
think John Negroponte is a superb choice. I have known him for 
the last 30 years. But, still, the embassy team reportedly 
amounting to 4,000 people, has obviously not yet solidified. 
The overall team has not had a chance to work with each other, 
to learn their respective roles, in effect to put on ``training 
wheels'' for the tasks ahead. The less time available will 
certainly detract from a smooth takeover from the CPA by the 
new team.
    I do not wish to overstate this point. One must recall that 
the critical issue of security will remain largely in American 
hands and under the control of a selected four-star general. 
Under U.N. Security Council Resolution 1511, Iraqi armed forces 
will be a principal partner in the multinational force 
operating in Iraq under unified command, in accordance with the 
Transitional Administrative Law. Thus, even if the transfer of 
sovereignty on several issues does not proceed perfectly 
smoothly, in the crucial area of security, which remains the 
largest challenge in Iraq, there will be less change. Contrary 
to a widespread public impression, which I hope that you 
gentlemen and Ms. Boxer will help counter, the transfer of 
authority on June 30 does not mean that the American role is 
ending, or that we are somehow washing our hands of Iraq. This 
last must effectively be conveyed to the Iraqi public at large.
    As we look beyond June 30, we should expect a closer 
collaborative relationship between State and Defense than has 
been our experience to this point. The relationship between the 
civilians and the CPA, mostly buttoned down in the Green Zone, 
and the military, who have been out in the field interacting 
with the Iraqis, has been something less than ideal. After all, 
it is the CPA that has maintained tight control over the 
resources, but it is the division commanders that have been in 
close contact with the Iraqis and know what the local needs 
are, and have too frequently been obliged to fund local 
activities out of their quite-limited discretionary funds. The 
civil-military relationship worked out far better in Vietnam, 
after General Abrams took command in 1968. He and Ambassador 
Bunker worked intimately in deciding what the needs were for 
the pacification program, and how to allocate resources. We 
should seek to achieve that degree of collaborative behavior 
once the new embassy team comes into play this summer.
    One final, but crucial, point. To date, our efforts to 
communicate with the Iraqis have been inadequate. We have 
failed to convey to the Iraqis what our intentions are, or have 
conveyed them belatedly. Consequently, all too many excellent 
and well-intentioned actions on our part have not gotten 
through to the Iraqi public. It is almost as important that 
such plans or such actions be understood as that they be 
executed. The American-sponsored television station has not 
been well designed to attract an audience, and has, thus, been 
peripheral for Iraqi listeners.
    The upshot has been that al-Jazeera and al Arabiya have 
filled the void. It must be remembered that al-Jazeera's 
general manager was on Saddam's payroll. Al-Jazeera seems to 
have been regularly tipped off regarding any clashes in 
country, so that the television cameras would be present, and, 
indeed, may have staged such events. It must be recognized that 
with unemployment as high as it is, it is easy to buy a 
demonstration. Indeed, simple payment in cash has been a 
principal motive for many of those engaged in attacking either 
Americans or Iraqis.
    Mr. Chairman, the decision to go into Iraq was a fateful 
one, not only for Iraqis, but for the larger Middle East and 
for the credibility, and you've mentioned, of American foreign 
policy. We must see it through. Coalition forces, as well as 
Iraqi forces and government officials, are now under assault--
some calculated and deliberate, but some emotional and 
mindless. It is time for us to remind Iraqis, ``If you want a 
decent life, you must not support the elements that are 
destroying your country and may actually be seeking a civil 
war.'' We must persuade Iraqis to foresee the consequences of 
frustrating Coalition efforts, in their behalf.
    Thank you, Mr. Chairman. After Sandy is through, I shall be 
happy to respond to any questions of you or the members of the 
committee.
    [The prepared statement of Dr. Schlesinger follows:]

            Prepared Statement of Hon. James R. Schlesinger

    Mr. Chairman, Members of the Committee:
    I thank the Committee for its invitation to discuss the 
continuously unfolding situation in Iraq--and the actions required to 
achieve a successful transition. Consequently, I shall pass over the 
many, notable achievements, including acceptance of the Transitional 
Administrative Law, power production restored and expanded, schools 
rehabilitated or newly built, hospitals renovated, and the like, in 
order to focus on such additional requirements.
    Before I proceed further, I need to underscore why it is that the 
United States is so deeply engaged in the Middle East and what is at 
stake in Iraq--for I fear that there is some public uncertainty 
regarding these issues. For that purpose, I recommend a re-reading of 
Usama Bin Ladin's declaration of war against the Americans, issued in 
1998. In that Declaration, bin Ladin states that:

        the Defence Secretary of the Crusading Americans had said that 
        the explosions at Riyadh and Al-Khobar had taught him one 
        lesson: that is not to withdraw when attacked by cowardly 
        terrorists.

(Need I point out that in 1998 the defense secretary in question was 
not Donald Rumsfeld but rather your old colleague, Bill Cohen.) Bin 
Ladin continues:

          We say to the Defence Secretary that his talk could induce a 
        grieving mother to laughter! And it shows the fears that have 
        enveloped you all. Where was this courage of yours when the 
        explosion in Beirut took place in 1983 . . . You were 
        transformed into scattered bits and pieces: 241 soldiers were 
        killed, most of them Marines.

          When tens of your soldiers were killed in minor battles and 
        one American Pilot was dragged in the street of Mogadishu, you 
        left the area in disappointment, humiliation, and defeat, 
        carrying your dead with you. Clinton appeared in front of the 
        whole world threatening and promising revenge, but these 
        threats were merely a preparation for withdrawal. You had been 
        disgraced by Allah and you withdraw; the extent of your 
        impotence and weaknesses became very clear.

    As bin Ladin had explained earlier in the Declaration: ``Efforts 
should be concentrated on destroying, fighting, and killing the 
(American) enemy until, by the Grace of Allah, it is completely 
defeated.''
    The task is stated quite simply--``killing Americans'' (and other 
infidels). In June, 2002, bin Ladin's spokesman, Suleiman Abu Gheith, 
placed this statement on the al Qaeda Web site:

          We have the right (italics added) to kill 4 million 
        Americans--2 million of them children--and to exile twice as 
        many and wound and cripple hundreds of thousands.

They may be fanatics, but they are deadly serious and thoroughly 
persistent. We must anticipate, therefore, a conflict that will 
continue for many years.
    Usama himself has opined that, ``when the people see a strong horse 
and a weak horse--they naturally gravitate toward the strong horse.'' 
Consequently, this country must conclusively demonstrate that we are 
not the weak horse. Withdrawal before we have successfully stabilized 
Iraq is, therefore, not an option. It would be dramatically more 
visible throughout the Middle East and elsewhere than were those 
earlier retreats cited by Usama. I recognize that inevitably debate 
will continue regarding at least the timing of our move into Iraq. 
Nonetheless, we must not allow the political contentions of an election 
year to create any impression that we are anything but united in our 
determination to persevere and to prevail in Iraq. Success is the only 
acceptable course of action.
    How then are we to be successful in sustaining order and stability 
in Iraq?--only by embracing certain fundamental realities. First and 
foremost, establishing reasonable security is the prerequisite for 
achieving the goals of political stability. In principle, we have come 
to accept this reality, but in practice we have been too slow 
effectively to act upon it. Second, neither the American nor the 
coalition forces can, by themselves, impose security on Iraq. Iraqis 
themselves must provide indispensable support. Only Iraqis can gather 
the intelligence to identify the regime remnants and foreign terrorists 
who must be largely neutralized before adequate security can be 
insured. Moreover, it will be essential for Iraqi security forces to be 
the principal element in rooting out terrorists and destroying their 
cells--with the coalition military increasingly in a supporting role.
    ``We will stay the course'' may be a necessary guideline or 
exhortation, but it is not a strategy.
    ``We will stay the course until we have an Iraqi force capable of 
providing reasonable security for the people of Iraq''--is a strategy. 
But that implies a viable plan to create such a force. It also implies 
that we should not expect the level of security in, say, Denmark or 
Japan.
    Regrettably, we have allowed almost a year to pass without creating 
an effective Iraqi security force. While we have recruited several 
hundred thousand Iraqis into the security force, those forces have 
tended to melt away in times of difficulty. It may be that this 
behavior reflects a problem of morale--thought that was not the 
judgment of those who observed at least the CDC, as it was organized. 
Possibly it reflects a deeper unwillingness to use force on the 
recalcitrant fellow Iraqis. But the most obvious answer is our own 
failure properly to train and properly to equip these security forces.
    On the equipping issue, all too many months have gone by without 
appropriately vetted forces being appropriately equipped with weapons, 
protective gear, and communications. That is a reflection of our own 
cumbersome budgetary and procurement procedures, which have imposed a 
high, long run cost on our operations. On the question of training, we 
have not allowed sufficient time for the training of individuals and 
the organizing of units with a high degree of cohesion. The task of 
training Iraqi security forces should be a principal obligation of 
American and coalition forces in country. Other nations, such as India, 
even if they have not contributed military forces, may be prepared to 
participate in training these security forces.
    Second, we must focus more effectively on economic problems. There 
is a correlation between the high prevailing unemployment in Iraq and 
the restlessness and low morale spreading among the populace. 
Admittedly, initial expectations regarding an immediate and magical 
boost in living conditions were unrealistic. Yet, months have gone by 
without the improvement in living conditions that might realistically 
have been expected. The $18.4 billion that the Congress appropriated 
for reconstruction should have already begun to alleviate the problem--
improving living conditions and expanding employment. It is a shame 
that so little of that $18.4 billion has been obligated to this point--
and even significantly less has been spent. We must get that money 
flowing. Delay makes the problem worst. Yet, once again, it is our 
procurement procedures that have imposed these costs upon us. We cannot 
afford normal peace time procurement procedures--with 60 days to submit 
responses to Requests For Proposals and another 60 days to assess them, 
etc. Congress can act--quickly. It should assess whether existing 
requirements result in a penny-wise, pound-foolish outcome--and help 
ease self-defeating restraints.
    Now let me turn to the political transition, while bearing in mind 
that effectively dealing with the security and economic conditions will 
necessarily remain the foundation for a successful transition.
    As this Committee well knows, since November of last year we have 
been committed to transferring sovereignty to the Iraqis after 30 June. 
The President has firmly reiterated that he intends to stick to that 
date. The Administration has indicated that it is inclined to accept 
Ambassador Brahimi's proposals for the new Iraqi regime. Both Chairman 
Lugar and Senator Biden have noted that we would pay a high cost, if we 
fail to abide by that date. While nothing is ever set in concrete, 
especially if the conditions within the country were to deteriorate 
substantially, I would expect that the date for transferring 
sovereignty to the Iraqis will be met. At that point, the Iraqis 
themselves will be making decisions regarding the civil order.
    Yet, once again, time's-a'wastin'. There are only some ten weeks 
left before that transfer is to be made. The new American Ambassador 
has not been chosen--or at least announced. The Embassy team, probably 
amounting to 4,000 people, has obviously not yet solidified. The 
overall team has not had a chance to work with each other, to learn 
their respective roles, in effect to put on ``training wheels'' for the 
tasks ahead. The less time available will certainly detract from a 
smooth takeover from the CPA by the new team.
    I do not wish to overstate this point. One must recall that the 
critical issue of security will remain in American hands--and under the 
control of a selected four-star general. Under United Nations Security 
Council Resolution 1511, Iraqi armed forces will be ``a principal 
partner in the multinational force operating in Iraq under unified 
command,'' in accordance with the Transitional Administrative Law. 
Thus, even if the transfer of sovereignty on several issues does not 
proceed perfectly smoothly, in the crucial area of security (which 
remains the largest challenge in Iraq) there will be little change. 
Contrary to a widespread public impression, the transfer of authority 
on 30 June does not mean that the American role is ending or that we 
are somehow washing our hands of Iraq. This last must effectively be 
conveyed to the Iraqi public at large.
    As we look beyond June 30th, we should expect a closer 
collaborative relationship between State and Defense than has been our 
experience to this point. The relationship between the civilians in the 
CPA, mostly buttoned down in the Green Zone, and the military who have 
been out in the field, interacting with the Iraqis, has been something 
less than ideal. After all, it is the CPA that has maintained tight 
control over the resources, but it is the division commanders that have 
been in close contact with the Iraqis and know what the local needs 
are--and have too frequently been obliged to fund local activities out 
of their quite limited discretionary funds. The civil-military 
relationship worked far better in Vietnam--after General Abrams took 
command in 1968. He and Ambassador Bunker worked intimately in deciding 
what the needs were for the pacification program, and how to allocate 
resources. We should seek to achieve that degree of collaborative 
behavior once the new Embassy team comes into play this summer.
    One final but crucial point. To date, our efforts to communicate 
with the Iraqis have been inadequate. We have failed to convey to the 
Iraqis what our intentions are--or have conveyed them belatedly. 
Consequently, all too many excellent and well-intentioned actions on 
our part have not gotten through to the Iraqi public. It is almost as 
important that such plans or such actions be understood, as that they 
be executed. The American-sponsored television station has not been 
well designed to attract an audience and has thus been peripheral for 
Iraqi listeners. The upshot has been that al-Jazeera and al-Arabiya 
have filled the void. It must be remembered that al-Jazeera's general 
manager was on Saddam's payroll. Al-Jazeera seems to have regularly 
been tipped off regarding any clashes in country, and, indeed, may have 
staged such events. It must be recognized that with employment as high 
as it is, it is easy to buy a demonstration. Indeed, simple payment in 
cash has been a principal motive for many of those engaged in attacking 
either Americans or Iraqis.
    Mr. Chairman, the decision to go into Iraq was a fateful one--not 
only for Iraqis, but for the larger Middle East and for the credibility 
of American foreign policy. We must see it through. Coalition forces, 
as well as Iraqi forces and government officials are now under 
assault--some calculated and deliberated, but some emotional and 
mindless. It is time for us to remind Iraqis--``if you want a decent 
life you must not support the elements that are destroying your country 
and may actually be seeking a civil war.'' We must persuade Iraqis to 
foresee the consequences of frustrating coalition efforts--in their 
behalf.
    Thank you, Mr. Chairman, I shall be happy to respond to any 
questions that you or the Members of the Committee may have.

    The Chairman. Thank you very much, Secretary Schlesinger. 
We appreciate that testimony.
    Mr. Berger, would you proceed.

   STATEMENT OF HON. SAMUEL R. BERGER, CHAIRMAN, STONEBRIDGE 
                       INTERNATIONAL, LLC

    Mr. Berger. Chairman Lugar, Senator Biden, members of the 
committee, thank you for inviting me to join Secretary 
Schlesinger and be a part of these important hearings at this 
very important time.
    It was one year ago that Saddam Hussein's statue crashed to 
the ground in Baghdad; 4 months ago that he was captured. Yet 
since the start of this month, 105 U.S. troops and over a 
thousand Iraqis have been killed. Civilians from a number of 
countries have been taken hostage. Suicide attacks, roadside 
ambushes, and heavy fighting have dominated the news. Even 
before what President Bush called these ``tough weeks,'' 
Coalition troops were facing down dozens of attacks each day.
    That is not to say that many good people in Iraq, American 
and Iraqi, are not accomplishing good things in many parts of 
the country. Under the most trying circumstances, our troops 
have shown truly inspiring skill and courage. The Coalition 
Provisional Authority has worked tirelessly to move 
reconstruction forward. But the Iraqi people have high hopes 
and expectations for their future, and we should have nothing 
less. But we'll never be able to meet those high hopes if we 
don't get security and governance right, and I think it's clear 
that pressures in Iraq are reaching, now, the boiling point.
    Mr. Chairman, the outcome of this enterprise will help 
define our world for a generation. We could have a stable, 
secure, peaceful, and pluralistic Iraq, which will have a 
positive impact on the entire region; or we could have an Iraq 
that is slipping into chaos, civil war, or radicalism, 
redefining not only Iraq, but the region and our relationship 
with it. Imagine if Iraq becomes a failed terrorist state. 
Imagine a fundamentalist nation next door to Iran. Imagine a 
country that fragments, drawing in its neighbors. Imagine the 
shadow such an Iraq would cast on our security. We cannot 
permit this to happen.
    The President passionately and properly declared in his 
press conference last week that ``we cannot cut and run.'' But, 
honestly, Mr. Chairman, I don't hear many people saying we 
should. The American people don't want to ``cut and run;'' they 
want to know how we get from here to there. And the fact is, 
many of the choices that brought us to here do not fully 
inspire confidence.
    We ignored the cautions of people like General Eric 
Shinseki, who said the peace would be harder than the war. If 
we had put the same number of troops in Iraq per capita as we 
did at the outset in Kosovo--6 to 1 instead of 20 to 1--we 
would have 500,000 troops there today; or, compared to Bosnia, 
350,000 troops. Instead, we left ourselves ill-equipped to stem 
looting, establish order, even protect our own troops. 
Meanwhile, the notion that we could create and train an 
effective Iraqi army or police in a matter of months never made 
sense to me.
    At the core, we put a higher value on maintaining control 
than on sharing risk. We and the British declared ourselves 
occupying powers. As a result, we are bearing close to 90 
percent of the costs and the risks.
    As Secretary Schlesinger pointed out, we've fallen way 
behind on our own schedule for reconstruction. Of the $18.4 
billion supplemental for aid to Iraq, only $2.1 billion has 
been obligated, and 20 percent of that now will go to security. 
As you've said, Mr. Chairman, many Iraqis don't understand how 
the most powerful nation in the world could defeat their armed 
forces in 3 weeks and still have trouble getting the lights on.
    And despite the uncertain situation on the ground, we set 
an arbitrary date for transferring sovereignty before we knew 
to whom, and before we had broad agreement on a formula for 
multi-ethnic rule.
    Mr. Chairman, what I find most disconcerting is the 
administration's jarring certainty about June 30, and this 
jarring uncertainty about July 1. We have been told where we 
want to go--Iraqi sovereignty, American-led security, and, 
eventually, Iraqi elections. We haven't been told how we plan 
to get there. The American people need to know we have a 
confident and workable plan. There is too much at stake in Iraq 
to lose the American people.
    As I see it, we have three basic options: apply more force, 
hunker down, or make a serious effort to internationalize this 
enterprise.
    First, applying more force. This may be necessary in some 
cases. If our military commanders say they need more troops, 
they will have them, they should have them. But we also must 
recognize the risks of military solutions in the absence of a 
clear political strategy. Attempting to crush the opposition 
can create its own dangerous backlash. Our military strategy 
will be no better than our political strategy; and our 
political strategy, while allaying the concerns of the Sunnis 
and the Kurds, must empower legitimate and respected Shia 
moderates. If we lose the Shia population's support, then we 
will lose Iraq.
    Our second option is to hunker down--to replace the CPA 
sign with one that says ``U.S. Embassy,'' turn sovereignty over 
to as-yet undetermined group of Iraqis, and try to stay out of 
harm's way.
    I continue to fear the temptation of this option, Mr. 
Chairman, it is a prescription for chaos. It is unrealistic to 
think a new Iraqi leadership will be equipped to govern on July 
1, much less prepared to send troops to this or the next 
Fallujah. As Lieutenant General Sanchez has said, ``We know 
that it's going to take us a while to stand up reliable forces 
that can accept responsibility.''
    A third option is one that many of us have been advocating 
all along. It would have been easier to implement a year ago, 6 
months ago, last month. That is a genuine, non-grudging effort 
to internationalize the enterprise in Iraq, both military and 
civilian.
    I welcome the fact the administration is finally coming to 
that view, inch by inch--painful inch by inch. By last week's 
press conference, the President was deferring critical 
decisions on Iraqi's future government to U.N. representative 
Lakhdar Brahimi.
    Mr. Brahimi has proposed a caretaker government and a 
consultative assembly. These make sense to me. But, as Senator 
Biden has noted, there's a gap in what Mr. Brahimi is 
suggesting. On the civilian side, there will be some new Iraqi 
authority, hopefully broad-based and more widely supported than 
the current one we selected. There will be a large U.S. Embassy 
presence. But in the absence of some sort of an international 
high commissioner supported by a consortium of key countries--
not only the United States, but also European and Arab and 
Asian--this newly formed Iraqi government will not have the 
capacity to act strongly, and they will be reluctant to 
cooperate too openly with our behemoth American Embassy, even 
in the hands of someone as capable as Ambassador Negroponte. 
There needs to be an international mechanism that reinforces 
the exercise of Iraqi executive authority and, quite honestly, 
facilitates the ability of the United States to function more 
effectively with the new Iraqi leadership.
    We also need a troop presence in Iraq that is genuinely 
international. Some have concluded that it's too late to obtain 
help from the allies. I disagree. Like us, our partners in 
Europe and the Arab world will bear the full brunt of an Iraq 
in turmoil. The fact that they did not participate in the 
invasion will provide them, in the end, no comfort.
    Senator Biden, I support your proposal that President Bush 
call for an immediate summit with our European and Arab and 
Asian friends, representatives of the U.N. and NATO. Say, we 
need your help, and ask what their meaningful engagement would 
take. So far, we've said, in effect, we welcome your troops and 
your money, but largely on our terms. We've got to be prepared 
to give up our hammerlock on decisionmaking in exchange for 
genuine burden-sharing.
    To conclude, Mr. Chairman, let me say that we will not meet 
any of our goals in Iraq if we lose the public at home. Today, 
the question on the public mind is, what is our strategy for 
success in Iraq, and is it achievable? Too often today, it 
seems to be improvised. And while, yes, we are willing to stay 
the course if we know what that course is. My fear, to borrow 
Yogi Berra's famous words, is, ``If we don't know where we're 
going, we will wind up somewhere else.''
    More troops and more money is not a strategy. Steadfastness 
is an imperative, but it is not a strategy. Americans need to 
hear a plan to stem the insurgency, disarm the militia, hasten 
reconstruction, and, most important, enable Iraqis themselves 
to forge consensus on the future of their country.
    Sitting here today, Mr. Chairman, I still believe we can do 
this. I still believe the Iraqi people can do it. But success 
requires international support, and we don't have a moment to 
waste.
    Thank you.
    [The prepared statement of Mr. Berger follows:]

              Prepared Statement of Hon. Samuel R. Berger

    Chairman Lugar, Senator Biden, Members of the Committee:
    Thank you for inviting me to be a part of these important hearings, 
at this very important time. Much is riding on the next few months--for 
Iraq, for America and for the world.
    It was one year ago that Saddam Hussein's statue crashed to the 
ground in Baghdad; four months ago that he was captured hiding in a 
hole. Yet, since the start of this month, 105 U.S. troops and over 
1,000 Iraqis have been killed. Civilians from the United States, Japan, 
China, the Czech Republic, Russia, Ukraine and more have been taken 
hostage. Suicide attacks, roadside ambushes and heavy fighting have 
dominated the news. Even before what President Bush called these 
``tough weeks,'' coalition troops were facing down dozens of attacks 
each day.
    That is not to say that many good people in Iraq--American and 
Iraqi--are not accomplishing good things in many parts of the country. 
Under the most trying circumstances, our troops have shown truly 
inspiring skill and courage. The Coalition Provisional Authority has 
worked tirelessly to move reconstruction forward. The Iraqi people have 
shown impressive resilience. They have high hopes and expectations for 
their future. We should have nothing less.
    But we'll never be able to meet those high hopes if we don't get 
security and governance right. And I think it's clear that pressures in 
Iraq have reached the boiling point.
    Mr. Chairman, the outcome of the enterprise in Iraq will help 
define our world for a generation. We could have a stable, secure, 
peaceful and pluralistic Iraq, which will have a beneficial impact on 
the entire region. Or we could have an Iraq that is slipping into 
chaos, civil war or radicalism, redefining not only Iraq but the region 
and our relationship with it. Imagine if Iraq becomes a failed, terror 
state. Imagine a fundamentalist nation next door to Iran. Imagine a 
country that fragments, drawing in its neighbors. Imagine the shadow 
such an Iraq would cast on our security. We cannot permit that to 
happen.
    The president passionately and properly declared in his press 
conference last week that we can't ``cut and run.'' But honestly, I 
don't hear many people saying we should. The American people don't want 
to ``cut and run.'' They want to know how we get from here to there.
    And the fact is, many of the choices that brought us to ``here'' do 
not fully inspire confidence.
    We ignored the cautions of people like General Eric Shinseki, who 
said the peace would be harder than the war. If we had put the same 
number of troops in Iraq per capita as we did at the outset in Kosovo--
6 to 1 instead of 20 to 1--we would have 500,000 troops there today. 
Instead, we left ourselves ill-equipped to stem looting, establish 
order, even protect our own troops. Meanwhile, the notion that we could 
create and train an effective Iraqi army or police in a matter of 
months never made sense.
    At the core, we put a higher value on maintaining control than on 
sharing risk. We and the British declared ourselves occupying powers. 
As a result, we are bearing close to 90% of the costs and risks.
    We've fallen way behind on our own schedule for reconstruction. Of 
the $18.4 billion supplemental for aid to Iraq, only $2.1 billion has 
been obligated. As you've said, Mr. Chairman, many Iraqis don't 
understand ``how the most powerful nation in the world could defeat 
their armed forces in three weeks and still have trouble getting the 
lights on.''
    And despite the uncertain situation on the ground, we set an 
arbitrary date for transferring sovereignty--before we knew to whom, 
and before we had broad agreement on a formula for multiethnic rule.
    I find disconcerting the administration's jarring certainty about 
June 30 and its jarring uncertainty about July 1.
    We have been told ``where'' we want to go--Iraqi sovereignty, 
American-led security and eventually Iraqi elections. We haven't been 
told ``how to get there.'' The American people need to know we have a 
confident and workable plan. There is too much at stake in Iraq, Mr. 
Chairman, to lose the American people.
    As I see it, we have three basic options: Apply more force, hunker 
down or make a serious effort to internationalize the enterprise.
    First, applying more force. This may be necessary in some cases. If 
our military commanders say they need more troops, then they should 
have them.
    But we also must recognize the risks of military solutions in the 
absence of a clear political strategy. Attempting to crush the 
opposition can create its own dangerous backlash. We need to be careful 
as we deal with the threat Moqtada al-Sadr poses that we do not turn 
him into a hero . . . or transform a fringe militia into a popular 
political movement.
    Our military strategy will be no better than our political 
strategy, and our political strategy, while allaying the concerns of 
the Sunnis and the Kurds, must empower legitimate and respected Shia 
moderates. If we lose the Shia population's support, then we will lose 
Iraq.
    Our second option is to ``hunker down''--to replace the CPA sign 
with one that says ``U.S. Embassy,'' turn sovereignty over to an as-yet 
undetermined group of Iraqis, and try to stay out of harm's way.
    Mr. Chairman, this option is a prescription for chaos. It is 
unrealistic to think a new Iraqi leadership will be equipped to govern 
on July 1, much less prepared to send troops to Fallujah or to quell a 
violent uprising. We've already seen Iraqi divisions refusing to fight, 
and Iraqi soldiers defecting to the Mahdi Army. As Lt. Gen. Sanchez has 
said, ``We know that it's going to take us a while to stand up reliable 
forces that can accept responsibility.''
    Our third option is one that many of us have advocated all along. 
It would have been easier to implement a year ago . . . six months ago 
. . . last month. That is a genuine, non-grudging effort to 
internationalize the enterprise in Iraq, both military and civilian.
    I welcome the fact that the administration is coming around, 
belatedly, to that view. By last week's press conference, the president 
was deferring critical decisions on Iraq's future government to UN 
representative Lakhdar Brahimi.
    Mr. Brahimi has proposed a caretaker government and a consultative 
assembly. These make sense. But there is a gap, in my judgment, in what 
Mr. Brahimi is suggesting. On the civilian side there will be some new 
Iraqi authority--hopefully broad-based and more widely supported than 
the current one we selected. There will be a large U.S. Embassy 
presence. But in the absence of an international High Commissioner of 
some sort, supported by a consortium of key countries including not 
only the United States but also European and Arab, the newly formed 
Iraqi government will not have the capacity to act strongly . . . and 
they will be reluctant to cooperate too openly with our behemoth 
American Embassy, even in the hands of someone as capable as Ambassador 
Negroponte. There needs to be an international mechanism that 
reinforces the exercise of Iraqi executive authority and, quite 
honestly, enables the United States to function more effectively with 
that Iraqi leadership.
    We also need a troop presence in Iraq that is genuinely 
international.
    Some argue it's too late to obtain help from the allies. I 
disagree. Like us, our partners in Europe and the Arab world will bear 
the full brunt of an Iraq that fails--an Iraq in turmoil. The fact that 
they did not participate in the invasion will provide them, in the end, 
no comfort.
    Senator Biden, I agree with your conviction that President Bush 
should call for an immediate summit with our European and Arab friends, 
representatives of the UN and NATO . . . say we need their help . . . 
and ask them what their meaningful engagement would take. So far, we've 
said we'd welcome their troops and their money--but largely on our 
terms. We've got to be prepared to give up our hammerlock on decision-
making in exchange for genuine burden-sharing.
    The future of Iraq cannot be divorced from the future of the region 
as a whole. It is not sufficient to trumpet that a mission is to bring 
freedom and democracy to the Middle East. We need to align ourselves 
with the indigenous forces of reform in the region--instead of trying 
to impose our own. We need to help Arab partners build opportunity 
societies. We need to redouble our efforts with Israelis and 
Palestinians. We need to start putting as much energy into this region 
as we've taken out--but energy of the diplomatic, economic, political 
and intellectual variety.
    To conclude, Mr. Chairman, let me say again that we will not meet 
any of our goals in Iraq if we lose the public at home.
    Today the question on the public mind is: What is our strategy for 
success in Iraq, and is it achievable? Our current policy seems to 
involve a significant element of improvisation. And while yes, we are 
willing to stay the course if we know what that course is, my fear, to 
borrow Yogi Berra's words, is that if we don't know where we're going, 
we will end up somewhere else.
    More troops and more money is not a strategy. Steadfastness is an 
imperative--but it is not a strategy. Americans need to hear a plan to 
stem the insurgency, disarm the militias, hasten reconstruction, and, 
most important, enable Iraqis themselves to forge consensus on the 
future of their country.
    Sitting here today, I still believe we can do that. I still believe 
the Iraqi people can do it. But success requires international support 
. . . and we don't have a moment to waste.
    Thank you.

    The Chairman. Thank you very much, Mr. Berger.
    Given the number of members here, and the need for all 
members to participate, let me suggest that we'll attempt a 7-
minute question period, and then perhaps have a second round. 
We have a distinguished panel to follow. We want to take 
cognizance of that, as well as the time constraints of members.
    Let me begin the questioning. Mr. Berger, you mentioned 
several things in your testimony: a European summit on Iraq, 
internationalizing the foreign presence and a need to consider 
deploying troops in geater numbers to meet the needs of our 
commanders. You also said that you perceive a gap between our 
large embassy establishment and the new Iraqi government, that 
it's important to fill with some sort of international 
mechanism that may facilitate the work of the U.S. Ambassador.
    Now, those of us who attended the Munich Security 
Conference this year noted that although Europeans might have 
2\1/2\ million men and women under arms, barely 65,000, under 
the best circumstances, were called expeditionary forces--that 
is, able to go anywhere. Of that number, many countries prefer 
to deploy only a third at a time. That is they choose to keep a 
third in the field, a third back for rehabilitation, and a 
third for training. This further cuts down the available 
numbers considerably. The requirements of NATO, and of Lord 
Robertson in Afghanistan have absorbed a good number of those 
troops. This begs the question, who is there left to send? In 
other words, in the event Europeans come to a conclusion that 
they would like to play a role comparable to the United States, 
or at least along side us, in this situation, what can they 
provide? Their participation might enhance the legitimacy and 
international flavor of the effort.
    Mr. Berger. Well I have no illusion, Mr. Chairman, that 
they are going to be able to provide large numbers, but there's 
the label and there's the contents; and I think the label here 
is as important as the contents. The label is ``American 
occupation.'' And even when we transfer to a new Iraqi 
government, the label will be ``Iraqi Government, American 
Embassy,'' and on the security side, will be ``Coalition,'' 
read ``American.'' I don't believe that it is too late for that 
label to be NATO--``American-led, NATO-backed, U.N.-blessed 
force.'' And even if it means, as Senator Biden was suggesting 
earlier, that the numbers are not overwhelming, I think the 
perception that Iraqi radicals are fighting the international 
community, not fighting the American occupation, will, in and 
of itself, have some dissuasive effect.
    The Chairman. As you pointed out, the President, in his 
press conference, indicated the importance of Mr. Brahimi's 
plan, and the fact that we are relying upon it. Let me just ask 
either one of you for a comment about how this is likely to 
work in the nitty-gritty of Iraqi politics, including the 
selection of the personnel. The Council on Foreign Relations, 
in an updated memo of April 16, 2004, has provided some of the 
best sheets of paper I've seen on speculation on how the 
Brahimi plan might work. It comes down to a president, two vice 
presidents, a prime minister, and an advisory council that 
would be smaller than the Loya Jirga in Afghanistan, and 
strictly advisory, but, nevertheless, broadly representative. 
The obvious question is, who will occupy the chairs, and who 
selects the committee?
    The idea, at least as the Council suggests, is that the 
Iraqis would provide suggestions to Brahimi and the United 
Nations Council. The United States and Great Britain and others 
would have at least some advisory capacity, as might some other 
countries that are involved in the Coalition. In any event, 
ultimately, the U.N. group, Mr. Brahimi, or his designee, would 
determine the president of the country, as well as the two vice 
presidents. The question then is, how are the Sunnis, the 
Shi'ites, and the Kurds represented, and do they accept this 
division? Furthermore, do all the people accept the thoughts of 
the Council? Given the fact that the current Governing Council 
is to be dismissed, some of these people may be unhappy over 
that, and may wish to be reappointed. This is not certain.
    At the end of the day, the President has indicated that 
we're waiting for Mr. Brahimi. Brahimi is going to consult some 
more, because he's been inhibited by a lack of security in 
going around the country. He's had to deal in Baghdad. He is 
going to other countries. Now he'll come back to the United 
Nations. But time is passing, and, ultimately, as you pointed 
out, this is going to be a pretty fledgling group of folks.
    Just to play the devil's advocate, what if Iraqis decide 
they don't like these people? What if the basic parties--the 
Shi'ites, the Kurds, and the Sunnis--decide that they are not 
adequately represented? For example, the Ayatollah al-Sistani 
had reservations with regard to the Transitional Administrative 
Law that the Governing Council passed. They may or may not have 
all been fulfilled at this point. As I understand it, Brahimi 
has talked to al-Sistani's son--not al-Sistani, at this point. 
But a Sunni of comparable stature to al-Sistani has yet to be 
found, as I understand it, to give some blessing to this 
proposal.
    What would you suggest as a fallback position in the event 
that we get close to the 30th and, as a matter of fact, these 
people appear to be unacceptable to each other or to the 
parties? What should the United States do at such a 
hypothetical juncture in history? Does anyone have a thought 
about that?
    Mr. Berger. One of the reasons why I think it's so 
important for us to stand up what we called the PIC in Bosnia, 
the international friends of Bosnia, so to speak--same thing in 
Kosovo--is that it may be--even if they are able to agree, 
Ayatollah al-Sistani has made it very clear that he expects the 
powers of this caretaker government to be rather limited until 
there's an election. He's read about majority rule, believes 
actually that the Shias should dominate the new government, 
wants to make sure that happens.
    So I think we're either going to have your situation, which 
is no consensus, or one step beyond that, which is a very weak 
government. And I think standing up a international enterprise, 
an international board of directors that--to use Senator 
Biden's word, an international group--could take the edge off 
the June 30 deadline, to some degree, because we would be 
relinquishing sovereignty. It would reside with some incipient 
Iraqi authority, but bolstered, reinforced, and strengthened by 
an international body that was present, that was not dominated 
by the United States and did not have an American high 
commissioner.
    The Chairman. Dr. Schlesinger, do you have a comment?
    Dr. Schlesinger. Well, my comment goes to the question of 
the various groups within Iraq. Happily to this point, 
Ayatollah al-Sistani has demonstrated a high degree of 
responsibility. He has not necessarily agreed with everything 
that the Americans proposed. But he has been responsible. And 
that is true for a bulk of the Shi'ites. Sandy mentioned 
earlier the need to make sure that the moderate Shia continue 
with the hopes for a future Iraq. I think they are there. Al-
Sadr and his units have not been successful. He continues to be 
a marginal element. And his units, which are made up of the 
dispossessed from Baghdad, have looted in al Kut, in Kufa, and 
in Najaf, and that has not increased their popularity. So I 
think that the Shia will continue to see their stake in seeing 
a successful transition.
    The Kurds are reasonably protected, Mr. Chairman--or feel 
themselves to be reasonably protected. The long-run problem, of 
course, is the Sunni, who now feel politically dispossessed 
with the departure of Saddam. That is part of the reason that 
we have not been able to discover a senior Sunni. Many of the 
senior Sunnis were part of the Ba'athist regime, and there were 
few that were outside of it. We hope that sooner or later, we 
will find an Adenauer in the Sunni community, but, as yet, he 
has not appeared.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. Thank you both very much.
    Let me say, Secretary Schlesinger, you coauthored two very 
important reports--one, ``Iraq: The Day After,'' March 2003, 
and then one entitled, ``Iraq: One Year After,'' March 2004--
along with Ambassador Thomas Pickering. And the project 
consultant was Eric P. Schwartz. I'd like to read a portion of 
the last page of the 2004 report.
    It says, ``The task force believes that sustaining this 
public consensus is essential, especially as the political will 
of the United States will continue to be tested in months and 
years to come in Iraq. These tests, which would include more 
high-profile attacks on U.S. troops, could come at a time of 
heightened political debate in the United States as we enter 
the final phase of the 2004 campaign. Iraq will unavoidably be 
the subject of debate during the U.S. Presidential campaign. 
This debate will almost certainly encompass the original 
decision to go to war, as well as the postwar political 
transition and reconstruction efforts. Nonetheless, the task-
force members, who represent broadly diverse political 
perspectives, are united in their position the United States 
has a critical interest in a stable Iraq, whose leadership 
represents the will of its people. Civil conflict in Iraq, the 
alternative to peaceful political competition, would risk 
intervention by, and competing for, influence among Iraqis' 
neighbors,'' et cetera.
    Last paragraph, ``Although U.S. engagement cannot guarantee 
success, a diminished U.S. commitment to Iraq during the 
transfer of sovereignty would increase the likelihood of 
political failure. In fact, in the months ahead U.S. Government 
will have to sharpen its approach and increase its commitment 
of resources in several critical areas. As one analyst has 
written, the U.S. Government must recognize that the future of 
Iraq and, through it, the future of the entire Middle East is 
very much in our hands. If the United States is unwilling to 
shoulder the burden of leading the reconstruction economically, 
politically, and militarily for years to come, it will fail.''
    Preceding that conclusion, you call for, as you did in your 
first report in March 2003, the need for international 
involvement, the need for training of Iraqi forces that will 
take a lot longer, and you point out that the failure to 
provide funding in the 2005 budget--that is the budget we're 
voting on this year--and the administration's assertion that we 
don't know what we'll need, but we'll know it when we see it--
we'll provide a supplemental--you point out on page 12 of the 
report that this has a very negative consequence. You said, 
``At the same time, the absence of any clear projection of 
anticipated medium-term military or economic commitments 
creates uncertainty and enables officials to defer the process 
of building public consensus in support of continue U.S. 
engagement.''
    Could you elaborate very briefly on what you mean by that? 
It's not just that--the money. But you're arguing that the 
failure to say what we'll need for fiscal year 2005 creates a 
sense of uncertainty. What's the consequence of that 
uncertainty?
    Dr. Schlesinger. The report, which was a year ago, points, 
I think, primarily to the issue that unless we clearly indicate 
to the American people how substantial a commitment this is and 
how large the financial costs are likely to be, and, although 
we have uncertainties about the troop levels, that those will 
continue to be very large, that unless we convey this to the 
American people, we could lose the American public, as we have 
previously; and, therefore, clarity with regard to the degree 
of commitment, the costs, and so forth, would be helpful, and 
we urge the President to make that clear.
    Senator Biden. You also make that point in this year's 
report, which was published March 4, just this last month, 
2004. I wanted you to reiterate that point because I think, 
again, we take for granted that the American people are 
automatically, by the exhortation of the President, going to be 
there, without either an explanation of what the cost will be 
to stay or what the price of leaving would be. The President's 
finally laid out the price of leaving. I noticed, in his press 
conference, he did not use that same trite expression, if we 
don't--I'm paraphrasing--if we don't fight 'em in Baghdad, 
we'll have to fight 'em in Boston, as the rationale for being 
there. He laid out a much more coherent and straightforward 
reason why we had to succeed.
    Both of you have referenced the fact that it is possible 
that we would be able to get assistance from other countries in 
training Iraqis. My recollection--and it was pointed out to me 
in my meeting with European leaders several months ago--
immediately after Saddam's statue came down in that square, 
that rotary that we all saw and cheered--immediately after that 
occurred, the French and the Germans stepped forward and said, 
``We are ready to participate, in a major way, and we are 
prepared to train Iraqi forces, but we need a U.N. resolution. 
Sanction this.''
    And, as usual, Mr. Berger, you succinctly say things that I 
mean to say and can't say as well. You said we need ``an 
American-led, NATO-backed, and U.N.-blessed''--not U.N.-run; 
U.N.-blessed.
    Is there any reasons why the administration, in either of 
your views, would not be able to get a U.N.-blessed--a U.N.-
blessed--resolution that would allow--whether it's France and 
Germany, still, or India and others, who are capable of the 
training--to get them in and do the training?
    Mr. Berger. I think if we demonstrated clearly the 
political will to make this an international enterprise, which 
I don't really think we've done to this--notwithstanding 
saying, well, we'll do what Brahimi says--I've not seen this 
administration say to our allies, what will it take to get you 
guys here? How can I help your politics? Because I understand 
your politics makes this very, very difficult. That's why your 
idea of going to Europe as a gesture, I think, makes a great 
deal of sense.
    I talk to Europeans all the time, European officials, and 
if we put this question right--we've made it very easy for them 
to say no--but if we basically say, listen, we need your help, 
we cannot fail, you're not going to be immune from the 
consequences of failure, what do you need to--in the way of 
U.N. support or otherwise, to make this possible, I believe, to 
this day, that our European allies and the Arab neighbors would 
participate in some fashion.
    Senator Biden. Jim, what do you think would happen if we 
made a genuine effort?
    Dr. Schlesinger. Well, I think that pursuit of 
international support is desirable, particularly on the 
training side. I believe that, at one point, the Indians, 
India, suggested that they would be prepared to train Iraqi 
forces. Now, India is, of course, the largest Muslim country in 
the world, 100-million-plus Muslims, and they have had great 
experience in the training of Muslims. And, therefore, that is 
something that, at least at this point, should be reexamined.
    Senator Biden. Let me close, Mr. Chairman, by saying that 
many of you saw Monday's New York Times. On the front page, it 
says, ``Security Companies Shadow Soldiers in Iraq.'' I imagine 
it came as a shock to a number of Americans to realize that we 
have a private army in Iraq. Larger than any other force beyond 
ours--larger than the Brits, larger than any other country; a 
20,000 strong private army. And this private army is providing 
security. These are armies hired by contractors, funded by the 
$18 billion we're talking about, of which 15 percent was going 
to go to the Iraqi police; now it's estimated as much as 25 
percent of the $18 billion will go to pay companies--I'm not 
criticizing, I'm just observing it--to pay companies to hire 
essentially the equivalent of the French Foreign Legion. We're 
paying, for example, former Navy SEALs somewhere between $500 
and $1,500 a day, out of that money that we have appropriated, 
for a private army, which is needed for security, when we have 
young Navy SEALs who are actually employed by the Federal 
Government making that much a month, and National Guard kids 
over there, and people who are trained and competent and 
capable, who are making 30 to 50 percent less than they'd be 
making at home, and still have the same mortgage payment, still 
have the same tuition payment, still have the same car payment. 
And this is a prescription for disaster here if we don't get 
some additional help.
    I would offer this as evidence that even the administration 
acknowledges we need more force. This is the force they're 
prepared to pay for, though--private security forces. And it's 
guarding, by the way, Bremer, guarding the consulate--I mean, 
this is amazing. We'd better get to the business of figuring 
out how we get more forces in there.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for your testimony. It has been noted 
this morning that you each have contributed so many years to 
this country, its security interests as well as other 
interests, and we are grateful for your continuation of wise 
counsel, thank you.
    I actually would like to pick up on where Senator Biden 
left off, on the troop issue. We have before us, as has been 
noted, a former National Security Advisor, a former Secretary 
of Defense, CIA Director. And here is my question, because I 
think you two are eminently qualified to answer this question. 
To continue with what Senator Biden has noted that was included 
in the New York Times article, and what I have heard this 
morning from each of you--and I think this is a fair assessment 
of where you believe our future force-structure needs are going 
to be--we're going to be in Afghanistan, we're going to be in 
Iraq, we are still in the Balkans, we're going to be in Korea. 
We're all over the globe with new commitments that we are 
taking on constantly. Now over 40 percent of our force 
structure in Iraq is represented by National Guard and Reserve 
units. We are going to face, as we already are, a retention/
recruitment issue with the National Guard, Reserves, active 
Army and--at least it's this Senator's assessment that our 
continued commitments over the next few years are probably not 
going to be any less, if we all believe what you've stated and 
I certainly know that you do believe it; I think everyone on 
this panel--that the threat of terrorism, proliferation of 
weapons of mass destruction, and all that goes with that are 
going to require a tremendous amount of resources and intense 
leadership and focus. Now if that is the premise, and I assume 
you agree with, generally, what I have said, my question to you 
both is, where, then, do we continue to get those forces? How 
are we going to meet the obligations and commitments that we 
are making not only to American citizens, to the future of this 
country, but to our allies?
    Now, certainly one option, which, a year ago, a year and a 
half ago, I didn't think was much of an option, for a couple of 
reasons, was a draft. And I think you all understand why that 
probably isn't an option, but I'm not so sure. Now, here's why. 
I'm not so sure that isn't a bad idea--societal, 
sociologically, defense-wise--that we shouldn't be requiring 
our citizens to understand the intensity and depth of the 
challenges that this country faces. The President calls himself 
a ``war president.'' We're having hearings in the Armed 
Services Committee in the Senate, and the Foreign Relations 
Committee today, on Iraq. There's not an American, unless he or 
she has been asleep for the last few years, that doesn't 
understand what we are engaged in today, and what the prospects 
are for the future. So if that's the case, why shouldn't we ask 
all of our citizens to bear some responsibility and pay some 
price?
    Now, the other sociological issue is--and it was noted in a 
Atlantic Constitution editorial this weekend--not unlike 
Vietnam, that those who are serving today and dying today in 
Iraq are the middle class, lower-middle class. I think the only 
Member of the U.S. Senate who has a child in the Armed Forces 
who was in Iraq--Afghanistan--was Senator Johnson, from South 
Dakota. So why shouldn't we, then, have some responsibility, as 
our children should have some responsibility?
    So I've given you a broad canvas here to paint on, but 
it's, I think, a legitimate question that we haven't even come 
close to answering. And the real focus is--and Senator Biden 
brought it up--are we going to continue to pay mercenaries, 
essentially? And what we're doing--and this is the point--is 
that these kids aren't stupid, so if they can make this kind of 
money as private-protection people, versus having a hard time 
making the car payments and the house payments in the 
established military, then where do you think we're going to 
go?
    Let me close it down at this point and listen to our 
learned panelists here.
    Secretary Schlesinger.
    Dr. Schlesinger. Well, that is a full range of questions, 
Senator. Let me start where you started, which was the 
structure of the U.S. Armed Forces. In part, that still 
reflects the structuring to deal with the threat from the 
Warsaw Pact. The U.S. Army is now adjusting to what will be a 
much more likely future than the inherited or the legacy forces 
from the past. And the Air Force has made some adjustments of a 
similar nature.
    Now, it's not only the Warsaw Pact, it was also the 
structure that we created after Vietnam, of which I was a part, 
which ensured that we would never go to war again without 
having to call up the Reserves. I think that the consequences 
of that were some of the support for U.S. Army divisions--to 
take the most notable example--were in the Reserves. We need 
to--and we are, in the process of reexamining that whole 
concept.
    Finally, let me say that in dealing with the Warsaw Pact, 
it was anticipated to be a war of heavy tank movements from the 
Warsaw Pact, and heavy artillery movements. What we are dealing 
with now requires much more in the way of infantry units that 
are prepared and trained to deal with the local peoples, 
because we are going to be engaged in whatever you may want--
peacekeeping operations, nation-building, so on--and those are 
not well handled by armored units. So we're going to have to 
look at that.
    With regard to the draft, I was reluctant, in 1969, to see 
the end of the draft, and we preserved, as you will remember, 
the Selective Service System, although we never called, after 
the 1970s, for any people to be called up. I think that the 
points that you have raised about that sense of national 
service are well taken. In World War II, we essentially drafted 
16 million people. It's easy to have a draft if, one, almost 
everybody is called up. It's not so easy to have a draft if 
you're calling one in a hundred. They would have more of the 
reaction that Senator Biden ascribed to folks who are in the 
SEALs now looking at others who have left the SEALs and are 
receiving much more remunerative pay packages. So I think that 
you might well have an adverse reaction. And you know, far 
better than I, the difficulty of getting a renewal of draft 
through the Congress.
    Senator Hagel. Politically, probably impossible.
    Mr. Berger. Yes, Senator, I'd make three quick points in 
response to your question. No. 1, I do believe we have to 
increase the end-state size of our military. I don't know what 
that number is. It's in the neighborhood of 40,000 troops, I 
believe. We've been involved in seven peacekeeping missions in 
the last 10 years. This thing is--it's not going away.
    I used to have an argument with my friends in the military, 
in the 1990s, saying, ``we've got to train better for 
peacekeeping.'' And they would, in effect, say, ``if we train 
better, you'll ask us to do it.'' But the problem is, we're 
asking them to do it without really preparing them to do it. 
So, No. 1, I would be looking at increasing the end-state of 
our military.
    No. 2, I think we have to reassess--and the Congress can 
play an important role here--the Reserve/Guard role and its--I 
worry very much about retention rates. People are getting 
something very different than they signed up for.
    With respect to the draft, I think that the extraordinary 
professionalism of our military today is inextricably bound up 
in the fact that we have a volunteer force. Now, you're saying 
it may be that we can't afford that anymore. I guess my 
pragmatic answer to that, Senator Hagel, is, it's not an issue 
I'd like to raise right now, in the middle of Iraq, because it 
seems to me if you entangle the issue of draft to the issue of 
Iraq, you have a good chance the American people will say no to 
both. But I think you raise a very, very--a question that's not 
going to go away simply by virtue of my pragmatic judgment that 
this is not the right time to debate it.
    Dr. Schlesinger. Experience has shown, by the way, that 
recruitment into the active-duty forces has held up very well. 
There is the question mark that you discerned with regard to 
the Reserve and the Guard.
    Senator Hagel. Thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman and Senator 
Biden, for calling this set of important hearings this week. 
Many Members of Congress and many of my constituents continue 
to be dismayed that the administration went to war in Iraq with 
what is obviously only a half-baked plan for the post-conflict 
phase of the operations. Today, over a year after the war 
began, our headlines speak of the deadliest month for U.S. 
troops in Iraq yet. Today, we are trying to comfort the 
families of troops whose service has been extended in Iraq 
beyond the anticipated 1 year.
    Today, this country continues to spend about $3.7 billion a 
month on military operations in Iraq, and we find the billions 
appropriated for reconstruction activities are not likely to be 
as effective as we had hoped because of the high cost of 
security are actually siphoning off the resources. Today, we 
know that the Coalition Provisional Authority will cease to 
exist on June 30, but it will give way to a massive embassy 
operation, and Iraq will still be depending on U.S. troops for 
security.
    Mr. Chairman, it's high time to put this half-baked plan 
back in the oven and come up with something viable and clear, a 
plan to stabilize Iraq that also prioritizes easing the burden 
borne by American service members and taxpayers. A date for the 
nominal transfer of sovereignty is not a plan. Wishful thinking 
about how the U.S. presence in Iraq is perceived is not a plan. 
Acknowledging that the current situation is difficult, and 
resolving to simply ``tough it out'' is not a plan. We owe it 
to this country, and especially to the U.S. military, to insist 
on something more.
    So I have appreciated hearing the perspectives so far, Mr. 
Chairman, and looking forward to the further testimony. Let me 
use my time to ask a couple of questions.
    Without saying that we should simply ``cut and run,'' I do 
believe that we need to be frank about the hard truths before 
the United States. And given the course we're on to date, I'd 
ask each of you, what should the American people anticipate, in 
terms of how many years U.S. troops will be responsible for the 
security of Iraq? And how many years can we anticipate spending 
multiple billions of dollars on reconstruction projects in 
Iraq?
    Mr. Berger.
    Mr. Berger. Senator, I would say quite a number. Obviously, 
the ultimate exit strategy is training an Iraqi police, an 
Iraqi security capability that is able--has both the will and 
the ability to take over this responsibility, under a 
government that has the will and the ability to exercise that 
authority.
    My own experience, from Bosnia, from Kosovo, from Haiti, is 
that it takes a great deal of time to build an army or to build 
a police force--3 to 4 to 5 years--and I think that we need to 
be thinking of that time horizon, at least, in which we will 
have a heavy share of responsibility, No. 1.
    Now, in terms of money, I suspect the administration will 
come back to the Congress for a supplemental, perhaps at the 
end of the year, which I would believe would be in the 
neighborhood of $50 to $70 billion. I don't see why the delta 
for next year should be much less. So I think we're talking 
about, you know, another $200 billion, at least, in the next 3 
years. Again, there's not going to be--hopefully, over time we 
can ramp this down, we can bring in others, there'll be a 
greater degree of political stability.
    But I do believe--to answer your question, and Senator 
Biden's--why not level with the American people? I think, you 
know, the American people are a bit like an elastic band, and 
at some point they're going to snap. And I remember the 
``sticker-shock'' when the President said $87 billion. You 
remember that speech? And he said $87 billion, and it took 
people's breath away because he'd never used a number before.
    Well, you know, we just can't wait until the very last 
moment, when we're running out of ammunition, and, say, $70 
billion more, without running a real risk that we're going to 
have ``sticker-shock'' in the American people, and a tremendous 
pressure to move out of there prematurely.
    Senator Feingold. Let me follow with a question relating 
to, sort of, the emerging Iraqi leadership. What should be the 
standard of legitimacy for emerging Iraqi leadership? From the 
beginning, I and others have been concerned about the 
likelihood that our democratization efforts will succeed in 
Iraq, not because I don't believe that Iraqis desire and 
deserve the same basic civil and political rights enjoyed in 
democratic states, but I've wondered from the beginning how a 
political culture in which ideas about humiliation are so 
prominent could accept any model that is proposed by a foreign 
occupier. How likely is it that resistance to the United States 
presence in Iraq will, sort of, become the new standard--
ideological standard of legitimacy for Iraqi leaders who seek 
to appeal to constituents on other than religious or ethnic 
grounds?
    Dr. Schlesinger.
    Dr. Schlesinger. Let me talk a little bit about the 
resistance. I think that it would be premature to leap to 
conclusions about the duration of that resistance. This may be 
a flare-up similar to a small Tet in 1968. What we have seen is 
an explosion of activities, particularly in the Sunni area, 
that have been well organized. And what may have been the case, 
and we suspect may be the case, is that these organized 
activities were planned to take place closer to June 30, just 
at the time of the transition--with al-Sadr's militia moving in 
the south, it seemed appropriate to trigger this organized set 
of attacks. We have faced platoon-sized attacks against U.S. 
forces, which had experienced--over the course of the last 6 
months, say--much smaller attacks. So it may be that once this 
flurry of attacks is over, that there will be a subsiding. I 
hope that is the case, but I cannot guarantee it.
    That will bear heavily on whether or not we are in this for 
3 years or 5 years. We are going to be there for an extended 
period, unless we decide to ``cut and run,'' which I trust will 
not be the case. And that means that the extent of expenditures 
will depend on two things--whether or not the resistance is now 
a flash in the pan, reflecting the heavy organization that 
existed in Fallujah and, to a lesser extend, in Ramadi, and 
whether or not the marginalization of al-Sadr's militia takes 
place. If that's the case, expenditures would be lower.
    The second point, of course, is that we are now dealing 
with Iraqi oil production of 2\1/2\ million barrels a day, 
which we did not have a year ago, and that means that there's, 
at least at present prices, something like $17 or $18 billion a 
year coming in, which likely will reduce the level of 
expenditures for the American taxpayer.
    Senator Feingold. Thank you, you answered my first 
question. I know my time's up, but I'd like to hear Mr. 
Berger's answer to my second question that had to do with the 
inherent issues of legitimacy of a government that we, in 
effect, have set up, if you could respond.
    Mr. Berger. I think we've seen, Senator Feingold, that the 
current Iraqi governing authority does not have broad 
legitimacy in the country. I think a number of them are doing 
yeoman service in trying to diffuse some of these situations, 
in Fallujah and Najaf and elsewhere, but everything I have seen 
suggests that they do not have wide support. Nor will any 
government that is perceived as hand-picked by the United 
States have broad support.
    And so this next iteration, this caretaker government, has 
got to emerge from some process that has a great deal of Iraqi 
content, a great deal of Iraqi participation, under the 
supervision and leadership of Mr. Brahimi and the international 
community.
    Dr. Schlesinger. Much of the government was, of course, in 
exile--much of the present Governing Council came from those 
who were exiles--and they have, what shall I say, less natural 
appeal to Iraqis who stayed and suffered under Saddam Hussein. 
It will be necessary to move in the direction, sharply, of 
getting more people who have been in country and have suffered 
under Saddam Hussein. Now, I mentioned earlier finding an 
Adenauer is not going to be easy in Sunni country, and it's not 
going to be much easier elsewhere.
    Senator Feingold. I would simply say--and I know my time's 
up--that I think the problem may be the notion that we are 
going to find the Adenauer, which that is not for us to do.
    Dr. Schlesinger. Mr. Brahimi, presumably----
    Senator Feingold. I understand.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman.
    I join with you, also, in regretting that in 3 days of 
hearings, we will not have a single administration official 
appear before us.
    The Chairman. Well, we will have administration officials 
in coming weeks. My lament was that our request to the Defense 
Department did not result in the highest-ranking person who 
might have been available there.
    Senator Chafee. All right. Well, I know these gentlemen 
have good opinions but they don't speak for the administration. 
Those are people we're going to get the answers from 
ultimately.
    But, nonetheless, Secretary Schlesinger, in your opening 
comments you quoted some very chilling testimony from Osama bin 
Laden. Why use that testimony at a hearing on Iraq?
    Dr. Schlesinger. The mention of that is to discuss why it 
is that the United States is engaged in the Middle East. 
Because we were attacked. Because of a declaration of war 
against Americans.
    The question of Iraq, which is what you point to, it may or 
may not have been, as some stated, central at the time we went 
in. It may have been secondary or peripheral at the time we 
went in. But the administration is quite right that it is now 
the central front in the war against terrorism, because much of 
what we see in Fallujah today are terrorists who have come from 
the outside world. They are the ones, primarily, who have been 
setting the car bombs and have been doing the training. So it 
has now become central, even for those who might, at the 
outset, not have thought it central.
    Senator Chafee. Well, it's become central because we 
invaded; but, certainly, I think you would even agree, there's 
never been any connection between Osama bin Laden and Iraq, and 
they're very, very different issues an Afghanistan's a long way 
from Iraq.
    Dr. Schlesinger. I think you've had testimony from--or a 
letter, at least, from George Tenet talking about the contacts 
between al-Qaeda and Saddam, going back at least a decade.
    But that is--we are there where we are, and the 
consequences of not winning, of not being successful, would be 
disastrous, not only for the United States----
    Senator Chafee. Well, I agree with that, but I don't think 
there's any connection with al-Qaeda. We're there, and now we 
have to be successful, I agree with that.
    Secretary Berger, Mr. Berger--never a Secretary, is that 
right? No? Honorable----
    Mr. Berger. ``Mr. Berger'' is fine.
    Senator Chafee. Honorable Berger.
    Mr. Berger. I've been called worse.
    Senator Chafee. You said, in your opening statement, that 
we need to redouble our efforts with the Israelis and 
Palestinians. And some members of the administration, advocates 
of the war, have written, as far back--in 1996--and, in fact, 
next appearing on the panel, Mr. Perle, in particular--
advocating, way back then, an Iraqi war, the destruction of the 
Oslo peace process, and a refusal to ever return the West Bank, 
and now we seem to be heading in that direction. Do you think 
that's been the plan all along?
    Mr. Berger. Well, you'll get to ask Mr. Perle, in person. 
I'll let Richard answer for himself, in terms of what his plan 
has been.
    My own view here, Senator, is that the Arab world views 
Iraq through a different prism that we do. They view Iraq--the 
narrative of Iraq right now, being defined on al-Jazeera and 
elsewhere, is that--the narrative of civilian casualties and 
victim-hood--and the prism through which they view Iraq is 
affected by the Israeli-Palestinian conflict.
    Now, I happen to think that the step that Prime Minister 
Sharon announced this week is a positive step. He's unfrozen a 
situation that was frozen, and I think he's opened up some 
opportunities, if we seize upon them, perhaps to move toward a 
more peaceful future. But I think that that will depend upon 
whether it is the first step toward something that goes 
farther, both with respect to change in Palestinian and with 
respect to what happens on the ground, and whether the United 
States stands off and watches this from a distance, as we have 
for the last 2\1/2\ years, or whether or not we seek now to 
help the Palestinians, for example, take control of Gaza, take 
control of the violent groups, build some kind of a governing 
operation there that has legitimacy, and can live peacefully. I 
think that opportunity now exists; but, again, only if America 
leads.
    And I guess the last thing I'd say is, we have always been 
Israel's closest ally--I hope we always we will be--but that 
has been acceptable to the Arab world because it's been a 
second pillar to our policy. We've always been----
    Senator Chafee. Could I just change tacks a little bit?
    Mr. Berger. Sure.
    Senator Chafee. Just for the sake of argument, if I agree 
with you that recent positions might be beneficial--but what 
you said is the Arab world views our foreign policy through the 
prism of the Arab-Israeli conflict. So, therefore, wouldn't it 
be true that we're making it more difficult in Iraq if what 
we're doing by giving up the original American position that we 
negotiate on the 1967 boundaries that's a big change. Six 
administrations have--past administrations, Republican and 
Democrat--and this administration is a new policy, new American 
policy, that the settlements are now, on the West Bank, open to 
Israeli occupation, permanent occupation. Don't you agree--
whether that's right or wrong, would you agree--that it's going 
to hurt us in Iraq?
    Mr. Berger. I think that if the Arab world sees us sitting 
on our hands, disengaged, letting this thing simply play itself 
out on the ground, I think it will hurt us. If they see us 
taking advantage of the step that Israel has taken to try now 
to create a new momentum, a new leadership in the Palestinian--
in Gaza--if they see us engage with that second pillar, which 
is not just our steadfast alliance with Israel, but our 
unrelenting effort to find a more peaceful and secure future, 
then I think we can walk that line. But if we drop out of the 
picture on the Arab-Israel conflict, I think it will create the 
kind of animosity that you're referring to.
    Senator Chafee. Thank you very much.
    Dr. Schlesinger. A comment on that question. What is true 
elsewhere in the Arab world is not necessarily true in Iraq. 
Iraqis, for understandable reasons, are very much concerned 
within the country and are less concerned about the situation 
regarding the Palestinians; though it may damage our image in 
the Arab world, generally, but I don't think that it's 
significant in Iraq, itself.
    Second, as Mr. Berger has indicated, this may have a 
beneficial effect, ultimately, with regard to the Israel-
Palestinian peace process, or what passes for a peace process. 
I am concerned that we have not gotten control and that there 
is not high confidence that the Palestinians can get control of 
the violent groups--Hamas--inside of the Gaza Strip. And I 
would be quite concerned that it turn into a lawless area, 
which becomes a place of refuge, as it were, for terrorist 
organizations, as Afghanistan was.
    Senator Chafee. I'd just like to say, I just wish that the 
Geneva Accords had gotten more attention. That seemed to be a 
Palestinian involvement and agreement--a large section of the 
Palestinian population's agreement of the Geneva Accords.
    And I will take issue, also, with the--that the Arab-
Israeli issue doesn't resonate in Iraq. When I was there, in 
October, the graffiti in Mosul and Baghdad was all about the 
Palestinian cause, and the people who were taking us around 
recognized that. And I think, after the assassination of Sheikh 
Yassin, if I'm saying it right, we see the Sunnis and the Shias 
banding together, who had previously had turf wars back and 
forth--they're banding, coming together. So I would disagree 
that the Israeli-Palestinian issue doesn't resonate very deeply 
in Iraq.
    The Chairman. Thank you, Senator Chafee.
    Senator Boxer.
    Senator Boxer. Thank you very much, Mr. Chairman. I 
consider your holding these hearings somewhat an act of 
bravery, considering what a hard time we seem to be having 
getting people from the administration. And I know they have 
reasons--they had schedules, they had this, they had that.
    And I just want to associate myself with the comments of 
Senator Biden, when he said he was dismayed by it. On behalf of 
my people, I have to tell you how many we've lost just this 
month, 46 of the 105 dead, are from California. So what am I 
supposed to tell my people back home? Oh, I had a wonderful 
chance to talk to two people I really respect and admire, but 
they don't have power now in the administration. And you are 
helping us, and I appreciate that, and this is important, but 
think of how much--just as important it would be to have--if 
not more--the people who are making the policies.
    And then we see, ``Bush officials deny money was diverted 
for Iraq war. Book asserts Congress was left in the dark.'' Who 
knows what's right or wrong. I sure would like to be able to 
ask Bush administration witnesses these questions. So I just 
wanted to say, at the start, that I'm dismayed on the point.
    I want to pick up on the point that was made by Senator 
Chafee, when he looked at Dr. Schlesinger, who has had such 
amazing experiences in the Department of Defense, CIA, and 
said, why were you talking so much about bin Laden, when this 
is a hearing about Iraq? It had that same strange ring to me 
when you started. And I agree with you on everything you said 
about bin Laden. That's why I gave the President my full vote 
to go to war against bin Laden. There are two wars out there. 
The one against bin Laden in Afghanistan, the one in Iraq.
    Now, I would just like to tell you, Dr. Schlesinger, that 
to open up with a big attack on bin Laden, sort of leads people 
to believe that's what the war in Iraq is about. I have here a 
book called ``The Network of Terrorism,'' put out by this 
administration's State Department. And on this page--this was 
right after 9/11; it was October--``Countries where al-Qaeda or 
affiliated groups have operated.'' There's 42 countries listed 
here. Iraq isn't mentioned. The United States of America is 
mentioned. So if you believe the administration, there were 
more al-Qaeda cells in America than there were in Iraq.
    Now, what has happened since we went into Iraq. The war was 
to get the weapons of mass destruction. That's why I, and some 
others on this committee, didn't vote to do that because we 
felt, better to get the weapons of mass destruction with 
intrusive inspections with the whole world with us, and, by the 
way, while we're at it, grab Saddam and bring him before the 
world courts, something we've done 92 times with people who 
have committed war crimes. So you have, on this committee--in a 
bipartisan way, I might say--a few dissenters on that point.
    The fact is, we're there, so let's go to today. My question 
is about the resistance. You're not the best people to ask 
this, but that's what I got. And you're very smart, and you 
probably have conversations with people in the know. I'm going 
to ask this to see if you can help me.
    We've been briefed--and I'm not disclosing anything from 
secret briefings--and it's been in the press--that there are 
three parties to the resistance. The former Ba'athists, who are 
still going after us because Saddam is gone, which is a good 
thing. The religious zealots, as a group, have an opportunity 
here to go after us. And now you've got remnants of al-Qaeda; 
you've got foreign terrorists in there. So now, where we had 
none of them, we now have them there. OK.
    I look at the press reports, and I look at some of the 
photographs--I don't have the one I wanted to show you today--
but there's a photograph in the New York Times--a photograph of 
a horrible explosion, with black smoke and red flames, and some 
of our tanks were set ablaze, and a young man running from the 
scene, laughing, waving his arms in the air. Now, to me, this 
did not look like someone from any--he didn't have a black hood 
on, he looks happy to be in the picture. My sense is--are we 
misreading this resistance?
    A poll that was taken in Fallujah said seven out of ten 
people thought it was OK to kill Americans. It wasn't OK to 
burn them; they didn't like the fact that they burned them and 
hung them from a bridge, but it was OK to kill them. The 
overall polling in the country, I heard, is 20 percent of the 
people think it's OK to kill Americans.
    Another article in the New York Times--and I'd ask 
unanimous consent to place it in the record, Mr. Chairman.
    The Chairman. It will be placed in the record in full.
    Senator Boxer. It was 2 weeks ago. It's a very in-depth 
story. And at the very end, it quotes people who are our 
friends, who want us to succeed, Iraqis, and they say they fear 
that the hatred of the occupation is bringing together the 
Sunnis and the Shias, in concert, to defeat us, and that that 
overwhelming, quote/unquote--they use the word ``nationalism'' 
now--is overwhelming the differences between the Sunni and the 
Shia, which we know are deep.
    So, looking ahead--and perhaps I'm just asking you an 
impossible question, but, to me, we could have the greatest 
plan in the world, and I so support what Brahimi is doing, and 
I'm glad the President said he's working with him, and I want 
to put an international face on this, and I am working to do 
that--I've worked to do that since the beginning--and I think 
Sandy Berger has been a brilliant voice on this, and Joe Biden 
has been a brilliant voice on this, and Dick Lugar, as well, to 
put an international face--but are we up against a resistance 
that is deeper and broader than some in this administration 
seem to feel?
    Mr. Berger. Well, Senator, let me take the first stab at 
this. I think we're at a tipping point in Iraq. And this is 
based upon my conversations with people who have been there, 
people in the Pentagon and elsewhere who are dealing with this 
on a daily basis--I don't think that we now have, what we face 
today, one would describe as a nationwide popular uprising. I 
think that it is a serious insurgency, with the three elements 
that you have described. But the reason I say that we're at a 
tipping point is that--you know, here's the dilemma we face in 
Najaf, if we cannot get a political compromise. Do we go into 
that city and get the Mahdi army and get al-Sadr--something 
that al-Sistani has made clear is a red line--will that be the 
tipping point? Will that be the point at which this no longer 
becomes what I would call a serious insurgency and becomes a 
popular uprising? I think we're right on the knife's edge. And 
obviously our commanders recognize that today in Iraq, which is 
why they're trying to get a political settlement in Fallujah, 
and a political resolution, even, with al-Sadr.
    But there's no question in my mind that most Iraqi's, while 
they are grateful that Saddam Hussein is gone, they want this 
occupation over. I don't know of any country that has ever 
welcomed an occupation. And so we'd better get the 
``occupation'' word off of this, the ``American'' word off of 
this, even though there's going to be a heavy American 
responsibility, and let Iraqis see this as the world trying to 
create a new Iraq, not American trying to impose its vision of 
Iraq.
    Senator Boxer. I think that your words are words of wisdom.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Boxer. I just wondered if Secretary Schlesinger had 
anything to add?
    Dr. Schlesinger. Well, the answer is, we are not--as yet, 
certainly--facing a national resistance. The Shia moderates 
have not sided with al-Sadr. Al-Sistani has indicated his 
concern about the Medina in the city of Najaf. And we have 
behaved scrupulously in that regard. The forces that al-Sadr 
has recruited have been falling away, and the outcome in the 
south may be quite healthy. I cannot say that it will be.
    We are, as Sandy has indicated, at a critical point. I 
don't think we're on the knife's edge, but we are looking at a 
continued problem in the Sunni area, and that--the outcome 
depends on our effectiveness in suppressing organizing forces. 
The organizing forces are primarily former Iraqi intelligence 
and Republican Guards, who have organized these platoon-sized 
operations against us. What you saw of young people running 
away cheering, is not part of that organization.
    Senator Boxer. That's my point. Thank you.
    [The New York Times article Senator Boxer referred to 
follows:]

                [From The New York Times, April 9, 2004]

                    The Struggle for Iraq: Uprising

        as fighting rages, insurgents in iraq kidnap 3 japanese

                           (By John F. Burns)

    Baghdad, Iraq, April 8.--As American forces continued battling 
Sunni Muslims in Falluja and other troops began deploying south to 
challenge insurgents who have seized control of three major Shiite 
cities, rebels kidnapped several foreign civilians on Thursday and 
threatened to execute them.
    Three Japanese civilians appeared in a video broadcast on al-
Jazeera news channel blindfolded, while their black-garbed captors 
threatened them with guns, knives and swords.
    A statement by a previously unknown group calling itself the 
Mujahedeen Brigades gave Japan three days to withdraw its 550 troops 
from Iraq before the hostages--two aid workers and a journalist--would 
be killed. In Tokyo, the chief cabinet secretary, Yasuo Fukuda, called 
the abductions ``unforgivable,'' but said they did not justify a 
withdrawal.
    Besides the Japanese seized as hostages, Israel announced that two 
Israeli Arabs were kidnapped Thursday. Several abducted South Koreans 
were released. A Canadian aid worker was reported kidnapped, and a 
British citizen was seized in the southern city of Nasiriya.
    Meanwhile, the interim Iraqi interior minister, Nun al-Badran, 
announced his resignation in response to a request by L. Paul Bremer 
III, the chief American administrator. While the move was presented as 
necessary to balance Sunni and Shiite ministers on the Iraqi Governing 
Council, many Iraqis suspected Mr. Badran was paying the price for the 
widespread desertion by Iraqi police and civil defense units in the 
face of the violence.
    As the war took a menacing turn, Gen. John P. Abizaid, head of the 
Army's Central Command, visited Baghdad to assess calls for 
reinforcements and declared that he would use all necessary force to 
quell the insurgency sweeping the country.
    Falluja, 30 miles west of Baghdad, is enduring the heaviest 
fighting since American-led forces swept across the country and 
captured Baghdad a year ago on Friday. Accounts by reporters 
accompanying United States Marine units said they were fighting street-
to-street on Thursday, taking heavy rocket, mortar and small arms fire 
from factories, homes and mosques.
    Two American soldiers were killed Thursday, according to Central 
Command, raising the number of United States troops killed in less than 
a week of fighting to nearly 40. Reports from Falluja hospitals 
suggested that more than 289 Iraqis had been killed, although that 
figure could not be independently confirmed.
    In an interview at the American command's headquarters near Baghdad 
airport, General Abizaid issued a stark warning for the Iraqi fighters, 
from the minority Sunni as well as the majority Shiite populations, who 
have changed the landscape of the war dramatically since the ambush and 
killing last week of four American security guards in Falluja. Over the 
weekend, Shiite militiamen in Baghdad and elsewhere struck against 
American and allied troops across a wide swath of central and southern 
Iraq in what has become a broad uprising against the American-led 
occupation.
    ``First, we are going to win,'' General Abizaid said, seated 
alongside Lt. Gen. Ricardo S. Sanchez, the American field commander in 
Iraq. ``Secondly, everyone needs to understand that there is no more 
powerful force assembled on earth than this military force in this 
country that's backed up with our naval and air forces in near 
proximity.''
    In a message directed at the insurgent leaders in Falluja and at 
Moqtada al-Sadr, the cleric who has led the Shiite insurrection across 
southern Iraq, the general added: ``The fact that we have been so 
judicious in the use of this force should not be lost on anybody. This 
country will not suffer intimidation by the United States of America. 
But those who oppose moving democracy forward will have to pay the 
consequences if they don't cease and desist.''
    General Abizaid said that in his discussions with General Sanchez 
and with Washington, ``everything is on the table,'' including 
accelerating the return to Iraq of the Third Infantry Division, whose 
troops led the capture of Baghdad last year.
    ``There's all sorts of combinations and permutations,'' he said. 
``And you need to say that, because the decisions have not been made.''
    At a news conference earlier Thursday, General Sanchez said there 
were about 125,000 American troops in Iraq, out of a total allied force 
of 145,000. For several months until this week, with American forces 
under pressure across the Sunni areas north, south and west of Baghdad 
and with Shiite areas enduring a wave of suicide bombings and other 
attacks aimed at worshipers in mosques, police stations and other 
military and civilian targets, American commanders here insisted that 
troop strengths were adequate.
    Now, the emphasis is on building up American forces to cope with 
the widening conflict, and on using American forces anywhere in Iraq 
there are insurgent threats, including areas of the south that have 
until now being assigned to troops from more than 30 other nations that 
have joined in the effort to pacify Iraq.
    Asked in the interview about American troop movements toward Kut, 
Kufa and Najaf, the three Shiite cities that are under Mr. al-Sadr's 
control, General Abizaid replied, ``It's safe to say that U.S. units 
will be used anywhere in this country to deal with any threat that's 
presented, that requires their presence.''
    In the latest blow to the fragile stability that prevailed across 
many Shiite towns in the south until the last week, Ukrainian troops 
were forced to withdraw from bases in Kut on Wednesday after coming 
under attack by Mr. al-Sadr's militia force, the Mahdi Army. General 
Sanchez said. ``We will retake al Kut imminently,'' suggesting that 
American forces had already reached the city.
    In yet another challenge to the occupation, Polish and Bulgarian 
troops fought through the night on Wednesday to drive off al-Sadr 
militia forces that attacked them near the city hall in Karbala.
    A Polish military spokesman, Lt. Col. Robert Strzelecki, was quoted 
by the Polish news agency PAP on Thursday as saying Polish patrols in 
Karbala had been suspended for the soldiers' protection. The Bulgarian 
foreign minister, Solomon Passi, said 120 American soldiers had been 
sent to the city as reinforcements.
    In Samarra, a predominantly Sunni city 80 miles north of Baghdad 
that had quieted down after heavy American attacks that followed the 
capture of Saddam Hussein in December, American troops came under 
renewed attack on Thursday, according to an Agence FrancePresse report, 
with heavily armed men roaming the streets in trucks firing rocket-
propelled grenades toward a base for American and Iraqi troops.
    General Abizaid dismissed suggestions that the widening of the war 
threatened an unraveling of American control. After outlining options 
for increased troop strengths, he said, ``But I don't want to give the 
impression that everything is spinning out of control, because it's 
not.''
    He added: ``It's our judgment that at the present time we need to 
ensure that there is no misunderstanding on the side of those who 
oppose us that we will do whatever is necessary to get the situation 
under control.''
    ``We are not headed for disaster, as long as we are resolute, 
courageous and patient,'' he said.
    Still, when asked if there was a risk that the insurgency in the 
Sunni heartland and the uprising led by Mr. al-Sadr would merge into a 
war of national resistance, with the religious and political rivalries 
between the Sunni and the Shiites submerged in a surge of Iraqi 
nationalism, the general gave a measured reply.
    ``There's always a possibility that a national resistance will 
arise,'' he said. ``But I firmly believe there are more people in this 
country trying to hold it together than are trying to take it apart. 
Our problem is to confront those who would take it apart, and they are 
in a small minority.''
    He declined to say how long it might take to achieve stability, 
saying that would depend on ``an awful lot of skill'' in managing the 
political and economic challenges, as well as the military ones. But in 
the immediate future, he said, American prospects would depend on 
getting tough with Mr. al-Sadr and others challenging American control.
    ``This has been a nation of intimidators,'' he said. ``We only have 
to stop the culture of intimidation, and it will only be done with a 
fair and firm response by us.''
    ``And it will often be deadly,'' he said, ``but that's what we've 
got to do.''

    The Chairman. Thank you very much, Senator Boxer.
    I want to thank, again, our distinguished witnesses. You 
are remarkable public servants and we appreciate the 
opportunity to visit with you today and to gain your points of 
view.
    At this point, I would like to call upon our next panel. 
That will consist of the Honorable Richard Perle, senior 
fellow, American Enterprise Institute, in Washington, DC, Dr. 
Benjamin Dodge, International Institute for Strategic Studies, 
consulting senior fellow for the Middle East, in London, 
England, and Dr. Juan Cole, professor of Modern Middle Eastern 
History, University of Michigan, in Ann Arbor, Michigan.
    Gentlemen, we thank you very much for coming to the hearing 
today and for your prepared testimony. It will be made a part 
of the record in full.
    I will ask you to summarize the testimony, hopefully, in 7 
to 10 minutes. I will not be terribly rigorous about that, 
because we want to hear your points of view. At the same time, 
I want to recognize, in advance, before we start the hearing, 
that Mr. Perle will need to leave after 12:45 for important 
travel. The hearing will have been going on for 3 hours and a 
quarter by then. Senators, likewise, will have their party 
caucuses. We will not hurry anyone in the process. We simply 
want to try to allocate the time as constructively as we can.
    I'll ask you to testify in the order that I introduced you, 
and that will be, first of all, Mr. Perle.

  STATEMENT OF HON. RICHARD N. PERLE, SENIOR FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Perle. Well, thank you very much, Mr. Chairman.
    As always, I appreciate the opportunity to share with the 
committee some ideas and observations--in this case, about the 
situation in Iraq, and, more specifically, about the transition 
from Saddam Hussein's brutal dictatorship to a decent, humane, 
and representative government.
    It is a transition of gigantic magnitude and scope, 
immensely important in itself, and even more important in its 
ramifications for the Gulf region, the wider Arab world, and 
the war on terrorism. And as if that were not enough, the 
outcome of the transition now underway will profoundly affect 
our ability to operate internationally in a world in which we 
are uniquely threatened by an ideologically driven movement 
aimed at our destruction and the destruction of those who share 
our democratic values.
    We are fighting for a better Iraq and a safer America, and 
we must not fail. So the committee is wise to reflect on 
whether we are going about this great challenge in the right 
way. And on this, I want to make three points.
    First, the outcome of the struggle to establish a decent 
representative government in Iraq will depend principally on 
the Iraqis themselves. We can and must help them achieve a 
degree of physical security that will enable a decent civil 
society to emerge from the ashes of Saddam's regime. But while 
we can help, we cannot substitute for the millions of Iraqis 
who alone are capable of achieving a successful transition. 
This point may seem obvious. But, in my view, we were slow to 
recognize how central the Iraqis were to the postwar 
stabilization of the situation on the ground, and how central 
they now are to the democratic transition.
    I believe we would have been wise to go into Iraq with 
several thousand Iraqis at our side. After all, the Congress, 
with the support of most, and possibly all, the members of this 
committee, approved the Iraq Liberation Act, which authorized 
political, material, and moral support for the Iraqi National 
Congress and other Iraqi opponents of Saddam's regime. With 
thousands of Iraqis at our side, we might well have dealt more 
effectively with the turmoil and looting that followed the 
collapse of the regime, and we might have jump-started the 
transition we are now in the process of arranging.
    But there was little support within the executive branch 
for implementing the Iraq Liberation Act, for taking the Iraqi 
opposition into our confidence. Indeed, the State Department 
and the CIA actively opposed working with the Iraqi opposition, 
with the result that very little of the material support voted 
by Congress was actually spent. By the time those favoring a 
much closer collaboration between U.S. and Iraqi opposition 
forces got agreement to begin training the Iraqis, we were on 
verge of war. Sadly, as we went to war, only a handful of 
Iraqis, fewer than a hundred, had graduated from a much-delayed 
training program that had vastly more potential than we were 
able to realize.
    The sooner, Mr. Chairman, the Iraqis take responsibility 
for their own future, something they are eager to do, the 
better. That is why it is essential that we not delay the 
handover of sovereignty set for the end of June, even if 
there's continuing violence by those who know they have no 
place in a decent, democratic Iraq. Indeed, increasingly 
desperate acts of violence against Iraqis, Coalition forces, 
and international organizations, even as the handover comes 
closer, shows that what the so-called ``insurgents'' fear most 
is momentum toward a free Iraq. To those who were part of 
Saddam's repressive regime--the jailers, the torturers, the 
secret police--as well as the jihadists who have joined them in 
Iraq, Iraqi sovereignty, which will end the Coalition's role as 
an occupying power, will be a huge, possibly irretrievable 
defeat. That is the burden of the now-famous letter by Abu al 
Zarqawi to his al-Qaeda associates.
    Following the establishment of Iraqi sovereignty, the role 
of the United States and its Coalition partners should be to 
help provide a central physical security as we assist with the 
training, organization, and development of Iraqi's civil and 
security institutions, and to help them build the essential 
infrastructure for a free-market, democratic society. But in 
doing these things, we should accord great weight to the views 
and preferences of the Iraqis. They know their situation, their 
history, culture, and personalities far better than we, and 
they will surprise us with their intelligence, competence, and 
dedication. We must not force them to conform to our ideas 
about how to organize themselves or how to build their 
institutions.
    Second, we should be skeptical of simple formulas that 
promise an easier time or greater prospects of success ``if 
only'' we bring in the United Nations or NATO or enlarge the 
Coalition. I have serious misgivings about according the United 
Nations a large or a long-term role in Iraq. While a small 
number of individually capable United Nations officials can 
surely help advise and encourage the Iraqis, especially as they 
contemplate their constitutional future, a large U.N. 
contingent in Iraq, even if the U.N. were willing to provide 
one, would do more harm than good. It would discourage the 
assumption of responsibility by the Iraqis themselves, it would 
drain resources urgently needed for the development of the 
Iraqi economy, and, as we learn more about the record of 
incompetence and corruption of the U.N.'s Food-for-Oil Program, 
we should take note--we should note that appalling record, and 
take it to heart, and hold the U.N. role in Iraq to an absolute 
minimum.
    Some of our allies have sent military and civilian units to 
Iraq, and we have welcomed the vote of confidence this 
represents. But many are there under rules of engagement that 
preclude them from operating effectively when it may matter 
most. And as we have seen with the announced withdrawal of 
Spanish forces after the election of a Socialist government in 
Spain, not all our allies can be counted on to stay the course. 
Indeed, the Spanish appear to be planning to withdraw with 
little or no concern for their Coalition partners or those 
Iraqis who might be endangered by the manner of their 
departure.
    I find incomprehensible the idea that we should somehow 
contrive to bring into the Coalition countries which have 
opposed us all along. There is no prospect that this can be 
done, either by appealing to such countries individually or by 
trying to get them there under a NATO flag. When the issue is 
the dispatch of military forces in harm's way, there is little 
point and great danger in dragging unwilling partners into a 
mission to which they are not philosophically and politically 
committed.
    And I must say, Mr. Chairman, this drumbeat that the key to 
solving these very difficult problems in Iraq is to 
internationalize the problem, I just find completely 
unconvincing. And I know it's an idea that's been embraced, 
partly in frustration at the difficulties, but I fail to see 
how bringing small contingents from additional countries into 
that difficult situation is going to help significantly.
    Third, on the question of whether we are in Iraq with the 
right numbers of troops possessing the right skills, or whether 
we need a larger or different military presence, I believe it 
would be most unwise to send more American troops to Iraq. The 
problem is not that we have too few troops, but that the Iraqis 
have too few well-trained, highly motivated troops and security 
forces. Adding Americans will not produce more Iraqis. Indeed, 
it may discourage Iraqis from facing up to their 
responsibilities.
    I think I understood Sandy Berger to have suggested that 
maybe we should have had 500,000 Americans at the outset. First 
of all, I don't believe we can manage a force of that size. But 
it's far from clear that the postwar situation would have been 
significantly different if we had had many more American troops 
there. We'd have had significantly larger losses. And while 
mistakes have been made, I don't believe that we have too few 
troops, and I don't believe that the suggestion that we needed 
several hundred-thousand has been validated by the problems 
we're having. The problems do not stem from too few Americans.
    Mr. Chairman, those who oppose a successful democratic 
transition in Iraq have resorted to every vile act of terror 
they can manage--car bombs, roadside bombs, kidnaping, 
mutilation, torture, the list is endless--they are indifferent 
to the suffering they cause, the lives they take, the havoc 
they wreak. They are intent either on saving themselves from 
the justice they deserve for their crimes under Saddam's reign 
of terror or they have come to Iraq to continue the jihad 
against Western civilization. They will be defeated, because we 
have opened the door to freedom, and the people of Iraq will 
pass through that door, and they will do so more surely, more 
confidently, more steadfastly when we empower them to build 
their own country with their own chosen leaders. That is why it 
is vital that we offer the people of Iraq the country they 
never had under Saddam Hussein, and they will never truly 
achieve until Iraqis are able to govern themselves.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perle follows:]

              Prepared Statement of Hon. Richard N. Perle

    Mr. Chairman, as always, I appreciate this opportunity to share 
with the Committee some ideas and observations about the situation in 
Iraq and, more specifically, about the transition from Saddam Hussein's 
brutal dictatorship to a decent, humane and representative government.
    It is a transition of gigantic magnitude and scope, immensely 
important in itself and even more important in its ramifications for 
the Gulf region, the wider Arab world and the war on terrorism. And as 
if that were not enough, the outcome of the transition now underway 
will profoundly affect our ability to operate internationally in a 
world in which we are uniquely threatened by an ideologically driven 
movement aimed at our destruction and the destruction of those who 
share our democratic values.
    We are fighting for a better Iraq and a safer America and we must 
not fail. So the Committee is wise to reflect on whether we are going 
about this great challenge in the right way. On this, I have three 
points:
    First, the outcome of the struggle to establish a decent 
representative government in Iraq will depend principally on the Iraqis 
themselves. We can--and must--help them achieve a degree of physical 
security that will enable a decent civil society to emerge from the 
ashes of Saddam's regime. But while we can help, we cannot substitute 
for the millions of Iraqis who alone are capable of achieving a 
successful transition.
    This point may seem obvious. But, in my view, we were slow to 
recognize how central the Iraqis were to the post-war stabilization of 
the situation on the ground and how central they now are to the 
democratic transition. I believe we would have been wise to go into 
Iraq with several thousand Iraqis at our side. After all, the Congress, 
with the support of most and possibly all the members of this 
committee, approved the Iraq Liberation Act which authorized political, 
material and moral support for the Iraqi National Congress and other 
Iraqi opponents of Saddam's regime.
    With thousands of Iraqis at our side, we might well have dealt more 
effectively with the turmoil and looting that followed the collapse of 
the regime and we might have jump started the transition we are now in 
the process of arranging. But there was little support within the 
executive branch for implementing the Iraq Liberation Act, for taking 
the Iraqi opposition into our confidence. Indeed, the State Department 
and the CIA actively opposed working with the Iraqi opposition with the 
result that very little of the material support voted by Congress was 
actually spent. By the time those favoring a much closer collaboration 
between U.S. and Iraqi opposition forces got agreement to begin 
training the Iraqis, we were on the verge of war. Sadly, as we went to 
war only a handful of Iraqis had graduated from a much delayed training 
program that had vastly more potential than we were able to realize.
    The sooner the Iraqis take responsibility for their own future--
something they are eager to do--the better. That is why it is essential 
that we not delay the hand-over of sovereignty set for the end of June, 
even if there is continuing violence by those who know they have no 
place in a decent, democratic Iraq. Indeed, increasingly desperate acts 
of violence against Iraqis, coalition forces and international 
organizations, even as the hand-over comes closer, shows that what the 
so-called ``insurgents'' fear most is momentum toward a free Iraq. For 
those who were part of Saddam's repressive regime--the jailers, the 
torturers, the secret police--as well as the Jihadists who have joined 
them in Iraq, Iraqi sovereignty, which will end the coalition's role as 
an occupying power, will be a huge, possibly irretrievable, defeat. 
That is the burden of the now famous letter by Abu al-Zarqawi to his Al 
Qaeda associates.
    Following the establishment of Iraqi sovereignty, the role of the 
United States and its coalition partners should be to help provide 
essential physical security as we assist with the training, 
organization and development of Iraqi civil and security institutions, 
and to help them build the essential infrastructure for a free-market, 
democratic society. But in doing these things, we should accord great 
weight to the views and preferences of the Iraqis. They know their 
situation, their history, culture and personalities far better than we 
and they will surprise us with their intelligence, competence and 
dedication. We must not force them to conform to our ideas about how to 
organize themselves or how to build their institutions.
    Second, we should be skeptical of simple formulas that promise an 
easier time or greater prospects for success if only we bring in the 
United Nations or NATO or enlarge the coalition. I have serious 
misgivings about according the United Nations a large or long-term role 
in Iraq. While a small number of individually capable United Nations 
officials can help advise and encourage the Iraqis, especially as they 
contemplate their constitutional future, a large U.N. contingent in 
Iraq--even if the U.N. were willing to provide one--would do more harm 
than good. It would discourage the assumption of responsibility by the 
Iraqis themselves. It would drain resources urgently needed for the 
development of the Iraqi economy. And as we learn more about the record 
of incompetence and corruption of the U.N.'s food-for-oil program we 
should take that appalling record to heart and hold the U.N. role in 
Iraq to an absolute minimum.
    Some of our allies have sent military and civilian units to Iraq 
and we have welcomed the vote of confidence that this represents. But 
many are there under rules of engagement that preclude them from 
operating effectively when it may matter most. And as we have seen with 
the announced withdrawal of Spanish forces after the election of a 
socialist government in Spain, not all our allies can be counted on to 
stay the course. Indeed, the Spanish appear to be planning to withdraw 
with little or no concern for their coalition partners or those Iraqis 
who might be endangered by the manner of their departure.
    I find incomprehensible the idea that we should somehow contrive to 
bring into the coalition countries which have opposed us all along. 
There is no prospect that this can be done, either by appealing to such 
countries individually or by trying to get them there under a NATO 
flag. When the issue is the dispatch of military forces in harm's way 
there is little point--and great danger--in dragging unwilling partners 
into a mission to which they are not philosophically and politically 
committed.
    Third, on the question of whether we are in Iraq with the right 
number of troops possessing the right skills, or whether we need a 
larger or different military presence, I believe it would be most 
unwise to send more American troops to Iraq. The problem is not that we 
have too few troops but that the Iraqis have too few well trained, 
highly motivated troops and security forces. Adding Americans will not 
produce more Iraqis. Indeed, it may discourage Iraqis from facing up to 
their responsibilities.
    Mr. Chairman, those who oppose a successful democratic transition 
in Iraq have resorted to every vile act of terror they can manage: car 
bombs, roadside bombs, rockets and mortars fired at civilian 
installations, kidnapping, mutilation, torture--the list is endless. 
They are indifferent to the suffering they cause, the lives they take, 
the havoc they wreak. The are intent, either on saving themselves from 
the justice they deserve for their crimes under Saddam's reign of 
terror, or they have come to Iraq to continue the jihad against western 
civilization. They will be defeated because we have opened the door to 
freedom and the people of Iraq will pass through that door. And they 
will do so more surely, more confidently, more steadfastly when we 
empower them to build their own country with their own chosen leaders. 
That is why it is vital that we offer the people of Iraq the country 
they never had under Saddam Hussein and that they will never truly 
achieve until Iraqis are able to govern themselves.

    The Chairman. Well, thank you very much, Mr. Perle.
    Dr. Cole.

STATEMENT OF DR. JUAN COLE, PROFESSOR OF MODERN MIDDLE EASTERN 
                HISTORY, UNIVERSITY OF MICHIGAN

    Dr. Cole. Let me begin by expressing my gratitude to this 
committee of the U.S. Senate for calling me to testify.
    Mr. Chairman, members of the committee, in my view the 
biggest U.S. failure in Iraq has lain in an American inability 
to understand the workings of Iraqi society. Many U.S. 
administrators and military commanders appear to believe that 
once the Ba'athist state of Saddam Hussein was overthrown, they 
would be dealing with an Iraqi society that was docile, 
grateful, and virtually a blank slate on which U.S. goals could 
be imprinted.
    Ba'athist Iraq was a pressure-cooker. Its highly mobilized, 
urban, and relatively literate population had organized to 
oppose the ramshackle Ba'ath state. In al Anbar Province, lying 
on the road between Amman and Baghdad, local populations came 
under the influence of Salafi or Sunni fundamentalist movements 
and ideas that were also growing popular in Jordan.
    Shi'ite guerrillas in the south, springing from the 
clandestine al Da'wa Party, Iraqi Hezbollah, Sadrists, or 
Supreme Council for Islamic Revolution in Iraq, conducted 
bombings, raids, assassinations, and other acts of defiance 
against the Ba'ath, often sheltering, in the swamps of the 
south, or retreating, if pursued, to Iranian territory. The 
followers of Muhammad Sadiq al-Sadr, who was killed by Saddam 
Hussein's orders in 1999, in particular, were militarily anti-
Ba'ath, anti-American, and anti-Israel, and aspire to an 
Islamic state in Iraq, on the Iranian model. It is that 
movement which continues today, led now by his son, Muqtada al-
Sadr, which launched the Shi'ite insurgency in early April.
    What the Americans did in March and April of 2003 was to 
remove that apparatus of repression and allow the religious 
parties and militias freely to organize and spread their ideas 
and structures throughout the country. The U.S., on the other 
hand, in bringing in politicians from the outside, gave special 
perquisites to a handful of expatriate politicians with whom it 
had cut backroom deals. It excluded both the Sadrists and the 
al Anbar Salafi/Sunni groups from national power in the 
appointment of the interim governing council last summer. The 
expatriate politicians had often been involved in scandals, had 
no grassroots inside the country, and were widely disliked. 
Many Iraqis feared that the U.S. would shoehorn these 
expatriates into power as a new sort of soft dictatorship, and 
that they would betray Iraqi national interests, in preference 
to personal and American ones, for years to come. And I believe 
these kinds of mistakes of perception and policy have 
contributed greatly to the outbreak of the recent insurgency.
    What could be done? In order to defuse the violence, the 
U.S. military needs to adopt a much more narrow and targeted 
approach to dealing with the guerrillas and to stop, quote, 
``using a sledgehammer to crack a walnut,'' in the words of a 
British officer in Basra recently. U.S. troops have repeatedly 
used disproportionate force to reply to guerrilla attacks and, 
in the process, have created new guerrillas by harming innocent 
civilians.
    The tactics used at Fallujah have been seen by most Iraqis, 
and, indeed, by many Coalition partners and interim governing 
council members, as an outrage and a direct flaunting of the 
Geneva Conventions governing military occupations. Even the 
ordinary search-and-find missions conducted in al Anbar 
Province and elsewhere have often involved male troops invading 
the private homes of Iraqis, going into the women's quarters, 
and visiting humiliation on tribesmen for whom protecting their 
women is the basis of their honor. Unless these operations are 
yielding consistently excellent intelligence and results, they 
should be curtailed.
    The Coalition Provisional Authority must cease attempting 
to ``take out'' dissident leaders, like Muqtada al-Sadr, before 
the handover of sovereignty. I believe the recent attempt to 
arrest 28 of Muqtada al-Sadr's associates was unwise. It was 
uncalled for. There was no indication of an incipient 
insurgency. I believe the insurgency was provoked by that 
action by the Coalition Provisional Authority. And we should 
remember it was precisely the attempt to cut Mohammed Aidid out 
of the political process in Somalia that caused the Mogadishu 
disaster.
    The United States will simply have to accept that there are 
political forces on the ground in Iraq that it views as 
undesirable. It cannot dictate Iraqi politics to Iraqis without 
becoming a, frankly, Colonial power. If it does become a mere 
colonist in Iraq, it will be mired in the country for decades--
decades--and forced to spend hundreds of billions of dollars 
and thousands of servicemen's lives on the endeavor. Rather, it 
must draw those less-savory political forces in Iraq into 
parliamentary politics so that they can learn to rework their 
goals and conflicts and the terms of democratic procedure.
    Groups like the Sadrists, the followers of Muqtada al-Sadr, 
cannot hope to dominate parliament--if we have elections next 
January, they're not going to be a majority of parliament--and 
so must learn to trade horses to get part of what they want. 
The United States must, on no account, invade the holy city of 
Najaf. Besieging and investing it, as was done at Fallujah, 
would have major repercussions on Iraqi relations with Shi'ite 
communities not only in Iraq, but all over the world, from 
Lebanon to Bahrain, and from Iran to Afghanistan.
    It is probably unwise to arrest or kill Muqtada al-Sadr. If 
he is captured, his followers will mount repeated 
demonstrations until he is released. And some may resort to 
taking Western captives to trade for him. If he is killed, many 
of his followers will go underground and begin waging a long-
term guerrilla insurgency against the U.S. similar to what the 
Sunni Arabs have been doing in al Anbar Province. A way should 
be found for him to go into exile, in a third country perhaps, 
and for a United Nations force to be brought immediately into 
Najaf and Karbala--those cities should be internationalized 
already--perhaps under a U.S. command, but it should be a U.N. 
force.
    The main problem for the United States in Iraq is a lack of 
popular legitimacy. And let me just say that the Muqtada al-
Sadr movement is not a majority of Iraqi Shi'ites, but it has 
been consistently underestimated by polling, by U.S. observers. 
Two million Iraqi Shi'ites live in the slums of east Baghdad. 
Muqtada has a lot of support there. Maybe not everybody there 
is willing to come out and fight for him, but he has a lot of 
moral support there. In the poorer quarters of Basra, Kut, 
Nazariah, this is not a minor movement. It's not a majority, 
but it's not a minor movement--an movement, and it is a social 
movement. You can't crush it by killing Muqtada al-Sadr, or 
even by dissolving his militia. This thing existed back in the 
1990s. Muqtada's father was killed by Saddam. It still didn't 
stop this movement.
    So the main problem for the United States in Iraq is the 
lack of political legitimacy. The U.S. must now move with all 
due deliberation to holding free and fair, one-person/one-vote 
elections in Iraq. The elections should be held even if the 
security situation remains poor. Indian and other elections in 
the global south are often attended by public disturbances and 
even loss of life, but they, nevertheless, produce legitimate 
governments.
    The recently released Brahimi plan should be adopted in 
full. And I think it's really important that the United Nations 
play a role in appointing the caretaker government, perhaps in 
consultation with the Coalition Provisional Authority and the 
United States, but it is important to Iraqis. And even 
Ayatollah al-Sistani has said this, that the new government of 
Iraq be midwifed by the United Nations and not unilaterally by 
the United States.
    In the interim, militias should be curbed at the local 
level and, where possible, integrated into the Iraqi military. 
Emphasis should not be placed on attacking the top leaders of 
the militias, but on dealing with the phenomenon. The pace of 
the formation of the new military and the amount of money spent 
on it must increase rapidly. This approach would reduce 
unemployment, reduce the recruitment pool for militias, and 
provide forces that could help with at least local security.
    As it is phased out, the Coalition Provisional Authority 
must reach out to all sections of the Iraqi public to reassure 
them that they will not be crushed by a new tyranny of the 
majority, or looted by a handful of cronies of America. The 
Sadrists among the Shi'ites and the Sunnis of al Anbar should 
be encouraged to do what the Shi'ite Amal Party did in Lebanon, 
trading in its militias for a prominent role in the Lebanese 
parliament. The Sunni Arabs of al Anbar Province must, 
likewise, be convinced that they can form alliances in 
parliament to protect them and achieve their goals.
    Let me conclude by saying, I think it was a mistake in the 
interim constitution to configure the new Iraqi parliament so 
that it had only one chamber. In Shi'ite-majority Iraq, this 
way of proceeding ensures that Shi'ites will dominate the 
legislature, being the majority. A way should be found to 
create an upper house--and I know I speak to an upper house--
and to do so--and to so gerrymander the provinces that it over-
represents the Sunni minority. This two-house parliament could 
then serve as a check on any tyranny of the Shi'ite majority. 
Such a check is preferable to giving Kurds a veto over the new 
constitution to be written in 2005, which is the way it's done 
now, since giving a minority a veto seems unfair; whereas, 
insisting that the constitution pass the upper house of 
parliament with a two-thirds majority is unexceptionable.
    Thank you very much.
    [The prepared statement of Dr. Cole follows:]

                  Prepared Statement of Dr. Juan Cole

    This brief addresses three areas. First, what mistakes have been 
made in the Coalition administration of Iraq, and why? Second, what is 
the current situation? Third, what steps can be taken to ensure the 
emergence of a stable and democratic Iraq?
                                mistakes
    The biggest US failure in Iraq to date lay in American inability to 
understand the workings of Iraqi society. Many US administrators and 
military commanders appeared to believe that once the Baathist state of 
Saddam Hussein was overthrown, they would be dealing with an Iraqi 
society that was docile, grateful and virtually a blank slate on which 
US goals could be imprinted.
    In fact, Baathist Iraq was a pressure-cooker, consisting of a 
highly mobilized, urban and relatively literate population that had 
organized clandestinely to oppose the weak and ramshackle Baath state. 
Although the clan-based political parties and militias of the Kurds in 
the north were well known because they had emerged as autonomous under 
the US no-fly zone, similar phenomena in the Sunni Arab center and the 
Shiite south were obscured by the information black-out of Baath party 
censorship. In al-Anbar Province, lying on the road between Amman and 
Baghdad, local populations came under the influence of Salafi or Sunni 
fundamentalist movements and ideas that were also growing popular in 
Jordan. In the late Saddam period, the secular Baathist state allowed 
more manifestations of Sunni religiosity than it had earlier, allowing 
these groups to establish beachheads in Fallujah, Ramadi and elsewhere.
    Many books and articles were published in Arabic in the 1990s, that 
should have made clear that the Shiite south in particular was a lively 
arena of contention between the Baath military and the religious 
parties and their militias, some with bases in Iran to which they could 
withdraw. Shiite guerrillas in the south, springing from the 
clandestine al-Da`wa Party, Iraqi Hizbullah, Sadrists, or Supreme 
Council for Islamic Revolution in Iraq, conducted bombings, raids, 
assassinations and other acts of defiance against the Baath, often 
sheltering in the swamps of the south or retreating, if pursued, to 
Iranian territory. The followers of Muhammad Sadiq al-Sadr (d. 1999) in 
particular were militantly anti-Baath, anti-American and anti-Israel, 
and aspired to an Islamic state in Iraq on the Iranian model. Given the 
US role in calling for, and then allowing the crushing of, the Shiite 
uprising of spring, 1991, after the Gulf War, the idea that Shiite 
Iraqis would be ``grateful'' to the United States and now willing to 
forgive altogether that earlier betrayal, was fanciful. Moreover, US 
officials appeared to be ignorant of the important role of Iran in 
Iraqi Shiite politics, a role that goes back to 1501, and kept talking 
about the need of Iran to avoid ``interfering'' in Iraq (which is 
rather like telling the Vatican to stop interfering in Ireland). In 
addition to dissident groups, figures existed within Iraqi society like 
Grand Ayatollah Ali al-Sistani, who have enormous moral authority, 
about which American administrators were ignorant or skeptical into 
winter, 2004, to their peril.
    These covert political parties and clandestine guerrilla groups 
were curbed by the Baath secret police and by the Fidayee Saddam. What 
the Americans did in March and April of 2003 was to remove that 
apparatus of repression, and allow the religious parties and militias 
freely to organize, canvass for new members, and spread their ideas and 
structures freely throughout the country. The Salafi Sunnis and the 
various Shiite religious parties had a vision of post-Baath Iraq, for 
which they had been planning for over a decade, that differed starkly 
from United States goals in Iraq. But because the US was unable to 
assemble in post-war Iraq anything like the 500,000 troops it had had 
in the first Gulf War, it and its Coalition allies often were forced 
actively to depend on the good will and even the security-providing 
abilities of the religious militias in the post-war period.
    Although the US did wisely choose to attempt to incorporate some 
grass-roots Iraqi political organizations into the Interim Provisional 
Government, it excluded others. Thus, the London branch of the Shiite 
al-Dawa Party was given a seat, but the Tehran branch was not (both 
groups had come back to Iraq after the fall of Saddam, linking back up 
with local party members who had remained and organized covertly). The 
Supreme Council for Islamic Revolution in Iraq, which had a Badr Corps 
militia of perhaps 15,000 trained men, was given a seat, but the 
Sadrist organization was not. The Islamic Party of Iraq, a Muslim 
Brotherhood-derived party from Mosul, was given a seat, but the Salafis 
of al-Anbar Province were excluded. Of course, some of the excluded 
groups were hostile to the US occupation, and might have refused to 
serve, but it is likely that some representative of those tendencies 
could have been found who would serve.
    Worse, the US gave special perquisites and extra power to a handful 
of expatriate politicians with whom it had cut backroom deals. These 
expatriate politicians had often been involved in scandals, had no 
grassroots inside the country, and were widely disliked. Many Iraqis 
feared that the US would shoehorn these expatriates into power as a 
sort of new soft dictatorship, and that they would betray Iraqi 
national interests in preference to personal and American ones for 
years to come.
    On strategy that might have forestalled a lot of opposition would 
have been to hold early municipal elections. Such free and fair 
elections were actually scheduled in cities like Najaf by local US 
military authorities in spring of 2003, but Paul Bremer stepped in to 
cancel them. A raft of newly elected mayors who subsequently gained 
experience in domestic politics might have thrown up new leaders in 
Iraq who could then move to the national stage. This development 
appears to have been deliberately forestalled by Mr. Bremer, in favor 
of a kind of cronyism that aimed at putting a pre-selected group of 
politicians in power. In Najaf, the US appointed a Sunni Baathist 
officer as mayor over this devotedly Shiite city. He had turned on 
Saddam only at the last moment. Since Sunni Baathists had massacred the 
people of Najaf, he was extremely unpopular. He took the children of 
Najaf notables hostage for ransom and engaged in other corrupt 
practices. Eventually even the US authorities had to remove him from 
power and try him. But the first impression the US made on the holy 
city of Najaf, and therefore on the high Shiite clerics such as Grand 
Ayatollah Ali al-Sistani, was very bad.
    The United States made a key strategic error in declining to post 
enough US troops to Iraq in the post-war period to establish good 
security. A country the size of Iraq probably required 400,000 to 
500,000 troops to keep it orderly in the wake of the collapse of the 
state. The US compounded that error by dissolving the Iraqi army 
altogether, which deprived the US of informed potential allies in 
restoring security, created enormous discontent among the 400,000 men 
fired, and provided a recruitment pool to religious militias seeking to 
expand. The US also failed to send in enough experienced, Arabic-
speaking civil administrators at the Coalition Provisional Authority. 
The CPA, with only a thousand employees for much of the post-war 
period, most of whom could not speak the local language and did not 
understand local customs, much reduced its own effectiveness by 
remaining relatively insular and cut off from Iraqi society. The lack 
of security ensuing from the thinness of the military force on the 
ground increased the danger to CPA employees and reinforced this 
insularity. There has been no transparency in US decision-making in 
Iraq, so that we do not, and the Iraqi people do not know why these 
steps, so injurious to the common good, were taken.
    The security situation in post-Baath Iraq has not been good in much 
of the country, though the Shiite south was for a long time somewhat 
quieter than the center-north. The problem area encompassed Baghdad, 
Samarra, Baqubah (and Diyalah province more generally), Mosul, Kirkuk, 
and al-Anbar Province (Fallujah, Ramadi, Habbaniyah). Nevertheless, 
guerrillas did mount significant attacks occasionally in the south, as 
with the huge August 29 truck bombing at Najaf, and in the far north, 
as with the bombing at Irbil in January. These bombings targeted highly 
charged political and religious symbols and greatly undermined Iraqi 
confidence in the ability of the US to provide security. Coalition 
troops routinely came under fire in the South, though not nearly with 
as much frequency as in the center-north. The US official and press 
tendency to speak of the problems as having concerned a relatively 
small portion of the country, mistakenly termed the ``Sunni triangle,'' 
obscured the scope and seriousness of a security collapse that 
encompassed perhaps half of the geographical area of Iraq and affected 
a good third of its population on an ongoing basis and at least half at 
some point.
    Even in the quieter areas, they were quiet for all the wrong 
reasons. In the north, the Kurdish peshmerga or paramilitary fighters 
provided much of what urban security there was, and they had come to 
dominate the police in multi-ethnic, oil-rich Kirkuk. These 
paramilitary fighters constituted a law unto themselves and Kurdish 
leaders vowed that Federal Iraqi troops would never again set foot on 
Kurdish soil. In the Shiite south, Coalition forces were spread 
exceedingly thin and were staffed by inexperienced troops from 
countries like Bulgaria and the Ukraine, who had no local knowledge and 
who had apparently been assured that they would not be involved in 
warfare but rather in peacekeeping. Local townspeople tended to turn to 
Shiite militiamen to police neighborhoods, according to press reports, 
in places like Samawah, and even in large urban neighborhoods in East 
Baghdad and Basra.
    Although hundreds of millions of dollars have been spent on 
reconstruction, and there have been some genuine successes, as with the 
restoration of electricity, the poor security situation has detracted 
from those successes in the minds of most Iraqis. Moreover, the 
successes have been partial and often unsatisfactory. Hospitals are 
open, but often strapped for cash and lacking in equipment, medicine 
and personnel. Electricity provision before the war was highly 
inadequate, so returning to pre-war levels does not solve the problem. 
The preference for American and British contractors has often cut Iraqi 
businesses out of the lucrative contracts, except at lower bid levels, 
which in turn has prevented the US from making a big dent in massive 
unemployment rates. The massive unemployment in turn has contributed to 
poor security, in a vicious circle.
                          the current problems
    The US administration of Iraq has suffered from lack of 
consistency, from infighting among major bureaucratic organizations 
such as the Department of Defense and the State Department, and from an 
apparent desire strongly to shape Iraqi society in certain directions, 
which has the effect of contravening international law on military 
occupations, specifically the Hague Regulations of 1907 and the Geneva 
Conventions of 1949. One example is the determination to impose on the 
Iraqi economy the kind of shock therapy or very rapid liberalization 
tried in Russia, with disastrous results. It is one thing for a 
sovereign Iraqi government to ask for help in liberalizing the economy, 
it is another for an American civil administrator to take such a 
decision by fiat. American announcements on economic policy have often 
been opposed by local Iraqi merchants and entrepreneurs, by the Iraqi-
American Chamber of Commerce, and even by the American-appointed 
Interim Governing Council itself.
    The US has gone through four major plans for Iraqi governance and 
it is unclear as of this writing to whom sovereignty will be handed on 
June 30. Jay Garner, the first civil administrator, planned to hold a 
national congress in July, 2003, and then to hand over Iraq to the 
resulting government by October of that year. He was replaced by Paul 
Bremer, who initially planned to run Iraq himself by fiat for two or 
three years. He was unable to do so, and then appointed an Interim 
Governing Council which, however, suffered problems of legitimacy 
insofar as it was a committee of a foreign occupying power. On November 
15 Mr. Bremer made a 180 degree turn and announced council-based 
elections for spring of 2004 and a turn-over of sovereignty to the 
resulting government. Those elections were deemed undemocratic by Grand 
Ayatollah Ali al-Sistani, and were not held, leaving Bremer with a 
turn-over date but not a government to turn over to. Most Iraqis, who 
have yet to experience anything like democracy in the post-Baath 
period, are confused and suspicious at these high-handed and frankly 
somewhat dictatorial proceedings.
    The US has faced serious opposition from Iraqi paramilitaries in 
al-Anbar province and elsewhere, and has sometimes even clashed with 
the Kurdish Peshmerga. In late March and early April, it came into 
severe conflict with Sunni tribesmen in Fallujah and with the Army of 
the Mahdi, a Shiite militia in East Baghdad and the southern Shiite 
cities, led by Muqtada al-Sadr. Both conflicts were initially 
mishandled. The US military responded to the killing of four American 
civilian security guards, and the desecration of their bodies, by 
surrounding, besieging, and bombarding the entire town of Fallujah. 
While it was a hotbed of guerrilla activity, the entire town was not 
implicated in that activity. Many observers, including the former 
president of the Interim Governing Council Adnan Pachachi, and United 
Nations special envoy Lakhdar Brahimi, have accused the US military of 
engaging in collective punishment of Fallujans and of failing to take 
due account of the need to avoid civilian casualties.
    While Fallujah was poorly handled from a political point of view, 
the crisis grew out of an attack on US citizens. In contrast, the 
decision to go after Muqtada al-Sadr was wholly elective. His movement 
had been militant since the days of Saddam, and it is true that he was 
organizing a militia. But he had repeatedly instructed his people to 
avoid clashing with US troops, and seems mainly to have been organizing 
for the future. Measures could have been taken to forbid his militiamen 
from training or appearing in uniform in public. But by attempting to 
arrest his key aides, the Coalition Provisional Authority telegraphed 
to him its determination to arrest and imprison him. Muqtada had seen 
his father killed after similar warnings from Saddam, and reacted by 
launching an insurgency throughout the south, making the point that he 
would not go quietly.
    The CPA grossly underestimated the organizational capacity of his 
movement. It was able to expel Iraqi police from their stations in many 
places in the south, and in some instances Iraqi police and military 
either declined to fight the Army of the Mahdi or even switched sides 
and joined it. The US military gave up on trying to maintain a presence 
in East Baghdad. Ukrainian troops were chased off their base at Kut, 
and Nasiriyah fell to the Sadrists, as did Kufa, Najaf, and parts of 
Karbala. While the US and its allies were able to contain and then roll 
back this insurrection, it demonstrated that the Coalition did not 
really control Iraq, and was only there on the sufferance of powerful 
social forces that could effectively challenge it when they so chose.
                         what needs to be done
    In order to defuse the violence, the US military needs to adopt a 
much more narrow and targeted approach to dealing with guerrillas, and 
stop ``using a sledgehammer to crack a walnut'' (in the words of a 
British officer in Basra). US troops have repeatedly used 
disproportionate force to reply to guerrilla attacks, and in the 
process have created new guerrillas by harming innocent civilians. The 
tactics used at Fallujah have been seen by most Iraqis, and indeed, by 
many Coalition partners and Interim Governing Council members, as an 
outrage and a direct flaunting of the Geneva Conventions governing 
military occupations. Even the ordinary search and find missions 
conducted in al-Anbar province and elsewhere have often involved male 
troops invading the private homes of Iraqis, going into the womens' 
quarters, and visiting humiliation on tribesmen for whom protecting 
their women is the basis of their honor. Unless these operations are 
yielding consistently excellent intelligence and results, they should 
be curtailed.
    The Coalition Provisional Authority must cease attempting to ``take 
out'' dissident leaders like Muqtada al-Sadr before the hand-over of 
sovereignty. It was precisely the attempt to cut Muhammad Aidid out of 
the political process in Somalia that caused the Mogadishu disaster. 
The US will simply have to accept that there are political forces on 
the ground in Iraq that it views as undesirable. It cannot dictate 
Iraqi politics to Iraqis without becoming a frankly colonial power. If 
it does become a mere colonist in Iraq, it will be mired in the country 
for decades and be forced to spend hundreds of billions of dollars and 
thousands of servicemen's lives on the endeavor. Rather, it must draw 
those less savory political forces in Iraq into parliamentary politics 
so that they can learn to rework their goals and conflicts in the terms 
of democratic procedure. Groups like the Sadrists cannot hope to 
dominate parliament, and so must learn to trade horses to get part of 
what they want.
    The main problem for the United States in Iraq is a lack of popular 
legitimacy. Neither the Coalition Provisional Authority nor the Interim 
Governing Council has much popular support, with a few exceptions. 
Neither grew out of any Iraqi democratic process, and neither was 
formed with significant involvement of the United Nations Security 
Council, which even Grand Ayatollah Ali al-Sistani has said he 
respects. In a recent poll, about half of Iraqis felt that the US 
invasion had been a humiliation, and the other half felt it had been a 
liberation. Even those who felt liberated, however, are impatient for a 
government they can call their own.
    The US must now move with all due deliberation to holding free and 
fair, one-person, one-vote elections in Iraq. Only such a process holds 
any hope of deflecting faction-fighting into more a more peaceful 
reworking of political conflict into parliamentary processes. The 
elections should be held even if the security situation remains poor. 
Indian and other elections in the global south are often attended by 
public disturbances and even loss of life, but they nevertheless 
produce legitimate governments.
    The recently-released Brahimi plan should be adopted, as President 
Bush has indicated. It calls for the dissolution of the Interim 
Governing Council on June 30, for the temporary appointment, under 
United Nations and Coalition auspices, of a handful of high government 
officials (a president, two vice presidents and a prime minister) who 
would form a limited, caretaker government to oversee the transition to 
elections this winter. It also provides from the election of a broad 
advisory council that would represent a broader range of Iraqi actors 
than did the old Interim Governing Council. For the legitimacy of the 
new government, it is absolutely essential that the United Nations 
Security Council be deeply involved in its formation and in authorizing 
it. Indeed, the very presence of US troops and other Coalition troops 
in Iraq beyond June 30 must be authorized by a new United Nations 
Security Council resolution if their mission is to remain legal in the 
bounds of international law.
    In the interim, militias should be curbed at the local level and 
where possible integrated into the Iraqi military. Emphasis should not 
be placed on attacking the top leaders of the militias, but on dealing 
with the phenomenon. The pace of the formation of the new military, and 
the amount of money spent on it, must increase rapidly. This approach 
would reduce unemployment, reduce the recruitment pool for militias, 
and provide forces that could help with at least local security.
    The giving of reconstruction bids has been structured so that all 
small bids of $50,000 or less automatically go to Iraqi firms. This 
ceiling should be raised, to ensure that more Iraqis are involved in 
reconstruction and more local jobs created. Shipping the money back to 
the US by employing mainly American firms will not greatly benefit Iraq 
or address the deep unemployment problems there.
    As it is phased out, the Coalition Provisional Authority must reach 
out to all sections of the Iraqi public to reassure them that they will 
not be crushed by a new tyranny of the majority, or looted by a handful 
of cronies of America. The Sadrists in East Baghdad, Kufa and elsewhere 
must be convinced that they can best exercise their influence by 
becoming ward bosses and electing their delegates to parliament. 
Attempting to exclude the Sadrists will only ensure that they remain 
violent. They should be encouraged to do what the Shiite Amal Party did 
in Lebanon, trading in its militias for a prominent role in the 
Lebanese parliament. The Sunni Arabs of Anbar province must likewise be 
convinced that they can form alliances in parliament that protect them 
and achieve their goals.
    It was a mistake to configure the new Iraqi parliament so that it 
had only one chamber. In Shiite-majority Iraq, this way of proceeding 
ensures that Shiites will dominate the legislature. A way should be 
found to create an upper house, and to so gerrymander the provinces 
that it over-represents the Sunni minority. This two-house parliament 
could then serve as a check on any tyranny of the Shiite majority. Such 
a check is preferable to giving the Kurds a veto over the new 
constitution to be written in 2005, since giving a minority a veto 
seems unfair, whereas insisting that the constitution pass the upper 
house of parliament with a two-thirds majority is unexceptionable.

    The Chairman. Thank you very much, Dr. Cole.
    Dr. Dodge.

STATEMENT OF DR. BENJAMIN T. DODGE, INTERNATIONAL INSTITUTE FOR 
  STRATEGIC STUDIES, CONSULTING SENIOR FELLOW FOR THE MIDDLE 
                     EAST, LONDON, ENGLAND

    Dr. Dodge. Thank you very much for the invitation to 
present here today. It's just a great sorrow that it's against 
such a pessimistic background in Iraq. And I think that the 
current wave of violence sweeping the country is not merely a 
one-off spike in attacks on Coalition forces; it is, instead, a 
symptom of three longer-term dynamics that have dogged the 
occupation since the liberation of Baghdad on April 9 last 
year.
    The first of these problems, the legacy of Saddam Hussein's 
rule, could have been anticipated, but could not have been 
avoided. The other two problems, the nature of the Coalition 
Provisional Authority's interaction with Iraqi society, and 
then the character of the violence faced by Coalition forces, 
are partly the result of decisions taken since the liberation 
of Baghdad. A different long-term strategy and short-term 
tactics could have avoided these, and could possibly still 
avoid these problems.
    Overall, these three problems mean that the occupation, 
either on a de facto or a de jure basis, will have to last a 
great deal longer than June 30. The continued presence of large 
numbers of foreign troops is essential for the successful 
creation of order.
    International oversight is also key for the stability of 
Iraq. Its role would be to manage the Iraqi polity while the 
Iraqi population negotiates amongst itself the terms of a 
national pact. Before these things--these things are crucial 
for the medium-term stability of the country, and need 
international oversight.
    Any attempt to understand the problems faced by the 
Coalition Provisional Authority today, and any future 
government of Iraq, has to understand the legacy of Saddam 
Hussein they're striving to overcome. Before the liberation of 
Baghdad last year, it was impossible to talk about civil 
society in Iraq. The regime had reshaped or broken all 
intermediate institutions that sat between the population and 
the state.
    For the Iraqi population, politics only began on April 9 
last year. The Iraqi political organizations that the CPA are 
trying to liaise with have either been in existence for little 
over a year or have been imported into the country in the 
aftermath of regime change. This means that they have had a 
very short period of time to gain the attention of the 
population and, more importantly, win their trust and 
allegiance.
    So Iraqi politics today are extremely fluid. Liberation has 
led to political mobilization, but at the present juncture this 
process is both tentative, unstable, and highly fractured. No 
one individual or party has managed to rally any significant 
amount of support from the population. This was starkly borne 
out by the largest opinion poll ever conducted in Iraq, in 
February 2004. Although some of the results were broadly 
positive for the CPA, others highlighted distinct problems for 
the medium-term political stability of the country.
    When asked which organization they would vote for in a 
national election, the Shia Party al Da'wa received the highest 
polling figure. But I think it's crucial to recognize the 
support that al Da'wa registered was extremely low, at only 10 
percent of those questioned. Other parties that also claim a 
national base registered even lower polling figures. The 
largest percentage of those polls, 39.2 percent, answered that 
they did not know whom they were going to vote for, with 34.5 
percent refusing to answer the question at all. A similar very-
low response resulted to the question, which national leader in 
Iraq, if any, do you trust the most? Again, al Da'wa's leader, 
Ibrahim Jaafari, got the highest rating; but, again, it was 
only 7.7 percent of those questioned. The more indicative 
result was 21.1 percent of those who were questioned who 
answered they didn't trust any political figures, and 36.7 
percent who answered that they weren't sure.
    In Iraq today, the CPA faces a highly mobilized, but 
largely atomized society that is unrestrained by effective 
state institutions or by political parties. The Iraqi people, 
the people that the politicians speak so freely about, have not 
yet given their allegiance to any individual or party. They 
clearly feel unrepresented at a national level. They have 
little or no affinity with the parties who claim to speak for 
Iraq. With this in mind, handing sovereignty back to Iraqis 
would be dangerous, and could, if anything, further increase 
the alienation of the Iraqi population from the CPA or its 
successor body and the governing structures it's trying to 
build.
    Against the background of increased violence and 
insecurity, plans for rebuilding the political and 
administrative structures in Iraq appear to have become largely 
reactive. As policy is moved to meet a series of challenges, it 
appears that little attention is being paid to the long-term 
consequences of each new initiative.
    The key problem damaging the occupation and hindering 
state-building is a difficulty in communication between 
American civil servants stationed in the Green Zone in downtown 
Baghdad and the mass majority of ordinary Iraqis. It is this 
inability to have meaningful interaction with Iraqi society 
that's the core problem facing the occupation today.
    The second problem hampering the occupation is the CPA's 
continuing lack of expert knowledge about the country they're 
trying to control. Within the CPA's headquarters, there are 
very few experts on any aspect of Iraqi society, politics, or 
economy. With this limited expertise on Iraq, the Coalition 
became worryingly dependent upon a small group of Iraqi exiles 
they had brought back to Baghdad in the aftermath of the 
liberation. They were meant to provide several functions. 
First, they would become the main channel of communication 
between the wider Iraqi population and U.S. forces. Second, 
they would also, in spite of being absent from the country for 
many years, become the chief source of information and guidance 
for the American administrators struggling to understand and 
rebuild a country. And finally and most importantly, they were 
set to become the basis of the new political elite.
    The heavy reliance on organizations like the Iraqi National 
Accord and the Iraqi National Congress has further exacerbated 
the divide between Iraqi society and U.S. forces. Despite 
setting up numerous offices around Baghdad, publishing lots of 
party newspapers, and spending large sums of money, the two 
main exile groups, the INC and the INA, have so far failed to 
put any substantial roots into Iraqi society. This is borne out 
by the opinion poll conducted during February 2004. Ahmed 
Chalabi and Iyad Alawi both respectively registered 0.2 percent 
of those questioned when asked which national leader, if any, 
in Iraq do you trust.
    The inability of the exiled parties to develop significant 
constituencies within Iraq had not stopped the CPA from using 
them as the cornerstone of new governing structures. This is 
heralded, as we know, by the CPA setting up the Iraqi Governing 
Council in July 2003. This body was heralded as, ``the most''--
by the CPA, as, ``the most representative body in Iraq's 
history.'' The representative nature of the Iraqi Governing 
Council does clearly not come from the method of its formation, 
but instead supposedly the balanced nature of its membership. 
The politicians were chosen to approximate the supposed ethnic 
makeup of Iraq.
    The confessional basis to choosing the Iraqi Governing 
Council caused much heated debate in Iraqi political circles 
and across the newly liberated press in Baghdad. Arguments 
focused on the way members were chosen, for their sectarian 
affiliation, not their technical skills; and the dangers of 
introducing divisive confessional dynamics into the highest of 
level of Iraqi politics.
    The lack of communication between American civil servants 
and military personnel, the handpicked allies on the Iraqi 
Governing Council, and the wider population of Iraq is one of 
the key problems that are undermining the occupation and the 
CPA's attempts to build a state. From this inability to 
interact with Iraqi society springs the core problems facing 
the U.S. and those who will inherit the Iraqi state after the 
30th of June.
    Many Iraqis, aware of the increasing unpopularity of the 
U.S. presence in their country, and believing it to be 
temporary, are still sitting on their hands, eschewing 
involvement in government institutions, political and 
administrative, until the situation becomes clearer and the 
risks of political involvement become fewer. Overcoming this 
problem is clearly the chief concern of Lakhdar Brahimi, the 
U.N. envoy in Iraq. Early indications suggest that Brahimi may 
well be trying to reproduce an Afghan model. This would involve 
a caretaker government made up of a prime minister, president, 
and two vice presidents. Before elections, scheduled sometime 
for late 2004 or early 2005, this ruling triumvirate would gain 
legitimacy from a national conference to be convened a short 
time after June 30.
    It is unclear how this plan would overcome the problems 
that have undermined the various approaches of the CPA. First, 
where is Mr. Brahimi going to pick the president and the prime 
minister from? It seems very likely that he will be forced to 
choose from the core of the Iraqi Governing Council that has, 
to date, formed a revolving presidency of the council. If he 
does succumb to this temptation, then all the problems that 
have dogged the Iraqi Governing Council--its lack of 
legitimacy, its inability to forge meaningful links with the 
population, and the criticisms of it being appointed and not 
elected--are likely to resurface.
    Second, because Mr. Brahimi, like his predecessor, Sergio 
Vieira de Mello, is working under the auspices of the CPA, he 
runs the distinct danger of being perceived of as merely an 
appendage to the occupation.
    Finally, with the current poor security situation, the 
proposed national Congress may find it very difficult 
attracting a large and representative sample of the Iraqi 
population. If this were the case, it would be very difficult 
for it to fulfill its dual roles as a forum for national 
consultation and a source of legitimacy for the new caretaker 
government. The failure of a national conference to gather 
momentum and bring together a broad cross-section of the 
population would leave the caretaker government proposed by Mr. 
Brahimi dangerously exposed and open to similar criticisms and 
suspicions as those that have been leveled at the Iraqi 
Governing Council since its formation.
    The only way to avoid such pitfalls would be to totally 
internationalize the creation of the governing institutions and 
democratic structures. This would not mean a partial or token 
role for the United Nations, organizing national conferences or 
overseeing elections. Instead, it would involve bringing the 
whole occupation and state-building under U.N. management. This 
would reduce the suspicion felt toward the CPA by sections of 
the Iraqi population. The organization overseeing the move and 
the creation of a new state would then not be the United 
States, but the international community. Accusations of double 
standards or nefarious intent would be much harder to sustain. 
Arguments about the occupier's willingness to relinquish power, 
both economic and political, would be negated. It would be the 
Security Council in New York, not the U.S. Government in 
Washington, that would have the ultimate responsibility for 
Iraq's transition. This would result in many more Iraqi's 
viewing the whole exercise with a great deal more legitimacy. 
The U.N. could then utilize expertise and troops from across 
the international community. Those involved in the 
reconstruction, both Iraqis and international civil servants, 
would not run the danger of being labeled as collaborators.
    Now, I think the third problem that I'll briefly touch on 
is the severe lack of troops on the ground in Iraq at the 
moment. I think RAND Corporation, in its book on state-
building, argue that there should be at least 400,000 or 
500,000 troops on the ground. I think it's one security 
personnel for every--no, is it 20 for every thousand, I think. 
Now, clearly, the United States isn't and can't be in a 
position to supply that number of troops. Also, I'm afraid NATO 
can't. The basic estimates of spare troops for NATO to deliver 
is about 10,000, as far as I understand it. So it has to be a 
much broader coalition of the international community that 
would deliver a great deal more troops to fill what is at the 
moment what is today a security vacuum.
    So that's why I say there hasn't been a spike in violence. 
What this has been is a cumulative thing toward a tipping point 
that we saw over the last 2 weeks, where Iraqis are growing 
cynical and alienated from the occupation. And those who choose 
to resort to violence--and let's not forget that Iraq is a 
highly armed society, with nearly most men of military age 
having done some form of military service, and a lot of them 
seek military action. So, therefore, these individuals move 
toward violence because there is a security vacuum. And that 
security vacuum, as Professor Cole has alluded to, has produced 
something much more worrying in Iraq today, and that's the 
growth of militias. It doesn't take much to get a group of 
armed men together and dominate your neighborhood because the 
occupation can't do it for you. Those militias are now 
increasingly organizing along sectarian lines, and are claiming 
to deploy order on the basis of political--the repaying in 
political affiliation.
    I think that's one of the most dangerous long-term dynamics 
that we face in Iraq today, and the only way you can circumvent 
that is by building sustainable democratic links between the 
Iraqi population and government. That's going to take a lot of 
time. And before you do that, as the first desperate thing you 
need to do, establish security across the whole of the country.
    Thank you very much.
    [The prepared statement of Dr. Dodge follows:]

            Prepared Statement of Dr. Benjamin T. Dodge \1\

                              introduction
    The current wave of violence that has swept Iraq, killing over 80 
US soldiers and hundreds of Iraqis this month, is not merely a one off 
``spike'' in attacks on the coalition's forces. It is also not the main 
cause of the coalition's problems in the country. It is instead a 
symptom of three longer-term dynamics that have dogged the occupation 
since the liberation of Baghdad on April 9 2003. The first of these 
problems, the legacy of Saddam Hussein's rule, could have been 
anticipated but could not have been avoided. The other two problems; 
the nature of the Coalition Provisional Authority's interaction with 
Iraqi society and the character of the violence faced by coalition 
forces are partly the result of decisions taken since the liberation of 
Baghdad. A different long-term strategy and short-term tactics could 
have avoided these problems. Overall these three problems, the legacy 
of Saddam Hussein, the basis of the CPA's interaction with Iraqi 
society and the violence coalition forces are facing means that the 
occupation, either on a de facto or de jure basis, will have to last a 
great deal longer than June 30. The continued presence of large numbers 
of foreign troops is essential to the successful creation of order. 
International oversight is also key to the stability of Iraq; its role 
would be to manage the Iraqi polity while the Iraqi population 
negotiates the terms of a national pact. Both these are crucial if the 
medium-term stability of the country is to be secured.
    With this in mind, given the scale of the problems faced, the 
rising resentment directed at US forces and the US domestic electoral 
cycle, a rapid internationalization of the occupation is called for. 
This would involve a transfer of both political and military oversight 
to a multilateral body, preferably the United Nations. This would allow 
for a rapid increase in the numbers of troops the occupation could 
deploy while also reducing the visibility of American forces. It would 
have the advantage of giving the occupation access to a much larger 
pool of technical expertise in state building. Finally it would go a 
long way to reducing the alienation and mistrust felt by growing 
sections of the Iraqi population towards US forces and the Coalition 
Provisional Authority. It is only by taking this radical step that 
successful regime change, that is the building of a stable, democratic 
and sustainable state in Iraq, could be achieved.
     the scale of the problems faced: the legacy of saddam hussein
No civil society
    Any attempt to understand the problems faced by the Coalition 
Provisional Authority today and any future government of Iraq has to 
understand the legacy of Saddam Hussein that they are striving to 
overcome. The country that the coalition is struggling to pacify and 
reform is in many ways politically distinct, even amongst the states of 
the Middle East. Before the liberation of Baghdad last year it was 
impossible to talk about civil society in Iraq. The regime had reshaped 
or broken all intermediate institutions between the population and the 
state.
    Iraqi regimes, because of their perceived vulnerability, 
domestically, regionally and internationally, have sought to maximize 
their autonomy from society, with varying degrees of success. This 
autonomy was first supplied in the 1920s and 1930s by British 
government aid and since 1958 by increasing oil revenue. This means 
that Iraqi regimes have never had to raise large amounts of tax from or 
become beholden to domestic interest groups. This in turn has given the 
government increasing autonomy to control and reshape society.
    The Baathist regime built under Hasan al Bakr and then consolidated 
by Saddam Hussein represented the appex of this process. It set about 
using oil revenues to build a set of powerful state institutions 
through the 1970s and 1980s. These managed to reshape society, breaking 
resistance and atomizing the population. Since seizing power in 1968 
the Baath regime efficiently used extreme levels of violence and the 
powers of patronage to co-opt or break any independent vestiges of 
civil society. Autonomous collective societal structures beyond the 
control of the Baathist state did not survive. In their place society 
came to be dominated by aspects of the ``shadow state'' \2\, flexible 
networks of patronage and violence that were used to reshape Iraqi 
society in the image of Saddam Hussein and his regime.
    The atomization of society and the dependence of individuals upon 
the state increased dramatically after the 1990-91. It was the 
government rationing system that provided food for the majority of the 
population in the south and center of the country. Under United Nations 
resolution 986, agreed to by Iraq in May 1996, Iraq was allowed to 
import and distribute humanitarian aid under UN supervision. The food 
was distributed through 53,000 neighborhood grocery stores and 
regulated through a government controlled ration card.\3\ Applications 
to receive a ration card gave the government crucial information about 
every household under its control. The restrictions placed on ration 
cards meant individuals could not travel between different areas of the 
country and had to pick up their food in the same region each month. 
The rationing system became an additional way in which the regime 
secured loyalty from and domination over the population. 60 per cent of 
the populations depended on these handouts for their day-to-day 
survival.\4\
The weakening of state institutions after 1990
    However, the nature of the state's domination of society was 
transformed under the thirteen years of sanctions that Iraq faced in 
the aftermath of the 1990 invasion of Kuwait. The visible institutions 
of the state were greatly weakened and ultimately transformed. The 
rapid ending of imports and exports after Iraq's invasion of Kuwait 
drove annual inflation to levels as high as 500%. The middle class was 
devastated to the extent that it became hard to detect as a category. A 
UN survey for example, estimated that 63% of professionals were, in the 
late 1990s, engaged in menial labor. In the early 1990s import levels 
fell to well below countries such as Zaire and Sudan.\5\
    For at least the first seven years of their imposition the 
sanctions regime imposed on Iraq proved to be extremely efficient in 
that it denied the government in Baghdad access to large or regular 
amounts of money. From 1990 government economic policy was largely 
reactive, dominated by the short-term goal of staying in power. With 
the economy placed under a comprehensive and debilitating siege, the 
government sector was largely reduced to a welfare system distributing 
limited rations to the population. The rapid decline in government 
income not only forced the drastic reduction of state welfare 
provision, it also marginalized its role in the economy.
    The result was that under the pressure of sanctions, the official 
institutions of the state, with the exception of the rationing system, 
retreated from society during the 1990s, especially in the areas of 
welfare and education. As part of the regime's strategy for survival 
resources were drained from government ministries. Civil servants, 
teachers and medical staff had to manage as best they could; extracting 
resources from the impoverished population that depended on their 
services. Over the 1990s many professionals left public service either 
to take their chances in the private sector or flee into exile.
The legacy faced by the CPA
    The legacy of Saddam Hussein's rule has made the task of the CPA 
that much harder. The institutions of the Iraqi state that the US had 
hoped to inherit in April 2003 were by that time on the verge of 
collapse. During March they were targeted by the third war in twenty 
years. This, in addition to thirteen years of sanctions specifically 
designed to weaken them and three weeks of looting in the aftermath of 
liberation, resulted in their disintegration. What had been planned as 
regime change and then the speedy reform of state institutions was now 
going to be something much more costly and long-term. The legacy of 
Baathist rule, thirteen years of sanctions and twenty years of war 
means that today the CPA is engaged in an unforeseen process of 
building a new Iraqi state from the ground up. By its very nature, this 
will take much more time, effort and expertise than was anticipated in 
the run up to invasion.
    However, the negative legacy of Saddam Hussein's rule on the Iraqi 
population, is if anything, even more troublesome. For the Iraqi 
population, politics only began on April 9 last year. The Iraqi 
political organizations that the CPA are trying to liaise with have 
either been in existence for little over a year or have been imported 
into the country in the aftermath of regime change. This means that 
they have had a very short period of time to gain the attention of the 
population and more importantly win their trust or allegiance. With no 
indigenous civil society organizations surviving Saddam's rule, Iraqi 
politics are today extremely fluid. The population was largely atomized 
by thirty-five years of Baathist rule. Liberation has certainly led to 
political mobilization but at the present juncture this process is 
tentative, unstable and highly fractured. No one individual or party 
has managed to rally any significant amount of support from the 
population. This was starkly born out by the largest opinion poll ever 
conducted in Iraq. In February 2004 Oxford Research International 
interviewed 2737 people across Iraq. Although some of the results were 
broadly positive for the CPA, others highlighted distinct problems for 
the medium-term political stability of the country. When asked which 
organization they would vote for in a national election, the Shia 
party, Al-Da'wa, received the highest polling figure. But the support 
Al Da'wa registered was extremely low at only 10% of those questioned. 
Other parties that also claim a national base registered even lower 
polling figures. The largest percentage of those polled, 39.2%, 
answered that they did not know whom they would vote for. This was 
closely followed 34.5% who refused to answer the question. A similar 
very low response resulted from the question: ``Which national leader 
in Iraq, if any, do you trust the most?'' Again Al Da'wa's leader 
Ibrahim Jaaferi got the highest rating but that was only 7.7% of those 
questioned. The more indicative results were 21.1% of those questioned 
who answered ``none'' and the 36.7% of those who did not answer or were 
not sure.
    In Iraq today the CPA faces a highly mobilized but largely atomized 
society that is unrestrained by effective state institutions or by 
political parties. Nationwide democratic elections, both at a local, 
regional and national level could result in the structured political 
mobilization of the population. This would channel the hopes and 
aspirations but also the alienation and anger of the Iraqi people into 
the political process. It would tie the population in a transparent and 
consensual way to political parties who would be forced to develop a 
national network but also a national platform. Political parties, in 
order to prosper, would be forced to both be responsive to Iraqi public 
opinion but would also, to some extent, be responsible for shaping it. 
This process would also link the population, through the parties, to 
state institutions. Without such a process, discussions about handing 
sovereignty back to the Iraqi people are extremely problematic. As the 
Oxford Research International opinion poll indicated, ``the Iraqi 
people'' have not yet given their allegiance to any individual or 
party. They feel unrepresented at a national level. They have little or 
no affinity with the parties who claim to speak for Iraq. With this in 
mind handing sovereignty back to Iraqis would be dangerous and could, 
if anything, further increase the alienation of the Iraqi population 
from the CPA and the governing structures it is trying to build.
the coalition provisional authority's interaction with the iraqi people
The problems
    Against a background of increased violence and insecurity plans for 
rebuilding the political and administrative structures in Iraq appear 
to have become largely reactive. As policy has moved to meet a series 
of challenges it appears that little attention has been paid to the 
long-term consequences of each new initiative. The key problem damaging 
the occupation and hindering state building is the difficulty in 
communication between the American civil servants stationed in the 
green zone in downtown Baghdad and the mass majority of the Iraqi 
population. It is this inability to have meaningful interaction with 
Iraqi society that is the core problem facing the US. The CPA's 
relations with Iraqi society have been undermined by three factors. 
Firstly from April 2003 onwards the CPA has not had enough Arabic 
speakers on its staff. The occupation for many Baghdadis is now 
painfully personified by the daily scenes at the green zone's main gate 
in the centre of Baghdad. Here hundreds of Iraqis queue up to petition 
Ambassador Bremer whose office actually lies three miles beyond the 
initial security cordon. Rolls of barbed wire manned by worried 
American soldiers confront those who come to seek information from the 
CPA or try to explain their grievances. With no Arabic and 
understandably fearful for their own safety, these young men invariably 
control the Iraqis at the gate by shouting at them in English, cursing 
and threatening to use force. The result is frequent and bitter clashes 
between a population and their liberators, with both sides failing to 
communicate the reasons for their anger and alienation.
    The second problem hampering the occupation is the CPA's continuing 
lack of expert knowledge about the country they are trying to control. 
Within the CPA's headquarters there are very few experts on Iraqi 
society, politics or economy. Those experts who have been posted to 
Baghdad have tended to be a small number of British civil servants, 
usually on six-month postings. Even this small handful of specialists 
has had difficulty influencing the making and implementation of policy.
    With this limited expertise on Iraq the coalition became worryingly 
dependent upon the small group of Iraqi exiles it brought back to 
Baghdad in the aftermath of liberation. They were meant to provide 
several functions. First, they would become the main channel of 
communication between the wider Iraqi population and US forces. They 
would also, in spite of being absent from the country for many years, 
become the chief source of information and guidance for the American 
administrators struggling to understand and rebuild the country. 
Finally, and most importantly, they were set to become the basis of the 
new political elite. It was the exiles that were to form the core of 
Iraq's new governing classes. However, this reliance has brought with 
it distinct problems. The formerly exiled political parities, dominated 
by the Iraqi National Congress, have brought with them a very 
distinctive view of Iraqi society. This describes Iraq as irrevocably 
divided between sectarian and religious groupings mobilised by deep 
communal hatreds. This ``primordialization'' of Iraq bares little 
resemblance to Iraqi society in 2004, but appears to be very 
influential in the political planning that has gone on since April 9, 
2003.\6\
    The heavy reliance on organisations like the Iraqi National Accord 
(INA) and the Iraqi National Congress (INC) has further exacerbated the 
divide between Iraqi society and US forces. Despite setting up numerous 
offices around Baghdad, publishing party newspapers and spending large 
sums of money, the two main exile groups, the INC and INA have so far 
failed to put substantial roots into society. In a series of interviews 
with a cross section of Iraqis in Baghdad in May 2003, rich and poor, 
religious or secular, I found at best indifference and more usually 
anger towards the returned exiles, especially the avowedly secular INC 
and INA.\7\ This included one Baghdadi who under Saddam's rule had 
worked secretly for one of the exile groups. He was arrested and 
sentenced to death, a fate he only avoided, after nine months on death 
row in the notorious Abu Ghraib prison, because the regime collapsed. 
When I asked about the party he nearly lost his life for he replied: 
``I would have done anything to see the back of Saddam. But since the 
exiles have returned I have been disappointed, I do not trust them''. 
Off the record many of the more candid formerly exiled politicians will 
admit that they themselves have been surprised by the difficulties they 
have faced since returning. Instead of being welcomed they have found a 
sullen and suspicious population who have largely refused to offer 
political loyalty to the newly returned parties.
The results
    The inability of the exiled parties to develop significant 
constituencies within Iraq has not stopped the CPA from using them as 
the cornerstone of the new governing structures. This policy appears to 
have gone through four distinct phases. Firstly, once Baghdad had been 
taken, the ex-general Jay Garner expressed a desire to move quickly to 
an interim government run by the formerly exiled politicians who came 
back to the capital with the US military. However the movement towards 
creating a representative body was hasty and rather ramshackle in 
nature. The first two meetings, at Ur near Nassariyah, on March 15 and 
then in Baghdad, on April 28, 2003, were designed to draw together 
Iraqis in some form of assembly. The meeting at Ur was notable for 
those who chose not to attend and the large demonstration against the 
meeting outside. This highlighted the small number of delegates (80) 
and the veracity of their claims to be representative of little more 
than themselves. Although the turnout in Baghdad was larger at 300, it 
did not reach the 2000-3000 predicted in advance. The organisers 
refused to indicate how many had been invited but did concede that the 
meeting was ``not sufficiently representative to establish an interim 
authority''.\8\
    The second phase of US approaches to rebuilding Iraq was marked by 
one of Ambassador Paul Bremer's first decisions upon arriving in 
Baghdad. He decided to put Jay Garner's plans on hold and delay 
delegating power to a leadership council mainly composed of the 
formerly exiled parties. Given the fluidity of the situation and the 
difficulties of engaging the Iraqi population in a political process in 
the aftermath of conflict, this appeared to have been a very astute 
decision. However, this cautious and incremental approach was set aside 
with the advent of the third plan for building governmental structures. 
This was heralded by the CPA, in conjunction with the United Nations, 
setting up the Iraqi Governing Council (IGC) in July 2003. This body, 
picked by Paul Bremer after extended negotiations between the CPA, the 
UN and seven dominant parties, was trumpeted by the CPA as ``the most 
representative body in Iraq's history''. The representative nature of 
the IGC does not come from the method of its formation but instead from 
the supposedly ``balanced'' nature of its membership. The politicians 
were chosen to approximate the ethnic make up of Iraq, with 13 members 
being technically Shia, five Sunnis, with a Turkoman and a Christian 
thrown in for good measure. The nature of this arrangement becomes 
apparent when it is realised that Hamid Majid Mousa, the Iraqi 
Communist Party's representative and indeed the avowedly secular Ahmed 
Chalabi himself are included within the ``Shia block'' of thirteen. Is 
the Marxist Mr. Mousa meant to represent that section of the Shia 
community with leftist or secular leanings or is the CPA's designation 
of him as a Shia more indicative of the rather strange nature of the 
ethnic mathematics used to form the IGC? This sectarian mathematics was 
also why the number of cabinet portfolios was increased to 25, so that 
the spoils of office could be divided up in a similar fashion.
    The confessional basis to choosing the IGC caused much heated 
debate in Iraqi political circles and across the newly liberated press 
in Baghdad. Arguments focused on the way members were chosen, for their 
sectarian affiliation not their technical skills, and the dangers of 
introducing divisive confessional dynamics into the highest level of 
Iraqi politics. To quote Rend Rahim Francke, the Iraqi Ambassador-in-
waiting to Washington DC:

        . . . a quota system based on sect and ethnicity undermines the 
        hope of forging a common Iraqi citizenship by stressing 
        communitarian identity and allegiance at the expense of Iraqi 
        identity . . . anyone who wishes to be involved in the 
        political process must first advertise an ethnic, sectarian or 
        at least tribal identity, and play the ethnic and sectarian 
        card. Proclaiming one's ``Iraqiness'' is no longer sufficient: 
        one has to ``declare'' for a communal identity. This puts Iraq 
        well on the road to Lebanonization . . .\9\

    By mid-November 2003 the shortcomings of the IGC had become 
apparent to decision makers in both London and Washington. A fourth 
change in policy was trailed by a series of well sourced leaks in the 
media originating from both Baghdad and Washington highlighting the 
inefficiencies of the IGC. The fact that on average 17 of its 25 
members had been out of Iraq since its formation was used to paint the 
governing council as ineffective. This press campaign reached its peak 
with the recall of Ambassador Bremer for consultations in Washington. 
This resulted in a new plan, a new timetable and the proposal for a new 
institution through which Iraqis were to govern themselves.
    Pressured by the oncoming electoral cycle in America and increasing 
casualties in Iraq, the US government has sought to radically reduce 
the length and nature of its political commitment to Iraq. The new plan 
endorsed by the IGC on November 15, 2003, called for the drafting of a 
``fundamental law'' to be followed by the creation of a transitional 
assembly of anything between 200 to 500 delegates. It is this assembly 
that was to select a cabinet and leader for Iraq and guide the country 
to democratic elections. Problematically, although the proposed 
transitional assembly was to play such a pivotal role in Iraq's future 
it was not to be directly elected. Instead a system of indirect 
elections and caucuses were to be held, with town and city leaders 
``electing'' delegates to the assembly in a series of countrywide town 
hall meetings.
    This rather rough and ready approach to representation was not been 
greeted with universal approval in Iraq. Most importantly, the senior 
Shia cleric Marja Ayatollah Ali al-Sistani publically set himself 
against the ``caucusing'' approach, re-stating his long held and very 
public position that a constitutional assembly must be elected by 
universal suffrage. The Ayatollah's position had been clearly 
articulated weeks before Paul Bremer's departure for Washington in 
November. The fact that his opposition and its ramifications were 
underestimated, points to the continuing difficulties that the CPA is 
having in comprehending the dynamics of Iraqi politics.
    The lack of communication between the American civil servants and 
military personnel, their handpicked allies on IGC and the wider 
population of Iraq is one of the key problems that has undermined the 
occupation and the CPA's attempts at state building. From this 
inability to interact with Iraqi society springs the core problems 
facing the US and those who will inherit Iraq after June 30. 
Intelligence gathering is proving to be difficult because many Iraqis 
feel alienated from the CPA. The small number of Arabic speakers on its 
staff has undermined the CPA's interaction with Iraqi society. This has 
contributed to the CPA's lack of knowledge about the country they are 
trying to control. With almost no experts on Iraq on its staff the 
coalition became worryingly dependent upon the small group of Iraqi 
exiles it brought back to Baghdad with them. It is from amongst this 
group that the majority of the 25 members IGC were selected. However, 
this reliance has brought with it distinct problems. Firstly the 
formerly exiled politicians have proved to be unpopular. This means 
that the ICG, the most likely core of a new government, post June 30, 
is detached from the very people it is meant to represent. This gap 
between the political structures left by the departing CPA and the 
population does not bode well either for the growth of democracy or for 
the vanquishing of the insurgency.
Possible solutions
    The whole process of building institutional and governmental links 
between the CPA and Iraqi society has been plagued by the fact that 
many Iraqis, aware of the increasing unpopularity of the US presence in 
their country, and believing it to be temporary, are still sitting on 
their hands, eschewing involvement in government institutions, 
political and administrative, until the situation becomes clearer and 
the risks of political involvement fewer. Overcoming this problem is 
the chief concern of Lakhdar Brahimi, the UN envoy to Iraq, who began 
his new mission on April 5. Early indications suggest that Brahimi may 
well be trying to reproduce an Afghan model. This would involve a 
caretaker government made up of a prime minister, president and two 
vice presidents. Before elections, scheduled for late 2004 or early 
2005, this ruling triumvirate would gain legitimacy from a national 
conference, to be convened a short time after June 30.
    It is unclear how this plan would overcome the problems that have 
undermined the various approaches of the CPA. Firstly where is Mr. 
Brahimi going to pick the president and prime minister? It seems very 
likely that he will be forced to choose from the core of the ICG, that 
has to date formed the revolving presidency of the council. If he does 
succumb to this temptation then all the problems that dogged the IGC, 
its lack of legitimacy, its inability to forge meaningful links with 
the population and criticisms of it being appointed and not elected 
will resurface.
    Secondly because Mr. Brahimi, like his predecessor, Sergio Vieira 
de Mello, is working under the auspices of the CPA he runs the distinct 
danger of being perceived of as merely an appendage to the occupation. 
With the current poor security situation the proposed national 
conference may find it very difficult attracting a large and 
representative sample of the Iraqi population. If this were the case it 
would be very difficult for it to fulfill its dual roles as a forum for 
national consultation and a source of legitimacy for the new caretaker 
government. The failure of a national conference to gather momentum and 
bring together a broad cross section of the population would leave the 
caretaker government proposed by Mr. Brahimi dangerously exposed and 
open to similar criticisms and suspicions as those which have been 
leveled at the ICG since its formation.
    The only way to avoid such pitfalls would be to internationalise 
the creation of governing institutions and democratic structures. This 
would not mean a partial or token role for the United Nations, 
organising national conferences or overseeing election. Instead it 
would involve bringing the whole occupation and state building under 
United Nations management. This would reduce the suspicion felt towards 
the CPA by sections of the Iraqi population. The organisation 
overseeing the move towards the creation of a new state would then not 
be the United States but the international community. Accusations of 
double standards or nefarious intent would be much harder to sustain. 
Arguments about the occupier's willingness to relinquish power would 
also be negated. It would be the Security Council in New York not the 
US government in Washington that would have ultimate responsibility for 
Iraq's transition. This would result in many more Iraqis viewing the 
whole exercise with a great deal more legitimacy. The UN could then 
utilise expertise and troops from across the international community. 
Those involved in reconstruction, both Iraqis and international civil 
servants, would then not run the danger of being labelled 
collaborators.
                           order and violence
    The rising unpopularity of a sustained US presence in Iraq is 
closely linked to the nature of the order they have been able to impose 
on the country since the taking of Baghdad. For military occupation to 
be successful the population has to be overawed by both the scale but 
also the commitment of the occupiers. The speed with which US forces 
removed Saddam Hussein's regime certainly impressed the Iraqi 
population. In the immediate aftermath of April 9 there was little 
doubt that US military superiority appeared absolute. But the inability 
of American forces to control the looting that swept Baghdad and the 
continued lawlessness that haunts the lives of ordinary Iraqis has done 
a great deal to undermine that initial impression of American 
omnipotence.
    Troop numbers and tactics have hampered the nature and quality of 
the law and order that American troops have been able to enforce in the 
aftermath of the cease-fire. In the run up to war Army Chief of Staff 
Eric Shinseki in a Senate hearing called for ``hundreds of thousands'' 
of troops to guarantee order. Michael O'Hanlon, of the Brookings 
Institute, based on his experience in the Balkans, took the figure of 
150,000 as a minimum with at least 100,000 staying in the country for 
several years.\10\ At the moment there are only 137,000 US troops 
attempting to impose order on the country, this is clearly not enough 
to achieve the type of sustainable order state building requires.
    The understandable tactics adopted by US troops, a combination of 
heavily armed motorised patrols and large fortified bases, means that 
the military presence became detached and largely remote from the Iraqi 
population. As the daily toll of US casualties' mounts American forces 
are increasingly perceived of as weak and their presence in and 
commitment to the country as temporary. This general impression helps 
to explain why Baath loyalists began to reorganise in the spring of 
2003 and why the remnants of Saddam's security services, sensing an 
opportunity to take advantage of US force vulnerability, began 
launching hit and run attacks with increasing frequency and skill.
Understanding the insurgency
    A homogeneity of viewpoint in explaining the causes of both the 
insurgency and the large-scale terrorist attacks in Iraq appears to 
have developed amongst senior staffers in the US administration. 
General Richard Myers, the chairman of the US Joint Chiefs of Staff, 
has been keen to stress that resistance is neither monolithic nor 
nationwide. He argues that 90 percent of the incidents are in the so-
called ``Sunni triangle'' of northwest Iraq, running from Baghdad north 
to Mosul and west to the Jordanian border.\11\ Washington has been keen 
to portray the violence as the work of regime ``hold-outs'', die-hard 
Saddam loyalists who may have formed utilitarian alliances with radical 
Islamists from across the Middle East.\12\ The logic of this argument 
is that the violence is highly unrepresentative of Iraqi popular 
opinion, geographically located in a comparatively small area of the 
country and politically limited to those fanatical enough or 
unintelligent enough not to realise that the old regime is dead and 
buried and that opposition to the new, US sponsored, world is futile.
    However, the violence dogging the occupation springs from three 
separate sources with a host of causes beyond the ``fanatical hold-
outs'' of the old regime. The first group undermining law and order are 
``industrial scale'' criminal gangs operating in the urban centres of 
Basra, Baghdad and Mosul. It is organised crime that makes the everyday 
lives of Iraqi city dwellers so precarious. These groups, born in the 
mid-1990s when Saddam's grip on society was at its weakest, have been 
revitalised by the lawlessness of present day Iraq. Capitalising on 
readily available weapons, the weaknesses of a new and hastily trained 
police force and the CPA's shortage of intelligence about Iraqi 
society, they prey on middle class Iraqis, car jacking, housebreaking, 
murdering and kidnapping. It is groups like these that make the roads 
surrounding Baghdad so dangerous, regularly attacking foreign workers.
    The second group involved in violence is, as the CPA argues, the 
remnants of the Baath regime's security services. Sensing the 
vulnerability of occupation forces they began launching hit and run 
attacks on US troops in May and have increased the frequency, skill and 
geographic scope with which they are carried out. Two things must be 
understood about the genesis of the insurgency. First, the likelihood 
of a ``hidden hand'' coordinating and funding it from its outset is 
very doubtful. Research I carried out in Iraq at the outset of the 
insurgency paints a much more fractured if not organic picture of the 
forces arrayed against the US. The networks and personnel now pursuing 
the insurgency appear to have been reconstituted through personal, 
family and geographic ties in the months after April 9 not in response 
to a master plan developed in the run up to the invasion. Paul Bremer's 
decision, upon his arrival in Baghdad, to dissolve the army on May 23 
and embark on root and branch de-Baathification on May 16, 2003, 
contributed to the personal organisation of the insurgency. Baathists 
in late May felt under attack and vulnerable. The CPA edicts in 
conjunction with a spate of assassinations by radical Shia groups gave 
them the motivation to re-organise. It was only by the spring of 2004 
that evidence began to emerge that a national organisation was 
beginning to coordinate the actions of the disparate groups involved in 
the insurgency.
    The second factor supporting the insurgency is the coherence of the 
security networks that guaranteed Saddam's survival in power for so 
long. The ``Sunni triangle'' is often talked about as a homogenous 
block of insurgency supporters, offering material and ideological 
comfort to the fighters. What is not understood is that the ``shadow 
state'', the flexible networks of patronage and violence that were used 
to reshape Iraqi society in the image of Saddam Hussein and his regime, 
is still functioning coherently in the north west of Iraq.\13\ The same 
individuals who intimidated and demobilised Iraqi society in the north 
west under the Baath regime are still there today and can be expected 
to be carrying out their allotted function.
    The result of these two factors is the insurgency today. The 
weaknesses of intelligence on the US side means American forces have a 
partial understanding of who is killing them, who is organising the 
insurgency and what its relations with the wider community are. The 
repeated large-scale swoops through north west Iraq by US troops, 
Operation Peninsula Strike, Operation Sidewinder and Operation Soda 
Mountain, may have resulted in the capture of large amounts of 
munitions, but they have also been accompanied by the deployment of 
large numbers of troops, mass arrests and widespread house searches. 
This has done little to stem the tide of violence. Without accurate, 
time sensitive intelligence and local knowledge such raids do, slowly, 
locate the remaining key players of Saddam's ruling elite. But in the 
process they also alienate large sections of the population in the 
targeted areas. Large numbers of arrests and detentions are bound to 
fuel resentment and swell the ranks of the violently disaffected.
    The final source of violence is certainly the most worrying for the 
CPA and the hardest to deal with. This can be usefully characterised as 
Iraqi Islamism, with both Sunni and Shia variations. Fueled by both 
nationalism and religion it is certainly not going to go away and 
provides an insight into the mobilising dynamics of future Iraqi 
politics. An early indication of the cause and effect of this 
phenomenon can be seen in the town of Falluja, thirty-five miles west 
of Baghdad. In spite of assertions to the contrary, Iraqis did not 
regard Falluja, prior to the war, as a ``hotbed of Baathist 
activity''.\14\ On the contrary, Falluja had a reputation in Iraq as a 
deeply conservative town, famed for the number of its mosques and its 
adherence to Sunni Islam.\15\ In the immediate aftermath of regime 
change Iraqi troops and Baath Party leaders left the town. Imams from 
the local mosques stepped into the socio-political vacuum, bringing an 
end to the looting, even managing to return some of the stolen 
property.\16\
    The fact that this town became a centre of violent opposition to US 
occupation so soon after liberation is explained by Iraqis I 
interviewed as a result of heavy-handed searches carried out by US 
troops in the hunt for leading members of the old regime. Resentment 
escalated when two local Imam's were arrested.\17\ Events reached a 
climax when US troops broke up a demonstration with gunfire resulting 
in reports of seventeen Iraq fatalities and seventy wounded.
    The repeated violation of the private sphere of Iraqi domestic life 
by US troops searching for weapons and fugitives has caused recurring 
resentment across Iraq, especially when combined with the seizure of 
weapons and money. It has to be remembered that as brutal as Saddam's 
regime was, it never sought to disarm the Iraqi population. The deaths 
of six British soldiers in June 2003 in the southern town of Majar al 
Kabir, although almost certainly carried out by Shias, can also be 
explained in a similar fashion. It was preceded by a British army 
operation designed to recover weapons by searching houses. The 
resentment this caused erupted when a heavy deployment of British 
troops was replaced by a small number of lightly armed military police.
The insurgency changes tactics
    The explosions in Baghdad and Karbala that greeted the signing of 
Transitional Administrative law in the first week of March 2004 marked 
a new phase in the insurgency. This was a response to the CPA's plans 
to hand over the provision of security to the nascent Iraqi army and 
police force. This new and destabilising phase of violence is designed 
to make Iraq ungovernable either by the US or a new Iraqi government. 
Terrorism is now being deployed with the twin aims of exacerbating 
sectarian tensions whilst at the same time seeking to stop the growth 
in indigenous governing structures designed to replace the occupation.
    As US troops took a less public role and began to be redeployed to 
more secure bases, the insurgents have sought out more accessible 
target. The embryonic institutions and personnel of the new Iraqi state 
provided these. This change in tactics was heralded by the attack on 
three police stations in Baghdad on the same day in October last year. 
Since then this method has been extended in its geographical scope and 
ferocity, using car bombs to target police stations in Khalidyah in 
western Iraq, Mosul in the north and Iskandariya and Hillah south of 
Baghdad. These attacks, along with a devastating car bomb assault on an 
army-recruiting centre in Baghdad that killed 53 people in February, 
are designed not only to discourage Iraqis from working for the new 
state but also to stop the growth of its institutions. They undermine 
attempts to deliver to the Iraqi population what they have been 
demanding since the fall of the Baath regime: law and order.
    However the second tactic adopted by insurgents has the potential 
to be even more damaging to Iraq's long-term stability. By targeting 
the large crowds that gathered to commemorate the Shia festival of 
Ashura in Baghdad and Karbala, the perpetrators of the attacks on March 
2 were attempting to trigger a civil war between Iraq's different 
communities. This approach first became apparent on August 29, 2003, 
with the car bomb at the Imam Ali mosque in Najaf. In February 2004 
this tactic was extended to the Kurdish areas of Iraq when two suicide 
bombers killed 101 people in Irbil at the offices of the Kurdish 
Democratic Party and Patriotic Union of Kurdistan.
    Prominent Iraqi politicians were keen to blame the rise in car 
bombing, civilian casualties and the resulting sectarian tension on 
outside forces. But there is a danger that they have tended to 
overstate their case. The efficiency of these attacks, their regularity 
and the speed with which they were organised in the aftermath of 
Saddam's fall all point to a large amount of Iraqi involvement. The 
shadowy organisation behind these sectarian attacks is much more likely 
to be a hybrid, with elements of the old regime acting in alliance with 
indigenous Islamic radicals and a small number of foreign fighters. 
This potent mix has allowed mid-ranking members of the old regime to 
deploy their training and weapons stockpiles. They have sought to ally 
themselves with a new brand of Islamic nationalism, seeking to mobilise 
Sunni fears of Shia and Kurdish domination and a growing resentment at 
foreign occupation. Although the use of indiscriminate violence has 
alienated the vast majority of Iraqi public opinion across all sections 
of society the carnage it has produced has been a major set back for 
state building and stability.
The results of insecurity
    The inability of the CPA to impose law and order on Iraq has 
created a security vacuum across the whole of the country. This has 
given rise to another destabilising and very worrying dynamic that may 
come to dominate post-occupation Iraqi politics. Militias have stepped 
into the security vacuum further adding to instability and insecurity. 
In a country where automatic weapons are widely available and most men 
have had military training and many have seen active service, the 
organisation of militias is comparatively straight forward. The months 
since liberation has seen a plethora of armed groups taking to the 
streets, increasingly organised along sectarian lines. The inconsistent 
application of CPA disarmament edicts, allowing Kurdish militias to 
retain their arms while demanding that certain Shia ones cannot, has 
led to the militias filling the social space formally occupied by 
central government. Although these militias enjoy little popular 
support their very existence is testament to the inability of the CPA 
to guarantee the personal safety of the Iraqi population.
    Clearly the establishment of countrywide order is essential for the 
successful creation of a stable state. It is also evident that more 
troops and policemen are needed for this to happen. What the events of 
the last two weeks have highlighted is that the nascent forces of the 
newly formed Iraqi army and police force are unable or unwilling to 
impose order. With the speed with which these forces were created is 
was perhaps overly optimistic to put such a large burden upon them with 
such haste. However, it is clear that US forces have also become a 
target of resentment and nationalist mobilisation. More troops are 
needed but of a different type. If the occupation were 
internationalised, a UN force, would not be such a potent target of 
anger and suspicion. They could provide the numbers of troops on the 
ground needed for the provision of order.
                              conclusions
    It is hard to over-estimate what is at stake in Iraq today. The 
removal of Saddam Hussein has proved to be the beginning not the 
culmination of a long and very uncertain process of occupation and 
state building. The lawlessness and looting that greeted the liberation 
of Baghdad on April 9, 2003, has evolved into a self-sustaining dynamic 
that combines violence, instability and profound uncertainty. US troops 
now face an insurgency that has managed to extend its geographic 
impact, while increasing the level of violence and the capacity for 
destruction and instability.
    Against this background the failure of American attempts to replace 
Saddam Hussein's regime with a stable, sustainable and hopefully 
liberal government would have major consequences far beyond Iraq, the 
region or indeed the United States itself. The failure of regime 
consolidation in Iraq for the Middle East would be very problematic. 
The importance of Iraq to the geo-political stability of the Gulf and 
the wider Middle East area can hardly be overestimated. Geographically 
it sits on the eastern flank of the Arab Middle East with Turkey and 
Iran as neighbours. Although its population is considerably smaller 
than both of its non-Arab neighbours, it is larger than any of the 
bordering Arab states. With oil reserves second only to Saudi Arabia 
its economic importance is clearly global. If the present domestic 
situation does not stabilise then violence and political unrest would 
be expected to spread across Iraq's long and porous borders. A 
violently unstable Iraq, bridging the mashreq and the Gulf would 
further weaken the already fragile domestic and regional stability of 
the surrounding states and the wider region beyond. Iraq's role as a 
magnet for radial Islamists from across the Muslim world, eager to 
fight US troops on Middle Eastern soil, would increase. In addition 
there is a distinct danger that neighbouring states would be sucked 
into the country, competing for influence, using Iraqi proxies to 
violently further their own regime's interests.
    With this in mind and given the social and political legacy of 
Saddam Hussein's rule it is unfair but also unrealistic to ask one 
country to bear the major burden of rebuilding the state. No one 
country, even the world's sole remaining super power, has the resources 
and expertise to finish the job at hand alone. The rebuilding of Iraq 
is an international problem and should be given to the international 
community to handle.
                               footnotes
    \1\ Dr. Toby Dodge is Consulting Senior Fellow for the Middle East 
at the International Institute for Strategic Studies, London. He is 
also Senior Research Fellow, at the ESRC Centre for the Study of 
Globalisation and Regionalisation, University of Warwick, UK. He has 
recently published Inventing Iraq: the failure of nation building and a 
history denied, (New York and London: Columbia University Press, 2003), 
Iraq at the Crossroads: State and Society in the Shadow of Regime 
Change, (edited with Steven Simon) (London and Oxford: IISS and Oxford 
University Press, 2003), Globalisation and the Middle East, Islam, 
Economics, Culture and Politics, (edited with Richard Higgott) (London 
and Washington: Royal Institute of International Affairs and the 
Brookings Institution, 2002), and ``US intervention and possible Iraqi 
futures'', Survival, Vol. 45, No. 3, August 2003.
    \2\ See Charles Tripp, ``After Saddam'', Survival, Vol. 44, No. 4, 
Winter 2002-2003, p. 26.
    \3\ Amatzia Baram, Building Towards Crisis: Saddam Husayn's 
Strategy for Survival, Policy Paper No. 47, (Washington: The Washington 
Institute for Near East policy, 1998), p. 73.
    \4\ Frederick D. Barton and Bathsheba Croker, ``Winning the Peace 
in Iraq,'' The Washington Quarterly, Spring 2003, Vol. 26, No. 2, p. 
10.
    \5\ See Peter Boone, Haris Gazdar and Athar Hussain, ``Sanctions 
against Iraq: Costs of Failure'', a paper given at ``Frustrated 
Development: the Iraqi Economy in War and in Peace,'' conference, 
University of Exeter, Centre for Gulf Studies in collaboration with the 
Iraqi Economic Forum, July 1997, p. 10.
    \6\ See Isam al Khafaji, ``A Few Days After: State and Society in a 
Post-Saddam Iraq'', in Iraq at the Crossroads: State and Society in the 
Shadow of Regime Change, (edited by Toby Dodge and Steven Simon) 
(London: International Institute for Strategic Studies and Oxford 
University Press, 2003).
    \7\ This finding is supported by the opinion poll conducted during 
February 2004 by Oxford Research International. Ahmed Chalabi and Ayad 
Alawi both respectively registered 0.2% of those questioned when asked 
``Which national leader in Iraq, if any, do you trust the most?'' 
Another opinion poll carried out on June 2003 by the Iraq Centre for 
Research and Strategic Studies found ``that only 15.1% of Iraqis polled 
in Baghdad said that the political parties in Iraq represented their 
interests. Approximately 63% of those surveyed preferred a technocratic 
government, rather than one based upon political parties.'' See Puneet 
Talwar and Andrew Parasiliti, 108th Congress, 1st Session, Committee 
print, ``Iraq: meeting the challenge, sharing the burden, staying the 
course.'' A trip report to members of the Committee on Foreign 
Relations, United States Senate, p. 9.
    \8\ Jonathan Steele, ``Delegates agree new talks on government'', 
The Guardian, April 29, 2003.
    \9\ Rend Rahim Francke, ``Iraq Democracy Watch: on the Situation in 
Iraq'', September 2003. (http://www.iraqfoundation.org/news/2003/isept/
26--democracy--watch.html).
    \10\ See the unedited transcript, ``The day after: planning for a 
post-Saddam Iraq'', The American Enterprise Institute, Washington, DC, 
October 3, 2002.
    \11\ See transcription of Fox News, July 6, 2003, http://
www.foxnews.com/story/0,2933,91170,00.html.
    \12\ George W. Bush, ``President Addresses the Nation'', Address of 
the President to the Nation, The Cabinet Room, September 7, 2003, and 
Testimony as Delivered by Deputy Secretary of Defense Paul Wolfowitz, 
and Director, Office of Management and Budget, Joshua Bolten, and 
Acting Chief of Staff, U.S. Army, General John Keane, Tuesday, July 29, 
2003.
    \13\ For more information on this see Toby Dodge, ``US intervention 
and possible Iraqi futures'', Survival, Vol. 45, No. 3, August 2003.
    \14\ See Paul Wolfowitz, Deputy Secretary of Defence, General Peter 
Pace, USMC, Vice Chairman Joint Chiefs of Staff, Alan Larson, Assistant 
Secretary of State for Economics, Business and Agricultural Affairs, 
testimony before the Senate Foreign Relations Committee, 2:35, p.m., 
Thursday, May 22, 2003.
    \15\ This is based on interviews carried out by the author in 
Baghdad in late May last year.
    \16\ See Jonathan Steele, The Guardian, May 6, 2003.
    \17\ See Jonathan Steele reporting from Falluja, The Guardian, 
April 30, 2003.

    The Chairman. Thank you very much, Dr. Dodge.
    Once again, we'll have a 7-minute limit in our questions. 
We will try to adhere to that as best we can.
    Now, let me start by saying that Mr. Perle has mentioned 
that the Iraqis will, finally, have to settle the issue 
themselves. His suggestion was that we should have brought in 
thousands of Iraqis at the outset, both for security purposes, 
as well as for governance purposes.
    Dr. Cole, you've mentioned that, in fact, the overthrow of 
Saddam liberated Iraqis, liberated the religious groups, 
including Shi'ites who may have been affiliated with Iran, The 
Shi'ites may be interested in democracy, or maybe not; perhaps 
they are really interested a theocracy.
    Dr. Dodge, you've added the disquieting thought that 
whether the leaders we are looking to in Iraq are exiles who 
have returned or whether they are indigenous and have been 
there through it all, very few have captured the attention or 
support of the Iraqi people. The poll you cited shows very 
small levels of support when it comes to a particular person, 
party or movement.
    That will all come to a head on June 30 or before then, 
when Ambassador Brahimi and his team, are going to select 
leaders to fill these top posts--the president, two vice 
presidents and a prime minister. You suggested, Dr. Dodge, that 
he will make these selections from members of the Governing 
Council. This is a group, at least as you described it, that 
was imposed by the Coalition and that does not have the support 
of Iraqis. From the beginning, this group has had some problems 
in terms of executive leadership.
    Now, granted, Ambassador Brahimi's advisory group approach 
may ameliorate this lack of support, but many of those advising 
him may not have high recognition either, or great popularity. 
They may not be able to add to the popular support this effort 
needs.
    As Mr. Perle has said, perhaps our policy with the 
liberation of Iraq never had the follow-through from 
administrations or Congress in the past. Maybe pragmatically it 
was impossible for this group to overthrow Saddam militarily. 
Maybe that is something that was a non-starter.
    In any event, we're faced, pragmatically, with somebody--
Mr. Brahimi appears to be the one--naming people to lead Iraq. 
Maybe Iraqis will accept the choices, since they come from a 
United Nations commission and that it is an interim group whose 
main tasks will be to administer the basic functions of 
government and set the conditions for elections, which 
Ayatollah Ali al-Sistani, in particular, has called for.
    In my initial questions, I raised an issue that I would 
like to pose to you again, because it's not been touched upon 
further. What will happen if, for example, the governing group 
decides that the security that we are providing, which all of 
us believe today is really essential, is no longer needed? We 
would like other nations to be helping us, but, thus far no one 
has suggested that the 130,000 Americans troops ought to leave. 
Let's say this government really takes things seriously, and 
the new president, or the vice president, or so forth, 
indicates that they have some serious qualms about our tactics, 
whether it be in Fallujah, or with regard to Najaf, or other 
places. In other words, they might say to the American 
commander, you may be commander of 130,000 Americans, but we 
don't want you to go to Fallujah, or, further, we want to 
prescribe how the security will be done these days in our 
country.
    Are you comfortable with the amount of clarity and 
legitimacy that U.N. Resolution 1511, the TAL, current CPA 
regulations, and--we hope--a new resolution will give to all of 
this structure? Will the American commander of the multi-
national force remain in full charge of all the security or 
will he have to clear his decisions with the new sovereign 
government?
    I'm raising this question in the same spirit as you've 
raised the question. How do you select the people? How are they 
given at least some strength, the low poll numbers that you've 
cited? How do we establish the relationship on security between 
the U.S. and this government that some people blandly say just 
has civil sovereignty? Iraqis may decide to take seriously the 
whole problem of governance.
    At the end of the day there still are the technical 
questions of these elections. In Afghanistan, this has been 
formidable, for a variety of reasons. Barely 20 to 25 percent 
of the population has been registered, even though there is an 
agreement that the election should be held at a certain point. 
It has already been pushed back. It may be pushed back some 
more. Who will do the nitty-gritty political work in Iraq--
registering valid voters, setting up security for some 
legitimacy--so that after these elections will be held, there 
will not be cries of, ``Foul ball''? Who will be responsible 
for taking the steps to ensure that the upcoming vote in Iraq 
will not be deemed to be a flawed situation in which the voters 
didn't get what they wanted?
    Will each of you give a comment? That will exhaust my time. 
I will then turn to Senator Biden.
    Mr. Perle, do you have any overall thoughts about this 
situation?
    Mr. Perle. I do think, Mr. Chairman, you've correctly 
identified some of the very difficult problems that arise in 
what is not a normal civil society in which the institutions we 
would normally turn to are there and available, and it's going 
to take very considerable ingenuity. It's going to take our 
military commanders working with the caretaker government for 
that period of time. Hopefully, it will be a very brief period. 
It's only meant to be a few months. Unless people are chosen 
who cannot manage a pragmatic relationship of that sort, I 
think they'll find a way to muddle through. But this is not 
going to be orderly, it's not going to be highly predictable, 
and there's a premium placed on our adaptability. And I think, 
so far--there have been plenty of mistakes, but, so far, we've 
proven pretty adaptable in understanding where things have gone 
wrong, and trying to correct them. So it isn't going to be 
neat, but I think we'll muddle through.
    The Chairman. Dr. Cole.
    Dr. Cole. Well, I agree that there are sets of very 
difficult issues here that have yet to be negotiated. And, 
indeed, we don't know with whom we will be negotiating them.
    With regard to the military situation, I'm a little bit 
more optimistic about the relationship of any Iraqi government 
with CENTCOM, insofar as, the Iraqi army is gone. Iraq is a 
small country of 25 million, surrounded by very large 
countries, like Iran and Turkey, each of which have nearly 
three times as many, and which have very powerful militaries. 
Iran fought an 8-year war with Iraq not so long ago. Turkey has 
made noises occasionally about invading the north of Iraq. So I 
think that whether they like it or not, most responsible Iraqis 
are going to want a U.S. security umbrella. They may have 
severe differences of opinion. And, indeed, the Interim 
Governing Council that we appointed didn't like the strategy 
used at Fallujah, and said so on a lot of the satellite 
television. But they may have differences of opinion about 
particular tactics and so forth. I'm fairly optimistic that 
they're not going to want to be left in the lurch, regardless 
of their feelings about being occupied. So I think those things 
can be negotiated.
    I would say, with regard to the issue of holding elections, 
it should be remembered that Iran was a constitutional monarchy 
from the 1920s through the 1950s. There were occasionally 
military coups in that period; but, on the whole and by and 
large, they had elections, and parties came to power, and prime 
ministers were elected, so this is not an unprecedented thing 
to happen in Iraq. And it ended, in part, because that was a 
game of large landlords in that period, and didn't have popular 
support.
    I think there are already now city councils and provincial 
governing councils in place. They haven't been exactly 
democratically put in place, but they are there. There are 
people who would be in charge of voter registrations. The voter 
registration can be kept honest in some ways because it can be 
compared to the food-ration rolls that the U.N. had prepared.
    So I think that, in principle, there's not a reason for 
which Iraq can't go to the polls in January. I think Grand 
Ayatollah al-Sistani desperately wants this. He doesn't want 
the country to fall into chaos. He will exercise his 
considerable moral authority in this regard.
    I think there will be people who will attempt to disrupt 
this process. There will be guerrilla forces that attempt to 
disrupt it. And that's why I say that the elections should be 
held anyway. Even if some polling booths are bombed, the 
elections should go forward. Twenty-five million people should 
be allowed to vote in their government. It won't be perfect. 
The first government that is elected may be contested, but it 
will have a great deal more legitimacy than anything that can 
be appointed, and it's the only way forward.
    The Chairman. Dr. Dodge.
    Dr. Dodge. Thank you. I think we have two problems. We have 
the date of the 30th of June, which is shooting toward us with 
increasing speed, and you or I or the vast majority of Iraqis 
don't know what that will deliver, because so much of it is un-
worked-out. So we have that very narrow and political 
timetable.
    Then, on the other hand, we have a society ravaged by 35 
years of dictatorship, which has no institutions, which is 
highly mobilized, but isn't coalescing around political forces, 
and that's the great tension.
    So I guess your question is, how do we overcome that 
question? How do we--what's the best compromise we can find? 
Well, I think it's a hybrid. First, clearly, we--in the runup 
to elections, whenever they come--and they may well, almost 
certainly, I suspect, be postponed--we need to build local 
democratic structures, need to build on the limited work that's 
being done on local town councils and regional councils, and 
pump money and oversight into that, because that will clearly 
be the architecture which democracy will finally be built 
through. I think there's been too much emphasis on grand 
conferences in Baghdad, and not enough on the nitty-gritty un-
glamorous work of building local democracy.
    And, second, I agree with Professor Cole, you desperately 
need a national election, because what that will do is force 
these parties to develop a national base. And those that can't 
develop a national base won't get national votes. It will also 
force, to a certain extent, these parties to shape the policy, 
the very diverse and fractured policy, and explain to the Iraqi 
population, or negotiate with the Iraqi population, what is a 
valid manifesto. So you'll have a dialog between the parties 
and the population, which will be mutually transforming and 
then will channel political mobilization, anger as well as 
hope, through democratic institutions. So an election is 
desperately needed, but my great worry is that, like nearly 
everything else with this occupation, it will be postponed and 
then postponed.
    Now, that's a pessimistic prediction. But while that may 
well be happening, it's desperate that much more emphasis is 
put on the local level, building up local democracy.
    The Chairman. Well, I thank all three of you. I will just 
make an observation that much seems to depend on the Ayatollah 
al-Sistani and his desire for an election to occur, for 
democracy to happen, for at least the Shi'ite majority to 
become a government. So that pragmatically, as Mr. Perle has 
said, things may muddle through, because if they get off track, 
the elections the democracy, whatever may be manifested 
there'll get off track, likewise.
    Senator Biden.
    Senator Biden. Well, there seems to be an agreement among 
the three of you that elections should take place as rapidly as 
feasible. Is that right? Do you all agree with that?
    [Witnesses all nodded heads in the affirmative.]
    Senator Biden. And that's essentially what Chirac has been 
arguing for, for the last year, that there should have been 
elections almost immediately. He wanted to have them this 
spring. Was it feasible to have them this spring?
    Dr. Cole. Yes, it was feasible. The British command in 
Basra actually has been a little bit insubordinate in being 
very open that they thought that such elections were entirely 
feasible. The CPA would say, ``well, the election rolls are 
incomplete.'' They would say, ``no, they've been updated.'' 
They would say, ``well, they didn't include the Kurds.'' The 
British commander said, ``well, yes, they do.'' And so Grand 
Ayatollah Ali al-Sistani wanted to have the elections this 
spring. There was substantial international support for such an 
idea, and at least the British military command in Basra 
thought that it was feasible.
    As a historian, I try to have a balanced view of these 
things, and I also do understand the reasons for which, 
perhaps, Mr. Bremer was not eager to go forward with such 
elections at this time. It's a risk. You don't know who exactly 
is going to be elected. And they did this in Bosnia, they had 
early elections after the violence ended there, and people got 
into power, quite frankly, who later were thugs, and who later 
on posed obstacles to then, down the road, further good things 
happening.
    So I think one must remember that a lot of the American 
military and State Department and other personnel involved in 
Iraq, their recent history has been in the Balkans. And coming 
from that Balkans background, you can understand how they felt, 
well, we went too early to elections in the Balkans, and it had 
this----
    Senator Biden. I was one who shared that view, by the way.
    Dr. Cole. Yes, well--so I'm sympathetic----
    Senator Biden. I know no one else acknowledges having made 
any mistake anywhere, but----
    Dr. Cole. So I'm sympathetic to the reservations that they 
had; however, I think Iraq is not the Balkans, the Iraqi 
situation is different. I think there would have been a value 
in going to early elections in Iraq. I think it might have 
forestalled the recent blowup had they done that.
    I also think it was a mistake not to have early municipal 
elections. People were planning municipal open elections in 
Najaf last June, and everything was set to go, and Mr. Bremer 
decided not to do it. What was reported in the press--and I 
don't know if it's true--is that he was afraid that pro-Iranian 
parties would win in Najaf. I hesitate to say this, but there 
are no parties that would win an election for the mayoralty of 
Najaf which wouldn't be favorable toward Iran, so if that's a 
consideration, you could never have elections there.
    I think it was a mistake to cancel those elections. I think 
it made a bad impression on al-Sistani and other Shi'ite 
leaders that the United States was maybe not serious about 
democracy.
    So I agree completely with Dr. Dodge that as soon as you 
can have free and open municipal elections, that would be a 
good base for the national scene. And John Burn, for instance, 
who is a Coalition Provision Authority figure in the Nazariah 
area, has been going around having open elections in the towns 
and villages around Nazariah with great success. So in some 
parts of Iraq, it's been done; in other parts, it's been the 
local lieutenant colonel who, sort of, appointed a council. 
It's diverse. But the more local choice can be there, the 
better.
    Senator Biden. Dr. Dodge, what do you think?
    Dr. Dodge. Just a brief point. The feedback from the local 
elections organized around Nazariah were quite intriguing and 
surprising. They threw up a much larger secular vote than would 
have been anticipated. The secular parties and independents got 
a larger share of the vote than anyone would have predicted?
    Senator Biden. Richard.
    Mr. Perle. I don't think there is as much reason as some 
people suggest to fear that the Shia vote is going to be for 
the establishment of the theocracy. I don't think you would get 
a theocracy voted in Iran today. So this may be significantly 
overblown.
    But I just wanted to raise a question about the idea that 
the current flare-up would not have taken place, or would have 
been mitigated had there been elections prior to this. The 
current flare-up is the product of the activity of people who 
would not be impressed or mollified or discouraged by 
elections. On the contrary, I believe it's the imminent 
transfer of authority leading to elections that has caused the 
al-Sadrs, who will not win an election, and the diehard 
Ba'athists, and, needless to say, the jihadists, to intensify 
their activity. They're fearful of precisely the kind of 
political development that we are all urging, so they would not 
refrain from their attacks if there had been an election.
    Senator Biden. Well, then you'd have to have some 
additional security to deal with that, correct? With these 
flare-ups? They would have occurred whether or not we have 
elections.
    Mr. Perle. Well, I think the Ba'athists who were facing the 
gallows would not be deterred by elections----
    Senator Biden. No, I'm not trying to be argumentative; I'm 
trying to understand. I don't disagree with you--that the very 
people who are the ones that conclude that they are not likely 
to succeed in a democratic process of some sort are the people 
that are most concerned about the transition taking place and 
ultimately having elections. Not generically the Sunnis, but 
specifically some elements of the Sunni population, the former 
Ba'athists in particular. I've read your statement and other 
things you've written, Dr. Cole, with great interest; it's why 
you're here. There is this sense that it is--the resistance 
among the Sunnis is pretty basic, even those who don't take up 
arms themselves. They know that 80 years of--on the ``gravy 
train,'' for lack of a better and unfair way of phrasing it, is 
over, that it's not going to happen, and they just figure, how 
are we going to get a piece of their pie?
    I thought your version of a Connecticut compromise for Iraq 
is a good idea, that is two bodies. Everybody talks about 
democracy; we don't have a democracy here, we have a republic 
here. There would be no nation unless you decided that 
Delaware's going to get two senators, just like New York. Not 
kidding about it. It literally is true, it wouldn't have 
happened. And so I understand all that.
    I'm trying to, practically, figure what we do immediately. 
And immediately, you're in a situation where you're saying 
elections make sense whether they would or would not have 
stopped what happened, that there is an insurgency that is 
indigenous, that's there. It's not going to go away, whether or 
not there are free and fair elections. And so what's the answer 
to deal with that? The answer to deal with that is greater 
security. The answer you've suggested, Mr. Perle, is that that 
rests with the Iraqis, training up the Iraqis. Yet every 
expert, people you used to work with in the Defense Department, 
who I visited with in Iraq, out of Iraqi, in the United States, 
in the Balkans, in Afghanistan have told us repeatedly, from 
the beginning, it's going to take a minimum of 3 years just to 
get to 40,000 trained Iraqis for the military, and going to 
take 5 years to get to 75,000 Iraqi police, which is the 
estimated need nationwide.
    So what happens in the meantime? One of the things that I 
get from Iraqis--when I was there, as well as I get now--is 
that there's a resentment--and, in a sense, it's unfair to our 
troops--they believe our troops are there for force protection; 
they're not there to keep their daughter from being raped, 
they're not there to keep their daughter from being kidnaped, 
they're not there to keep their streets safe, they're not there 
to keep their homes from being looted, they're not there to 
keep them from being victimized. And there is nothing in 
between.
    Again, last summer we went out to the police headquarters 
in Baghdad. We spoke with our trainers, our guys, our people, 
bright people--a year ago, almost--and they sat there and told 
us, when we asked them, ``If you had all the money in the 
world, if we gave you every single thing you needed now, how 
long is it going to take you just to train up an Iraqi police 
force you could have some confidence in and be able to provide 
that kind of security for the people in Baghdad?'' Not 
nationwide; in Baghdad. They said that would take at least 18 
months. At least 18 months.
    And so what do we do? Is that wrong? Or can we train these 
folks up----
    Mr. Perle. I think it's wrong. Yes, I think it's wrong.
    Senator Biden. What evidence do you have?
    Mr. Perle. The question is, what standard are you going to 
train people to?
    Senator Biden. Well, let me define the standard. To train 
them to the point that someone sending their daughter to a 
local school--great things we've done, open schools--does not 
have to sit outside that facility--as I watched--in automobiles 
with their motor running the entire period their daughter is in 
there so that they don't have to walk from the front door of 
the school to the car without the mother or father being there 
to physically make sure the daughter makes that path, which is 
no longer from this wall to that door. So to provide that kind 
of security. So they're comfortable to the extent that one is 
comfortable in major cities in the world, that they are likely 
that their daughter can make it from the school door to the 
automobile or the bus, or they're likely to be able to walk or 
get in an automobile and drive from point A to point B in Iraq 
without them being victimized--not blown up; their car being 
stolen, just that. Just basic elements of what we would 
consider to be basic order, so that people could go to the 
grocery store, go to a local bank, make sure they send their 
kid off to school, and have some prospect that it is likely 
that they can get back to their home safely. That's all I'm 
talking about.
    Mr. Perle. But in much of the country, Senator, that's the 
situation today.
    Senator Biden. Oh, in much of the country, it is. But in 
much of the country, it isn't. In a vast portion of where the 
populations are, it isn't; at least they don't think it is. In 
my visits, they don't think it is. I don't have anybody telling 
me--do you guys get that? I mean, do they think it is?
    Dr. Cole. Well, actually, in the parts of the country that 
there's fairly good security, it is because the CPA or the 
local authorities are cooperating with these militias. The 
small city of Samawah, where the Japanese are, is being 
patrolled by al Da'wa paramilitary and by the Supreme Council 
for Islamic Revolution in Iraq's Badr brigade. In Basra, at 
least Arabic press reports suggest that the British officials 
have openly made a kind of agreement with Badr corps and other 
Shi'ite militias to patrol the streets in Basra. And so you 
have fair security in Basra, but it is as the price of these 
paramilitary groups having a certain amount of influence.
    And I'd like to suggest that it's not useful to demonize 
them. That is to say, a lot of these are poor Shi'ite guys, who 
are unemployed otherwise. They maybe get a small stipend if 
they join a militia. They're fluid. Their loyalties are in 
flux, you know----
    Senator Biden. Well, I'm not demonizing. I'm not sure----
    Dr. Cole. No, oh, I'm not suggesting that you did. I'm 
suggesting that somebody else did.
    Senator Biden. No, all I'm trying to do is get to the point 
where--where are we able to be, other than--for example, Chuck 
Hagel and I spent a little time in Northern Iraq, up in Arbil. 
We met with Barzani and Talabani. There's security up there. 
You drive through these big stone entrances, and you see guys 
standing up on top of the stone entrance with their AK-47s. 
They're the Barzani clan. There's security in there. They're 
not a problem. They've got security, man.
    Matter of fact, the only thing I worried about in Arbil is, 
one of these guys were going to trip on the marble floor and 
their gun was going to go off, and there are about 80 of them, 
literally, in this hallway, all carrying AK-47s. I was hoping 
they had their safeties on. They were there to protect me. I 
was worried one of them was going to trip down the steps and 
accidentally shoot me.
    So there's that kind of security. But what I'm talking 
about is this notion of some idea of a kind of police force 
that quasi-democracies have. And the experts I've spoken to, 
Richard, tell me it's going to take 3 to 5 years to get there. 
You're telling me you can do that quickly.
    Mr. Perle. I think if you believe that you've got to build 
a police academy first, and go out and acquire real estate to 
do that, and produce a freshly minted police department in 
classes the way we would go about it, I suppose it could take 5 
years. If you say to Barzani or Talabani, we need some police. 
Can you help us out with some people that we can put through, 
sort of, basic police training? Can you draw them from the pesh 
merga? I think you'll get police----
    Senator Biden. I agree.
    Mr. Perle [continuing]. In a hurry. And we need to----
    Senator Biden. But what about the Sunni triangle?
    Mr. Perle [continuing]. Adapt to the local situation.
    Senator Biden. Who do we go to in the Sunni triangle to say 
that?
    Dr. Dodge. I think we have a tension between long-term 
strategy and short-term tactics. The short-term tactics of the 
British doing deals on street corners in Basra and across the 
south did result in a very uneasy law and order that we saw 
broke down over the last 2 or 3 weeks because it was uneasy, 
and it was a compromise between a weak occupying force and a 
weak set of militias. And when the sections of militias decided 
they didn't like the occupying force anymore, they revolted 
against them. The security that you saw in the north is another 
militia. It's not providing law and order; it's backing 
Barzani, Talabani.
    Senator Biden. I agree, yes.
    Mr. Perle. And that's the great worry. So the number of 
short-term deals you get to get some rough-and-ready security 
stood up, the longer long-term weakness of law and order.
    I think there's two points. And I totally agree with what 
Mr. Berger said in the last testimony, as far as I saw--5 
years. And what do you do while that's unfolding? You try and 
drain the popularity away from the militias, away from the 
insurgents, and you do that by democracy. So it's a dual 
tactic. You clearly state what the Iraqi people were promised 
in the runup to the invasion--was democracy, stability, and 
rule of law--and that takes time. And there are shortcuts you 
take that undermines that. And while you do that, you give them 
democracy so they can channel their energies into a process 
they believe they own. So it's a dual-track thing. The more 
corners you cut, the more you're undermining the promises given 
to the Iraqis just before the invasion.
    Senator Biden. Well, there's many more questions, but so 
little time, and the Chairman is accurately pointing out we 
have a colleague here. I apologize, Senator. I didn't see you 
there. I'm sorry for going on.
    The Chairman. And Senator Corzine.
    The Chairman. Thank you, Senator Biden.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman, very much. And 
thank you for being here, gentlemen.
    I wanted to catch, Mr. Perle, just a question here. We've 
had a number of people--and, I'm sorry, I missed some of the 
testimony earlier, so if this has already been discussed, 
forgive me for not having heard it--we've got a number of 
people that are pushing that we need to further 
internationalize the effort in Iraq, and clearly we want 
international support for it. There's no question about it. But 
if that means that we bring in a lot more international troops 
and police, what are we currently getting out of 
internationalizing it, beyond us and the Brits? And what would 
we get if we further internationalized it on the security-force 
area?
    Mr. Perle. I think, Senator, that the political support 
that comes from other countries contributing to the effort is 
very valuable. The practical effect of small numbers of forces, 
who may operate under rules of engagement that severely 
restrict their ability to take on the tough tasks--to deal with 
a Fallujah-type situation, for example--I think the 
contribution that comes through that means is pretty minimal. 
And there's sometimes the sense that we are carrying this great 
burden--and we are--and if we could only get others to share 
it, it would significantly diminish the burden we have to 
carry. I think, as a practical matter, that's highly unlikely.
    Senator Brownback. How do we get more of the international 
political support that we do seek, to where we wouldn't have 
the French, others, constantly belittling or berating what we 
are doing, which, to me--and I want to preface this by saying, 
I met, last week, with soldiers at Fort Riley that had been 
over in the region for a year. I had kind of a closed town-hall 
meeting with about 300 of them. And they're probably going back 
in less than a year. To a person, they were strongly supportive 
and believed in what they had done and were doing, and thought 
this a great and noble cause, and were deeply concerned that 
the weakest part--or what they're concerned about is moving 
U.S. public opinion, that it would somehow pull out--pull us 
out of the region, and then the sacrifices--the huge sacrifices 
we've already made would be seen as for naught. And they feel 
very honored to have done what they have done.
    How can we get to some of that international political 
support in ways that are not currently being done?
    Mr. Perle. I think that is, of course, a task for our 
diplomats, and they work at it. It's difficult. Take Spain, for 
example. We had the strong support of President Aznar. He's now 
been replaced by someone who doesn't support us, who's pulling 
his forces out precipitately. The French, for their own 
reasons, never liked our policy in Iraq. They don't like it 
today. Germans are similarly disposed, although not as 
vehement. The Italians are there with us. The Poles are there 
with us. In fact, many more countries are with us than have 
actively opposed us.
    What I think really matters is less what someone in the 
Elysee Palace or the Quai d'Orsay thinks about the situation 
than what Iraqis themselves think, which is why I believe it's 
urgent to empower the Iraqis. Up to this moment, we have not 
given the Iraqis any significant scope for taking their own 
destiny in their own hands. The Governing Council has had such 
a restricted mandate that it's not surprising that there's no 
confidence reposed in the people who have been appointed to the 
Governing Council.
    I think we will see a dramatic and significant change in 
the engagement of Iraqis when the Iraqis are represented by 
people they respect and admire and choose.
    Senator Brownback. And when they have real political 
authority.
    Mr. Perle. When they can make decisions. Nobody's going to 
pay a lot of attention to somebody who's appointed to an 
organization, but has no authority and no ability to make 
decisions to affect their lives. Where, at the local level, 
some of these councils have been, you see people getting drawn 
into a political process. And it's working in some places 
remarkably well.
    So I think we've done ourselves a disservice by regarding 
the Iraqis themselves as incapable of managing their own 
affairs in any significant way.
    Senator Brownback. So really the key to the future of Iraq 
is Iraqis; it's not internationalizing the event.
    Mr. Perle. I think internationalizing it could actually be 
inconsistent with rapid devolution to the Iraqis themselves. 
The United Nations, for example, is--let's face it, it is a 
large international bureaucracy. It has all the problems of a 
national bureaucracy, compounded by the fact that nations get 
to nominate personnel. And they do that for all kinds of 
reasons, including, sometimes, professional competence. So you 
have a big bureaucracy, which tends to stay for very long 
periods of time. They develop their own interest in remaining 
where they are. And that can encourage a culture of dependency 
and a lack of self reliance, and make it very difficult for 
people to assume responsibility for themselves.
    So I certainly hope we don't see a large-scale 
internationalization of this. I think that will retard the 
essential, which is rapid movement, toward the empowerment of 
Iraqis.
    Senator Brownback. Is that the difference in the model 
between Afghanistan and Iraq that we've seen as--where in 
Afghanistan, we brought in Afghanis to run things--were brought 
in to have real political authority much quicker than what 
we've seen taking place in Iraq?
    Mr. Perle. There's certainly lots of problems in 
Afghanistan. But I think the fact that Karzai came in rather 
quickly, and there is now a political process, there's now a 
legislative body--I think all of that has contributed to the 
significant progress that's been made in Afghanistan. The 
principal problem in Afghanistan is resources. They simply 
don't have the money to develop the country as rapidly as it 
needs to be developed.
    Senator Brownback. Well, you just don't hear, kind of, the 
international harping on Afghanistan, like you do on Iraq. Now, 
maybe there's--the Iraqi legacy is there anyway. But it strikes 
me a good part of it is, is that you--Afghanistan, you had an 
Afghan face and leadership rather quickly there and--we're a 
year later in Iraq, and we still don't have an Iraqi leadership 
in Iraq.
    Mr. Perle. I believe that Iraq has become the poster child 
for a lot of resentment at the emergence of the United States 
as the super power. It's not insignificant that President 
Chirac decries the existence of a unipolar world. And there is 
bound to be a certain amount of resentment at the position we 
occupy. And distancing themselves from our activity in Iraq, I 
think, is part of that. It's caught up in the global politics 
of that. So I think that exaggerates the problem. It's one of 
the reasons why I think it's unrealistic to expect significant 
contributions from other countries beyond those who are already 
in Iraq. And it's a reason why I don't think we should be 
deeply troubled by that. We need to get on with the business in 
Iraq.
    The right answer in Iraq is success in Iraq, and the 
quickest route to success is by empowering the Iraqis. We don't 
want to be an occupying power, we don't want to deprive the 
Iraqis of a real political process. Legitimacy for their 
leaders is very much in our interest and in the world's 
interest, and we've just got to get on with it.
    Senator Brownback. If I could just, Mr. Chairman--it 
strikes me, from what you're saying, actually we could delay 
the process of bringing Iraqis in control, I think, as you said 
earlier, if we'd further try to really spend our energies on 
internationalizing this effort.
    Mr. Perle. Indeed. I'm a little concerned about the idea 
that the CPA--which I think has 3,000 people now in Baghdad, 
who are not communicating--I think the point that was made is 
quite right, the isolation of the CPA is a serious problem. And 
there are reasons for that. Physical security is one; language, 
another; skills is another. But I hope that after the Iraqis 
begin to assume responsibility for themselves, we wind up with 
an embassy in Baghdad that is a normal embassy, and not--that 
we don't simply change the nameplate by the door from 
``Coalition Provisional Authority'' to ``United States 
Embassy.''
    The Chairman. Let me recognize Dr. Cole, and then we 
probably should move on to----
    Senator Brownback. Thank you, Mr. Chairman.
    The Chairman. Dr. Cole.
    Dr. Cole. I think that the question of internationalization 
depends upon what it means. That is to say--and I think we have 
to really question this idea of ``the Iraqis.'' I mean, we were 
told, last year this time, that ``the Iraqis'' were going to 
jump up and down for joy that the United States came in, and 
they'd be putting garlands of roses on everybody's necks, and 
``the Iraqis''--well, of course some Iraqis felt that way. 
Certainly. A lot of the Shi'ite and Kurdish Iraqis were very 
glad to see the Americans show up and get rid of Saddam.
    Mr. Perle. It's about 85 percent of the population.
    Dr. Cole. But ``the Iraqis'' don't exist. And, of course, 
what that argument left out was that there was going to be a 
substantial number of Iraqis who weren't going to be happy to 
see these things. So when we say that ``the Iraqis'' should 
take over, of course the Iraqis should take over, but there's 
going to be a caretaker government as of June 30, and the 
question is, who exactly is going to be in the caretaker 
government, which Iraqis, and how is it going to be chosen, and 
is it going to be trusted by large sections of the various 
constituencies inside Iraq to preside over the transition to an 
elected government? Because it should be remembered that that 
caretaker government could work out lots of different ways. It 
could have advantages of incumbency, which would allow the 
appointees to take undue advantage of their position to try to 
propel themselves into power. We've seen a lot of nepotism and 
cronyism among members of the Interim Governing Council. When 
they were asked to appoint cabinet members, they appointed 
their cousins and their sons, and contracts have been thrown to 
cronies, and so forth. So people in Iraq are very nervous about 
this process of how you get people in power, who exactly they 
represent, and whether they're going to misuse their position.
    So the precise form that President Bush appears to me now 
to have endorsed seems to be very wise, which is, you involve 
Mr. Brahimi, you involve the United Nations in making that 
determination of who exactly is going to be the caretaker 
government--the president, the vice president, the prime 
minister--on June 30. And that United Nations involvement will 
give that caretaker government a kind of legitimacy that 
appointment by the U.S. Government simply is never going to 
have. And I think we should understand that the last 3 weeks 
have demonstrated there are very substantial problems with the 
legitimacy of the American enterprise in Iraq. There are 
substantial--it's not just a couple of flare-ups--there are 
substantial proportions of that population that are very 
unhappy with the way things are going.
    So I think this is the right time to involve the U.N. in 
that particular regard. I'm not saying, necessarily, bring in a 
lot of U.N. troops or whatever. And I think Grand Ayatollah Ali 
al-Sistani, who is one of the most respected people in Iraq, 
has also endorsed this kind of process.
    The Chairman. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. And I truly 
appreciate your holding this set of hearings. I apologize for 
not being here earlier this morning, with work on the floor. 
And some of the questions may be repetitive.
    But one of the things--the assumptions that I am hearing 
here, which I'm actually quite troubled by, is that we have 
consistently set out game plans--I'm not even sure how 
effective those plans have been laid down--then had to change 
because circumstances on the ground, pragmatically, led to 
different responses to the current situation. We were supposed 
to have a status-of-force agreement put in place, I don't know, 
3 or 4 months ago. Given the fact that there has been this 
enormous shift--different people can categorize it however they 
want--the fact is, is that American men and women are losing 
their lives in this process, in untold numbers in the last 3 
weeks, and it certainly catches the public's attention, it 
catches this Senator's attention, and, you know, it has a great 
human element to it.
    Why are we so committed to a timetable that apparently was 
pulled out of the air more than--I've been involved in business 
plans, and sometimes you work your way through, and then you 
get to a point, and you say, well, we're not prepared to go. We 
don't know what the status-of-forces are, we don't know who 
we're going to transfer this to, we don't know what the civil 
sovereignty means, versus military sovereignty is about. We 
have a rough justice view of the direction of this. We're 
arguing about whether it should be internationalized or 
shouldn't be internationalized. I think we are not in a 
prepared state--it doesn't seem to me--now, I don't have all 
the information that I'd like to be asking the administration 
why they think we're in a period of preparation. We're still 
arguing about whether we should have more forces on the ground 
or we shouldn't have more forces on the ground. How do we 
create security? No one would disagree with Mr. Perle's 
argument in the long run that we'd like to have an Iraqi face 
on this. That's just not possible right now. Or if it was, then 
we have really not prepared ourselves for this moment in time.
    So the simple question is, why June 30? When, in fact, the 
most important thing--which I think was generally agreed by the 
panel--was getting to an election that actually has Iraqi 
legitimacy to it, as opposed to this mad rush toward June 30 
with all kinds of unanswered questions. In the Afghani model, 
which, by the way, at least to my mind, looked like an 
international--I thought they had an international conference 
in Bonn--people were on the ground, we had the United Nations, 
sort of, supervising how the thing worked. I see international 
troops fighting alongside the American side. Maybe that's not 
internationalization; maybe it's just Afghani. I don't really 
believe that. But the fact is, we need to make decisions that 
will allow for the reality of creating security and political 
arrangements that will set up this election that I think all of 
us agree ultimately are the appropriate things.
    What's so magic about June 30?
    Mr. Perle. Well, it's a date that was established--it's too 
late, in my view. It took rather longer than it should have for 
us to come to the conclusion that the position of an occupying 
power was one in which the situation would become increasingly 
difficult. And so we should have--in my view, we should have 
prepared to turn over sovereignty much before now.
    But having settled on this date, Senator, to back away from 
it at this point would raise the question of----
    Senator Corzine. Even if we're unprepared? Even if there 
are so many unanswered questions that your result of that 
turnover----
    Mr. Perle. I think they're going to be unanswered--no 
matter what the date is, there are going to be unanswered 
questions. If one could show that if you slip this by a month, 
something of critical importance that will improve the 
prospects for success will take place in that intervening 
period, I suppose like a business plan, you'd have a good 
argument for examining that. One should be open-minded about 
it. But we will get readier when we face a deadline. Campaigns 
come together in the last few weeks before people go to the 
polls. Things get sorted out in mergers and acquisitions when 
you're facing the deadline. I think the deadline's important. 
It's action-forcing. And we've learned by experience that there 
are real limits to how much we can expect to plan and organize. 
Things have a life of their own. So I think it would be a great 
mistake to slip this date, and it would raise a question about 
what the alternative date is going to look like as we approach 
that.
    If you believe, as I do, that the beginning of the process 
of empowering Iraqis is politically critical to evolution in 
the right direction in Iraq, then I think the argument for 
getting on with it is very powerful.
    Senator Corzine. I think you could accept your assumption 
that empowering them is right, but making sure you do it right, 
and answer the questions of status-of-force and making sure 
that there's enough security on the ground--not only for the 
Iraqi situation, which I think ultimately is what our mission 
is, but also for our own men and women that are carrying out 
that mission--is at least a question that I have.
    Mr. Perle. It's a fair question, but I don't believe the 
security situation would change dramatically if we added 
another 6 months. We have to deal with the problem in Fallujah, 
that's clear. We have to deal with some other isolated--I don't 
accept the idea that there's some mass uprising here. I don't 
see any evidence of a mass uprising. I think we've pretty much 
identified where the trouble is coming from, in Fallujah and 
among al-Sadr's militia. And, in fact, I think we're making 
significant--now, I haven't seen reports today--but significant 
progress in resolving at least the al-Sadr issue, and possibly 
in Fallujah, as well, with some people giving up their weapons 
through a negotiated arrangement. So the security situation, 
which looked dreadful last week, may look a lot better a week 
from now.
    But there's very little we can do quickly that is 
fundamentally going to give you confidence that the situation 
is secure, and I doubt that anyone would want to delay the 
movement toward Iraqi sovereignty for any extended period of 
time.
    Dr. Cole. Could I just say that the reasons for which this 
date was set have to do with the crisis of last October, when 
it became increasingly clear that Mr. Bremer could not, as 
initially envisaged, continue to rule Iraq virtually by fiat 
for an extended period of time. He flew back to Washington, he 
negotiated with the Interim Governing Council. And initially 
his plan was to have council-based elections and to have a more 
legitimate government come into power on June 30 that at least 
had some electoral input from some proportion of the Iraqi 
public. Those council-based elections were viewed by Grand 
Ayatollah al-Sistani and many other Iraqi actors as stage-
managed and not genuine representatives--representations of the 
Iraqi public will. And so that element of it had to drop out, 
but the transition remained. So there is a kind of natural 
history of how this thing has happened.
    But I have to say that--I read the Iraqi press in Arabic 
every day--my firm impression is that this is enormously 
popular among the Iraqis. That is to say they want a transition 
on June 30. There's no faction in Iraq, on any part of the 
political spectrum, that would be at all happy with any kind of 
delay in this date.
    And I think we have to recognize that, the way things have 
turned out, it is largely going to be a symbolic moment. I 
mean, the United States is still going to make a lot of 
important decisions in Iraq. There's going to be a weak 
caretaker government, which may have some U.N. influence in its 
appointment.
    But the big date now is next winter's elections. And if the 
security situation can be stabilized to the point, and if 
preparations can be made, for those elections actually to 
occur, that, for me, would be the light at the end of the 
tunnel. That's the one glimmer of hope I see in this situation.
    I don't understand how someone can look at what happened 
the last 2 weeks and say it's not a popular uprising. The 
United States lost control of much of Baghdad. Its supply lines 
and communications lines to the south were lost. A rag-tag 
bunch of militiamen in Kut chased the Ukrainian troops off of 
their base and took control of it. This was an uprising. And 
how much popular support it had is hard to know. It's true 
that, when pushed, these people took off their uniforms and 
went home. But there are real problems here.
    Senator Corzine. I would only say, though, that if you 
create a structure that is a problem for getting to the 
elections, then you may have satisfied public opinion--so-
called public opinion in the short run, and ended up creating 
one helluva mess when you get to what I think, all the voices I 
hear, both those that were in favor of this, weren't in favor 
of it. And none of us want to ``cut and run,'' but we want to 
get to a positive conclusion. That is those elections. And it 
seems to me--just one person's observation--we're on a mad rush 
with regard to a lot of unanswered questions, and that we feel 
pressure about it.
    Dr. Dodge. I think that that's the great danger that you've 
both hit upon, that there is a sense that something's going to 
change on June 30, in Iraqi popular opinion; and when we look 
at what that's based on, there aren't state institutions in 
Iraq that run from Baghdad to the periphery of the geographical 
area of Iraq. The polity, as we've seen, is not ready for 
elections when--so there'll be an interregnum before elections 
come, and security is absolutely dreadful. And, when pushed, 
the new indigenous security structures, the police and the 
army, ran away or refused to fight when they were asked to 
impose security. So then there is a buildup of aspiration 
around June 30 that I suspect, in a pessimistic prediction, 
will then--when that popular opinion realizes that nothing 
changes after June 30, then things may well get a lot worse in 
the runup--in the aftermath of that date, that--exactly as you 
say, Senator, that that goodwill or hope will be then frittered 
away, and the next dates will be even more difficult to move 
toward. That's the great danger, that nothing about this 
handover has been nailed down, nothing--we can't say--the ink 
has not dried yet, the document hasn't been written yet. There 
is so much uncertainty in a very uncertain and disturbed 
country, that June 30 may well add to our problems, not detract 
from them.
    Senator Corzine. Thank you.
    The Chairman. Thank you very much, Senator Corzine.
    I thank each of you for your patience and your longevity in 
this hearing and your wisdom.
    The hearing is adjourned.
    [Whereupon, at 1:11 p.m., the committee adjourned, to 
reconvene at 9:30 a.m., on April 21, 2004.]

                                 <all>

</pre></body></html>
